<html>
<title> - DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 2000</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
 DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 2000

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS
                              FIRST SESSION

                                ________

   SUBCOMMITTEE ON THE DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES

                      RALPH REGULA, Ohio, Chairman
 JIM KOLBE, Arizona                   NORMAN D. DICKS, Washington
 JOE SKEEN, New Mexico                JOHN P. MURTHA, Pennsylvania
 CHARLES H. TAYLOR, North Carolina    JAMES P. MORAN, Virginia
 GEORGE R. NETHERCUTT, Jr.,           ROBERT E. ``BUD'' CRAMER, Jr.,
Washington                              Alabama
 ZACH WAMP, Tennessee                 MAURICE D. HINCHEY, New York
 JACK KINGSTON, Georgia
 JOHN E. PETERSON, Pennsylvania     

 NOTE: Under Committee Rules, Mr. Young, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
   Deborah Weatherly, Loretta Beaumont, Joel Kaplan, and Christopher 
                                 Topik,
                            Staff Assistants

                                ________

                                 PART 10
                                                                   Page
 Smithsonian Institution..........................................    1
 National Gallery of Art..........................................   71
 John F. Kennedy Center...........................................   79
 Woodrow Wilson Center............................................   87
 National Endowment for the Arts..................................   97
 National Endowment for the Humanities............................  169
 IMLS--Office of Museum Services..................................  239
 Commission of Fine Arts..........................................  261
 Advisory Council on Historic Preservation........................  277
 National Capital Planning Commission.............................  301
 Holocaust Memorial Council.......................................  317
 Presidio Trust...................................................  325
 Testimony of Members of Congress.................................  331

                                ________

         Printed for the use of the Committee on Appropriations

                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
 56-837 O                   WASHINGTON : 1999



                        COMMITTEE ON APPROPRIATIONS

                   C. W. BILL YOUNG, Florida, Chairman

 RALPH REGULA, Ohio                    DAVID R. OBEY, Wisconsin
 JERRY LEWIS, California               JOHN P. MURTHA, Pennsylvania
 JOHN EDWARD PORTER, Illinois          NORMAN D. DICKS, Washington
 HAROLD ROGERS, Kentucky               MARTIN OLAV SABO, Minnesota
 JOE SKEEN, New Mexico                 JULIAN C. DIXON, California
 FRANK R. WOLF, Virginia               STENY H. HOYER, Maryland
 TOM DeLAY, Texas                      ALAN B. MOLLOHAN, West Virginia
 JIM KOLBE, Arizona                    MARCY KAPTUR, Ohio
 RON PACKARD, California               NANCY PELOSI, California
 SONNY CALLAHAN, Alabama               PETER J. VISCLOSKY, Indiana
 JAMES T. WALSH, New York              NITA M. LOWEY, New York
 CHARLES H. TAYLOR, North Carolina     JOSE E. SERRANO, New York
 DAVID L. HOBSON, Ohio                 ROSA L. DeLAURO, Connecticut
 ERNEST J. ISTOOK, Jr., Oklahoma       JAMES P. MORAN, Virginia
 HENRY BONILLA, Texas                  JOHN W. OLVER, Massachusetts
 JOE KNOLLENBERG, Michigan             ED PASTOR, Arizona
 DAN MILLER, Florida                   CARRIE P. MEEK, Florida
 JAY DICKEY, Arkansas                  DAVID E. PRICE, North Carolina
 JACK KINGSTON, Georgia                CHET EDWARDS, Texas
 RODNEY P. FRELINGHUYSEN, New Jersey   ROBERT E. ``BUD'' CRAMER, Jr.,
 ROGER F. WICKER, Mississippi            Alabama
 MICHAEL P. FORBES, New York           JAMES E. CLYBURN, South Carolina
 GEORGE R. NETHERCUTT, Jr.,            MAURICE D. HINCHEY, New York
Washington                             LUCILLE ROYBAL-ALLARD, California
 RANDY ``DUKE'' CUNNINGHAM,            SAM FARR, California
California                             JESSE L. JACKSON, Jr., Illinois
 TODD TIAHRT, Kansas                   CAROLYN C. KILPATRICK, Michigan
 ZACH WAMP, Tennessee                  ALLEN BOYD, Florida
 TOM LATHAM, Iowa
 ANNE M. NORTHUP, Kentucky
 ROBERT B. ADERHOLT, Alabama
 JO ANN EMERSON, Missouri
 JOHN E. SUNUNU, New Hampshire
 KAY GRANGER, Texas
 JOHN E. PETERSON, Pennsylvania     
                                    

                 James W. Dyer, Clerk and Staff Director

                                  (ii)



DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 2000

                              ----------                              

                                          Thursday, March 11, 1999.

                      THE SMITHSONIAN INSTITUTION

                               WITNESSES

I. MICHAEL HEYMAN, SECRETARY
CONSTANCE B. NEWMAN, UNDER SECRETARY
J. DENNIS O'CONNOR, PROVOST
L. CAROLE WHARTON, DIRECTOR, OFFICE OF PLANNING, MANAGEMENT AND BUDGET
MICHAEL H. ROBINSON, DIRECTOR, NATIONAL ZOOLOGICAL PARK
RICHARD H. RICE, JR., SENIOR FACILITIES SERVICES OFFICER

                            Opening Remarks

    Mr. Regula. The subcommittee will come to order.
    We are happy to welcome our guests from the Smithsonian, 
Mr. Heyman, Ms. Newman, Mr. O'Connor. I am interested in your 
highest priorities. Obviously, as you know from listening to 
the news, we may have some pretty challenging fiscal problems 
this year to meet all the needs that come along, so we will try 
to do it within the constraints of good management. As you 
know, I am interested in getting the maintenance under control 
and that has a high priority, so we will be talking about that 
in the form of questions. I note that you are requesting an 
increase of $40 million over fiscal year 1999, so it is pretty 
obvious that you have some priorities that are reflected in 
that $40 million.
    I think we will get on with the hearing. And as far as my 
comments, they will be embodied in the questions I will be 
asking.
    Mr. Dicks?
    Mr. Dicks. Mr. Chairman, I just want to welcome our 
witnesses today and look forward to the hearing.
    Mr. Regula. Thank you.
    Mr. Secretary, your full statement will be made a part of 
the record and you can comment as you see appropriate.
    Secretary Heyman. Thank you, Mr. Chairman. Good morning, 
and good morning to you, Mr. Dicks. I am not going to read this 
whole statement but I will refer to some portions of it and 
share them with you, and then, of course, we will be ready for 
any questions that you have.


                      secretary heyman's departure


    As you know, after considerable deliberation, I informed 
the Regents of the Smithsonian that I would step down as 
Secretary at the end of 1999. Of course, I do this with regret 
but with some pleasant anticipation of getting back to 
California and starting to do a little bit.
    Mr. Regula. I assume the last week will make you look on it 
in even more pleasant anticipation because it doesn't snow much 
there.
    Secretary Heyman. Not where I live in California. I have 
really tried to use these years as Secretary for many purposes, 
but my priority has been to maintain the quality of the 
programs that we offer for visitors and elsewhere and to carry 
on first-rate research. I have been equally dedicated to trying 
to share the experiences of the Smithsonian with people outside 
of Washington.


                          affiliations program


    There have been three programs that we have both been 
expanding and/or we have created in these four to five years. 
One of them is the Affiliations Program, and that seems to be 
going great guns. It was created in 1996 by the Regents. We 
have had now more than 150 inquiries with respect to entering 
into affiliations with the Smithsonian by local museums or 
museums that are coming on line. We have got 23active 
affiliations under consideration at the moment and 5 have been fully 
implemented, and you can just feel the momentum increasing. I think 
that we will find Smithsonian objects around the country in a way that 
will give access to people who otherwise would not be able to see them. 
Given the number of objects we have, obviously, to spread them out is a 
very good idea.
    Also in terms of just giving access to the objects 
themselves, I watched truck load after truck load of objects 
that were being taken up to Bethlehem, Pennsylvania, for the 
opening of the National Museum of Industrial History in 
Bethlehem. That is an exhibit that is going to have a lot of 
very large artifacts from the Smithsonian and we are curating 
it also. All of this is at the expense of the National Museum 
of Industrial History.
    Mr. Regula. Is it open, or when will it be?
    Secretary Heyman. When do you think that exhibition will 
open?
    Mr. O'Connor. Late this year or early next year.
    Secretary Heyman. So you really can see the manifestation 
of that in that project especially because there are so many 
objects involved.

          smithsonian institution traveling exhibition service

    We have been paying a lot of attention to SITES, which, as 
you know, is the Smithsonian Institution's Traveling Exhibition 
Service. Really, a lot of people see SITES shows as they travel 
around the country. We had 74 exhibitions I believe last year 
that appeared in about 150 different sites. And we are doing a 
number of really very interesting ones now. A new one is going 
to be ``Microbes: Invisible Invaders, Amazing Allies,'' which 
is going to open here in Washington and then travel. And then, 
of course, ``Earth 2U,'' the geography show that we have done 
with the National Geographic Society has just been absolutely 
sensational and continues. And we are doing one called 
``American Glass: Masters of the Art.'' I am just mentioning 
the larger ones.
    In recent years, SITES has developed a rural initiative in 
partnership with the Federation of State Humanities Councils. 
It is called Museum on Main Street, and it has brought SITES 
exhibitions to more than 100 rural communities, many of which 
are 10,000, 9,000, 3,000 in population. They have created an 
awful lot of enthusiasm. And ``Barn Again'' was one that we 
spoke about last year. It is just a wonderful way for the 
Smithsonian to touch people who otherwise have really very 
little access at least to see actual photographs and actual 
objects.

                            internet access

    Of course the Internet is growing and growing. I don't 
think we know where that is going exactly, but we are averaging 
well over 30 million hits a month. I think there was one month 
we had 38 million hits. We have all of this material on the 
Internet and, of course, the potentialities are extraordinary 
in regards to virtual exhibitions.
    Mr. Regula. Do you have a breakdown on the 38 million--
schools, educational, or groups--as opposed to individual hits?
    Secretary Heyman. Let me ask my expert over here to find 
out.
    Mr. O'Connor. We don't have that, Mr. Chairman. What we do 
know is how many individual units are coming in to create those 
38 million hits. That still doesn't tell us precisely how many 
people are viewing the screens as they come up. It's a tough 
number to get for us.
    Mr. Regula. I was just curious.
    Secretary Heyman. In any event, I think that we are just at 
the beginning of understanding how this is going to impact and 
affect people in general. I think we should all be very excited 
about the potentialities of doing education, both informal 
education and formal education, over the Internet. I was going 
to mention that, as we all know, the Smithsonian is very 
involved in informal education; people coming to museums, 
seeing objects, reading labels, and educating themselves.

                            formal education

    But we are also very involved in formal education, as you 
know, and that goes all the way from the magnet schools that we 
have been working with in the District of Columbia to a variety 
of other kinds of programs. One that I will mention that is 
going to expand immensely is one that the National Museum of 
Natural History is involved with and it is a partnership with a 
corporation called Voyager, Inc. And Voyager has been the one 
that has made the connections with school districts around the 
country offering after school and summer programs. And we are 
doing a number of the units--the content of those, and we are 
mixing a variety of kinds of media--actual objects together 
with electronic transmission. Those activities are carried on 
or directed by people in those school districts who go through 
training programs. I think this kind of use is just going to 
increase constantly and I think it is a very important service 
that the Smithsonian can offer.

                       visitorship at smithsonian

    Let me highlight just a few of the facts about the 
Smithsonian in the past year. We had over 31 million visits 
recorded this past year. That was up about 4 percent from the 
year before. And if you will remember, we went up 15 percent 
between 1996 and 1997. I think we are reaching our capacity in 
a way of through-put in the museums, but we have just got a lot 
of interest in coming to us.
    The National Air and Space Museum had almost 10 million 
visits last year. That, in part, was stimulated by the Star 
Wars exhibition which ended in January. That attendance is 
going to go down this year as we don't have that exhibition and 
as we are doing a lot of renovation in the Air and Space Museum 
so there is less area within that museum for both people to fit 
and for new exhibits to be put on. But we have got to replace 
all that glass, as you know, and replacing that glass is a very 
big job and you have got to cut off portions of the museum as 
we are doing that.

                             imax theaters

    The Air and Space Museum has a wonderful IMAX theater, as 
you know, and now we have a new IMAX theater on the other side 
of the Mall at the National Museum of Natural History which 
opens to the public in May. I want to urge any of you who 
haven't, to come especially to see ``Everest.'' I think that is 
one of the most extraordinary IMAX films I have ever seen.
    Mr. Regula. Which place?
    Secretary Heyman. That is at Air and Space. Based on the 
last schedule I saw, we do five different shows each day and 
``Everest'' is usually the last show at 6:00 pm. We could make 
arrangements for any of you who wish to come because it is an 
extraordinary show.
    The first show ever, the one that has inaugurated the IMAX 
theater over at Natural History, is called ``Africa's Elephant 
Kingdom.'' I have not seen it myself. I just introduced it and 
then had to go to something else. But my colleagues have and 
were very impressed with it.

visitorship at the national portrait gallery and the national museum of 
                              american art

    It is interesting to see that visits to the National 
Portrait Gallery and the National Museum of American Art 
haveincreased as the re-development of the area around the MCI arena 
has had such an impact with a lot of new restaurants and other 
activities, and you can see that in the attendance figures at those 
museums.

                              exhibitions

    And over this period of time, we have had a number of 
noteworthy exhibitions, as you know. I am just going to mention 
two. One is in the Arts and Industries Building right next to 
the Castle, which is ``Speak to My Heart: African American 
Communities of Faith and Contemporary Society.'' I don't know 
if we are breaching the line, but as you walk into that 
exhibition you really do feel that you are in a church. The 
complexity of the way that exhibition is organized gives you 
that sense.
    The other one that I will just mention is the completion 
now of the Janet Annenberg Hooker Hall of Geology, Gems and 
Minerals. The last exhibition now has been put into place and 
that is on rocks. It is called the Rock Hall. I think that 
whole series of rooms, starting with the Hope diamond and then 
going to gems, and then going to an absolutely wonderful 
exhibition of minerals, and then into a mine, and then into the 
Rock Hall, and then into learning all about tectonic plates, 
and then going into space with rocks from the Moon and from 
Mars, et al, I just think that is an absolutely wonderful 
addition. You can now see as the word gets around that people 
just kind of home in to that exhibition as they come into the 
Natural History Museum.

                          star-spangled banner

    On December 1st, we witnessed the almost flawless, I think 
completely flawless, takedown of the Star-Spangled Banner from 
the display in Flag Hall, and that was memorialized by the 
History Channel, in collaboration with Museum staff, in a 
documentary. And in October, the preservation project in fact 
began in earnest when walls were erected to enclose the 
conservation and exhibition area. You know that eventually, and 
I think this is going to be in April, we will have it ready. We 
will be doing the restoration of the flag in an area where 
people can watch the restoration and the conservation 
activities occur.
    Mr. Regula. That's great.
    Secretary Heyman. Those will occur over a two to two-and-a-
half year period and they will be fully visible. So people will 
be able to get a real sense of how you go about a complex 
project of this sort, which seems to be a really wonderful way 
to do it. It appears that our funding for this whole project is 
now secure. So we are pleased with that, obviously.

                                research

    I want to mention a couple of things in the research area. 
One, I just want to focus our attention on the Smithsonian 
Environmental Research Center that is on the Chesapeake Bay. I 
have spoken briefly about that in years past, but we now have a 
new education center there, that was mostly privately financed, 
called the Philip D. Reed Education Center. It is making it 
much easier to bring groups of school children down from as far 
away as the District of Columbia to be educated in the 
activities that are going on at that center. And it is also 
useful for other kinds of activities.
    SERC really provides a unique opportunity to study a 
variety of things, and I will just mention two. The project 
that has been ongoing for quite some time is to look at what is 
happening to the Chesapeake Bay as various non-native species 
come out of the ballast of ships that load in ports in the 
Chesapeake. This past year I think has been the year in which 
we have identified non-native species of bacteria that can 
cause cholera that have been put into the Bay. We have been 
working in concert with others on this research for some long 
period of time. It is a very important research matter, if we 
all remember what happened to the Great Lakes with mussels that 
came in from Asia. Most of the non-native species die because 
they are in an environment that is not supportive to them, but 
some of them can really flourish because they have no 
competitors. So we are doing quite a bit on that.
    The other thing that we are doing that seems to me a really 
wonderful research project in terms of its implications is that 
we have been doing a lot of research on how to keep pesticides 
and like substances that you use on agricultural land from 
going in through estuarine systems into bodies of water like 
the Chesapeake. What we have been doing is cultivating mostly 
forest strips between the cultivated land and the body of 
water. The absorptive power, we have found out, in doing that 
kind of planting has been considerable in order to protect the 
estuarine from runoffs of materials that are bad for it.
    We have made a lot of other noted research finds in this 
past year, as we have in the past. They have been at SAO, which 
is the Smithsonian Astrophysical Observatory of such 
extraordinary quality. They have been at the Smithsonian 
Tropical Research Institute. There have just been many and we 
are happy to talk about any of those in response to questions 
that might interest you.

                       smithsonian budget request

    Let me turn now very briefly to our request for the fiscal 
year 2000. As you noted, we are asking for an increase that is 
not insubstantial, not overwhelming but not insubstantial, with 
respect to the fiscal year 1999 budget. We have in this budget 
$380.5 million for Salaries and Expenses, and $66.9 million for 
the capital program which includes R&R. In Salaries and 
Expenses, 58 percent of that requested increase is for 
mandatory costs. If you ask me, as you do each year, what is my 
top priority, my top priority is the mandatories so that we can 
keep ourselves even in terms of the noncontrollable increases 
in costs on our base.
    We are asking for $14 million for program priorities in 
addition to the mandatories. Those include four activities. One 
is what we believe is the necessary increase for the National 
Museum of the American Indian, largely to staff up the Cultural 
Resources Center which you visited at Suitland, and to get on 
with bringing the artifacts down from New York to Suitland, and 
some exhibition preparation for the opening of the National 
Museum on the Mall for which we are coming to the final Federal 
increment. That together with R&R are my second and real 
priorities in terms of the overall budget, although everything 
that we have in here is very important to us.
    Second, among program priorities, is an increase for access 
to collections information, with much of that going into 
digitizing our basic records, the objects in the collections, 
because that is the center of the infrastructure for the whole 
of the Internet. We have got to get more things that we can put 
on line.
    Third is $2 million to prepare artifacts for relocation 
from the Garber Facility to the Dulles Center of the National 
Air and Space Museum.
    And finally, a $2 million sum for modernization of the 
security system of the Institution. As you know, because we 
have discussed it before, that has been going along and the 
Under Secretary is here to answer any questions with regard to 
that.
    On the capital side, the two major issues are the National 
Museum of the American Indian. The final Federalincrement is 
being sought this year. That is $13 million for construction and the 
balance of $6 million for equipment. I have said to myself and to the 
public that being able to break ground on that at least this spring is 
a very high priority of us at the Smithsonian. The more I have thought 
about it, the more I have thought that when that is finally constructed 
and it has got the exhibitions in it, it is going to be one of the two 
or three most visited museums of the Smithsonian. The fascination with 
regard to Indian cultures and Indian objects is extraordinary. I was 
reminded of that when I keynoted a conference last week in Munich. We 
will get a lot of German visitors, let me tell you, because their 
fascination with Native American materials is just extraordinary.
    The other, of course, is the R&R budget. You and I both 
have been trying to work on that to get it up to the point 
where it is a self-sustaining operation, that our base can 
cover our needs over time with regard to our buildings. Now 
that we have added the Zoo, which we hadn't because of the 
manner in which we had budgeted previously, together with the 
rest of the Institution, for $60 million a year we can take 
care of it all. And if we can get up there, and we have been 
getting up there with your help, we will really feel quite 
confident about what we can do.
    Most specifically, a portion of what we want to use monies 
this year for is the continuation of the major capital renewal 
projects at Natural History. It is such an enormous place there 
is an ongoing need to continue to upgrade. But one of the major 
things that we are talking about is the Patent Office Building. 
We really want to start on that in fiscal year 2000. We have 
done some of it already, minor amounts. That whole building 
needs a major renovation and repair. We have costed it at about 
$60 million. My colleagues think that is too little and my view 
has been that we will manage to do it on that. We are asking 
you not only in terms of this R&R sum but to do advanced 
appropriations so that we can do a $60 million contract in one. 
I hope that is going to be possible. I know there are 
difficulties in doing that but, nevertheless, that is the 
request that we are making.

                     secretary heyman's priorities

    Well, as you can see, Mr. Chairman, and gentlemen, we have 
had an active year. I personally intend to have a very active 
year in this final year of mine. I have four key priorities. I 
have mentioned one already, which is to participate in the 
ground-breaking for the National Museum of the American Indian 
on the Mall and try to take the steps that are necessary to 
assure that we are going to open in 2002. As we all know, we 
went through a dispute with the architects, in fact there is 
still some litigation with respect to that. But I think we are 
doing pretty well there, having been deposed two days by myself 
I had the sense that we were. But in any event, we have had 
very little slippage in terms of time because of that problem. 
So all of us who have been working on this at the Institution 
think that it is within reason to believe we can bring this on 
line and open it in 2002.
    Secondly, I really expect to see that the Institution's 
capital campaign is well-defined. I don't know if we will have 
announced it yet. The way that capital campaigns go, you do a 
lot of money raising during the quiet period before you make 
the actual public announcement. But I really want to see that 
in good shape. I must say that I was very worried about some 
aspects of it. One of those was with regard to the large amount 
of money we are going to have to raise or are raising for the 
Air and Space Museum. We have now reorganized that office in 
Air and Space and brought in some help from outside. I am much 
more confident now that we are going to be able to reach that 
goal, more so than I was the last time you and I talked about 
that.
    Thirdly, I want to bring to fruition the acquisition of an 
additional facility for the activities now in the Patent Office 
Building--on Smithsonian money, not on Federal money. You saw 
in the paper that we struck out in our attempt to acquire the 
Woodward and Lothrop building. We were about $2.8 million below 
the bid of the person who got it. But what we found out at the 
last moment, which was very chastening with respect to our 
opportunity, was that the Washington Opera was requiring that 
$2 million be put down and considered forfeitable if one did 
not go through with the contract. Our view was that there 
should be a due diligence period during which we could make a 
deeper inquiry into the condition of the building. And so that 
$2 million seemed like an option and I think we would have had 
a lot of difficulty in meeting that. We are now very involved 
in looking at other buildings and areas in the vicinity. They 
won't be as good as far as our original notion was at Woodward 
and Lothrop but I think we can do well. So I hope we will be 
coming back to the Regents and to you here with an alternative 
proposal shortly.
    Finally, I intend to have really up and working the new 
business organization within the Smithsonian that will take 
over a lot of the business activities.
    So, it has been a pleasure speaking with you. We look 
forward to questions. And I'll miss this next year. [Laughter.]
    Mr. Regula. We will miss you.
    [The Secretary's formal statement follows:]

[GRAPHIC(S) NOT AVAILABLE IN FORMAT]

    Mr. Regula. Thank you.
    The subcommittee will suspend to go vote and then come back 
for questions.
    [Recess.]

                       secretary heyman's legacy

    Mr. Regula. The subcommittee will reconvene.
    We are going to have five votes here shortly so we will 
have to work around that and get some of the issues out of the 
way quickly. First of all, I just want to express my regret 
that you are going to be leaving. I think you have done a 
terrific job.
    Secretary Heyman. Thank you, Mr. Chairman.
    Mr. Regula. And probably one of your greatest legacies will 
be a good team that you are leaving that can carry on and that, 
more than anything, will ensure that what you have accomplished 
will have continuity.
    Secretary Heyman. Thank you very much.
    Mr. Regula. I have a county out in my area that wants to go 
into interactive TV, and they want a grant. They are saying one 
of the most positive things that they will be able to do if 
they get this for the schools is to hook up with the 
Smithsonian. So that is in their grant request. I think that is 
a nice compliment to what you have accomplished.
    Secretary Heyman. That is great.
    Mr. Regula. I note from your comments on the affiliations, 
it is a good program and, of course, the FirstLady's Library in 
the McKinley home in Canton, you've been there, is the legatee of some 
of what you have done.

                        farm program at the zoo

    I have a number of questions. First, how are we doing with 
the zoo farm program?
    Secretary Heyman. Well, we are waiting for somebody to give 
us some money, Mr. Regula.
    Mr. Regula. I am working on that.
    Secretary Heyman. We are ready to carry on.
    Mr. Regula. You are ready to go if you just get the 
funding?
    Secretary Heyman. Yes. That is right. Maybe you could get 
Mr. Gingrich to come back and do a little work for us on that.
    Mr. Regula. I think that is a possibility. He is a good 
fund-raiser.

              national air and space museum--dulles center

    Let's do Dulles first. You have asked for $2 million for 
collections preparation. My understanding at the beginning of 
the project was that annual operations would be non-Federal. 
Has something changed? Or don't you consider that part of the 
annual operating cost?
    Secretary Heyman. I haven't thought about it that way. I 
really thought about that as activity that is going on at 
Garber in preparation for Dulles.
    Mr. Regula. So this would include rehabilitating the 
airplanes?
    Secretary Heyman. That's right.
    Mr. Regula. I know you have a lot of them out there.
    Secretary Heyman. We are going to move 160 major air and 
space craft over. We figure that with this kind of money we can 
accelerate to do four planes a month, get four ready a month. 
That is going to be taking a long time. Hopefully, we open 
Dulles at the right time, which would be on the 100th 
anniversary of flight. We would really like to be able to 
populate that with quite a few aircraft. Consequently, we have 
got to start now to up the activity that is occurring over at 
Garber.
    Mr. Regula. Now you did get $6 million in the ISTEA or TEA-
21 bill for the Air and Space Museum. Is that available, and 
could that money be used for your move?
    Secretary Heyman. Well, remember, it was transportation. So 
half of that amount is going to Air and Space and they are 
using a portion of that also for these purposes and a portion 
of that for upgrading the Air Transportation Hall. The other 
half is going to the National Museum of American History which 
is using it to upgrade the Rail exhibition. So about half of 
what we are getting is going into this.
    Mr. Regula. So it would be added to the pool, the $2 
million?
    Secretary Heyman. That's right.

                     dulles center--private funding

    Mr. Regula. How is the private fundraising going? I know 
you counted on $130 million. Of that amount, how much has been 
raised?
    Secretary Heyman. Well, we are at about $20 to $25 million. 
But I put a lot of personal work in, as well as Bob Hanle has, 
with the Air and Space Museum over the last month and I now 
have a confidence with respect to really starting to raise 
serious money. I think we have got some strategies now that 
look very promising. So I really am now optimistic about it.
    Mr. Regula. As you know, the State of Virginia made several 
commitments financially. Are they coming through on their 
promise?
    Secretary Heyman. As far as I know, they are coming through 
completely on their commitments. That is one of the stimulants 
for us to really make sure we do after their expenditures.

              impact of smithsonian research on the public

    Mr. Regula. Research. How do your research projects have an 
impact on the public?
    Secretary Heyman. I am going to ask Dennis to address the 
research.
    Mr. Regula. It is a pretty sizeable amount. You have given 
some illustrations in your testimony as to value of it. How 
does it touch the life of somebody in Canton, Ohio?
    Mr. O'Connor. Mr. Chairman, the Secretary certainly gave 
one example, the Chesapeake Bay and the studies that are going 
on there. We are also doing some interesting work in various 
forests around the world. One of the things that we are doing 
is simply blocking off anywhere from one hectare to five 
hectares or sometimes larger and going in and doing a complete 
census of all the plants that have a diameter of about 10 
centimeters. It may seem as though all we are doing is taking a 
census, but if you do that over time what it begins to tell 
you, if you look and see that some plants only have very large 
diameters, that means that the younger plants aren't surviving 
for some reason and growing up to be older plants. Likewise, if 
in particular species all you see are very small plants and you 
never see the larger diameter plants, it means that although 
the small ones are getting started, they are not growing to 
maturity. And one needs to then go back in with this kind of 
information and ask what could possibly be impacting that 
particular forest area that way.
    Another I think really wonderful set of observations has to 
do with the ability of plants in various environments and under 
different conditions to absorb CO<INF>2</INF>. Consequently, 
down at our Tropical Research Institute we have areas that have 
various kinds of CO<INF>2</INF> enhancers in the environment. 
Right now, we are at a stage where we are studying the 
instrumentation to be sure that under both windy conditions and 
under raining conditions that we can elevate the CO<INF>2</INF> 
for long periods of time. If we are able to do that, then we 
will be able to see what the effect of elevated CO<INF>2</INF> 
has on different kinds of forest species.
    Mr. Regula. Is this your cooperative effort with the DOE, 
the Department of Energy?
    Mr. O'Connor. That is one of the cooperative agencies, that 
is correct.
    Mr. Regula. Does any of your work with forestry overlap 
with the Department of Agriculture's Forest Service?
    Mr. O'Connor. Some of it does. Certainly, the example that 
the Secretary gave about the forest next to the stream land out 
at SERC has had that cooperation.

       smithsonian astrophysical observatory educational programs

    Mr. Regula. I understand that the Astrophysical Observatory 
in Massachusetts has several programs to link the classrooms 
with the stars, and that sort of fits with what I mentioned 
earlier. Tell us a little about that.
    Mr. O'Connor. One of them is really a fascinating one. They 
have five small telescopes in various locations--Alaska, 
Cambridge, Massachusetts, and other locations--that students in 
classrooms can regulate over the Internet so that the students 
can, in fact, focus these telescopes on particular parts of the 
sky, take the images, bring them down, study them, look at that 
same part of the heavens a month later or six months later to 
see the changes in the heavens. It is all done over the 
Internet with remote telescopes.
    Mr. Regula. Could a school that had interactive TV, and 
last week we had the head of the Boundary Waters Canoe Area 
testify here, use that facility as an education tool?
    Mr. O'Connor. They could certainly access the telescopes, 
yes.
    Mr. Regula. Very interesting.
    Mr. O'Connor. And then, of course, they do have an 
educational office that has developed both video and other 
kinds of material that are accessible to school districts that 
would want them.
    Mr. Regula. I would imagine there's going to be an 
explosion of involvement of schools at all levels with your 
resources.
    Secretary Heyman. Absolutely.
    Mr. Regula. Probably to the point that you will get crowded 
for personnel to handle your end of it.
    Secretary Heyman. That is going to be a challenge, clearly.
    Mr. Regula. What you may want to do at some point is 
publish a schedule, that you will have, for example, a lecture 
on gems, which we did out in the 16th district a year or so 
ago, and then send this out to the schools. I assume that many 
schools could participate at the same time with a lecture at 
your end, is that correct?
    Secretary Heyman. Oh, yes. That is happening in some ways 
presently. I think the biggest challenge is really being 
interactive in those circumstances because if you get beyond a 
couple of classrooms it becomes very difficult to handle 
questions and then discussion.
    Mr. Regula. I can understand that.
    Secretary Heyman. But receiving over the Net is quite 
feasible.
    Mr. Regula. You could offer it as a lecture series and not 
try to do it two-way.
    Secretary Heyman. And you can repeat it. Once you have done 
it once, you have memorialized it.

          smithsonian astrophysical observatory basic research

    One of the things that I wanted to say just to add here, 
and I will do it fast, is a lot of what goes on at the 
Smithsonian, as with Astrophysical Observatory, in addition to 
what we have just been talking about, is very basic kind of 
research. It is what is the Universe, and what is it made up 
of, and all of the rest. It is very exciting. Just looking at 
the newspaper daily in terms of the science sections, people in 
general seem to be exceedingly interested. And SAO was really 
at the forefront of all of this. But out of this comes things 
that you would never have thought. One is a low-field magnetic 
resonance instrument which they developed because they were 
doing it for some other reason. But they have developed a 
device whereby you can really look into spaces in the human 
body through MRI--lungs, sinuses, and the like--which 
previously you couldn't do.
    Mr. Regula. Are you saying the MRI is an outgrowth of the 
work you do?
    Secretary Heyman. No. One of the new applications of MRI is 
an outgrowth of what was space research. So it is so 
serendipitous. You are doing kind of basic research, you are 
building systems and equipment in order to do something up 
there in space and all of a sudden you find an application for 
it which is exceedingly useful. It is not logical in the sense 
of a progression from here to here. It really is serendipitous 
and it happens all the time.
    Mr. Regula. That's interesting. I think in many ways a lot 
of what you do is a well-kept secret in a sense. People think 
of the Smithsonian in terms of the public buildings here in the 
city, whereas the outreach is enormous and anyone that gets the 
benefit of this MRI application will never know they can thank 
your researchers in large part.

                     repair and restoration backlog

    Backlog. As you know, this has been one of my great 
concerns, and you have addressed it. I am glad you put the Zoo 
in as part of the total request. It gives it more reality, but 
$60 million a year. You have asked for $47.9 million. Do you 
see you are progressively getting to the $60 million?
    Secretary Heyman. My conversations with the Office of 
Management and Budget would indicate that as we finish the 
Museum of the American Indian on the Mall, they will be very 
open to adding that quotient to R&R and get us up to $60 
million. So I am very hopeful that next year in the President's 
budget we will be able to commit at a figure of that sort.
    Mr. Regula. So far we have appropriated $145 million, you 
mentioned $250 million. Would you think that we could get 
completed in less than five years under that kind of a 
schedule?
    Ms. Newman. Excuse me. Mr. Chairman, we won't be able to 
complete it because once we go through the cycle we will start 
back through the cycle----
    Mr. Regula. Sort of like painting the Brooklyn Bridge.
    Ms. Newman. Absolutely. And you look at the age of the 
systems, by the time we get around through the Castle and the 
Arts and Industries Building, it will be time to go back.
    Mr. Regula. I understand.
    Ms. Newman. Natural History, we are always going to be 
working in that building.
    Mr. Regula. But the beauty of that is that once you get on 
cycle you won't have the backlog building up. You will be 
staying current as you go.
    Ms. Newman. We won't have the backlog, that is right. But 
we do believe we need $60 million in order to keep the cycle.
    Mr. Regula. Right.
    We will have to suspend again. We have a vote on final 
passage and three five-minute votes, so it is probably going to 
be about half an hour before we resume the hearing. I could put 
the rest of my questions in the record but some of the others 
may want to come back and ask some, so if you would be kind 
enough to wait.
    Secretary Heyman. Fine, sir. We will be here. Vote well and 
good. [Laughter.]
    [Recess.]
    Mr. Regula. The subcommittee will reconvene.
    Mr. Dicks?
    Mr. Dicks. Thank you, Mr. Chairman.
    Mr. Secretary, we want on our side to also congratulate you 
for the great service that you have rendered to the 
Smithsonian. You have done an outstanding job. We appreciate 
your testimony here today and the really good work that is 
being done at the Smithsonian.
    Secretary Heyman. Thank you, Mr. Dicks.

                         patent office building

    Mr. Dicks. Let me ask you just a couple of questions. One 
is about the severe deterioration of the old Patent Office 
Building at 8th and G Streets which houses the National Museum 
of American Art and the National Portrait Gallery. As I 
understand it, we are going to have some significant funding 
over the next few years to remodel that building. Can you kind 
of give us an update on that?
    Secretary Heyman. Well, largely speaking, we have justgot 
to solve some real problems like the roof leaking and a variety of 
kinds of infrastructure problems of that sort. In addition to that, we 
want to do some modifications internally in the building. Our plan is 
to try to convert about 60,000 to 70,000 square feet in that building 
from office space and other kinds of like uses into public space so 
that we can enlarge the exhibition space, both because we have 
collections that really ought to see more the light of day than they 
can in that building and also because attendance is on the rise, which 
is the reason that we have been seeking to get an additional building 
somewhere in that vicinity so that we can move some of the staff 
permanently out of that building to another building.
    The Patent Office Building is what, Connie, the fifth 
oldest building in the District?
    Ms. Newman. Yes. Built in 1836 and the last restoration was 
in 1964.
    Secretary Heyman. So it is understandably due for the kind 
of work that we want to do on it.
    Mr. Dicks. Information obtained by the committee indicates 
one architectural firm estimated the cost to rehabilitate the 
old Patent Office Building as $63 million and that is before 
including funds for design and construction contingencies and 
inflation. Their total estimate was $97 million. How did the 
$97 million estimate change to $60 million?
    Ms. Newman. What happens often is that the design firms 
come in with designs that give you the best of everything, that 
give you the most expensive materials and the most expensive 
design for the building. And we went back and raised questions 
saying that although that would be wonderful, we really can't 
afford that. And in order to get the work done in the other 
buildings, we only had $60 million. And it is possible to 
design it below the $90 if you use different kinds of materials 
and if you don't make all of the changes in the building 
internally and with the facade.
    Mr. Dicks. So, basically, we are not going to have the same 
quality as was----
    Ms. Newman. Well, it is not so much the quality but it is 
whether--and I will use an expression that I have used--it is 
whether you goldplate it. It doesn't mean that it won't pass 
the standards, it doesn't mean that it won't meet our needs, 
but it may mean that we won't have the most expensive model and 
use the most expensive materials.
    Mr. Dicks. Who at the Smithsonian makes these judgements? 
Do you have an architectural staff?
    Ms. Newman. We have a large facility staff but we also go 
outside to have outside reviews.
    Mr. Dicks. Was there an outside review done on this?
    Ms. Newman. Yes. There are many checks and balances. I can 
tell you that it was the firm Hartman-Cox on the Patent Office 
Building.
    Mr. Dicks. They did the outside review?
    Ms. Newman. They did the outside review.
    Mr. Dicks. They are an architectural firm?
    Ms. Newman. Right. But we can give you more information.
    Mr. Dicks. That's all right. I was just trying to get a 
sense of it.
    Secretary Heyman. I would just intersperse one comment. The 
original estimates of this are really based upon consultation 
with basically the users and the users are going absolutely top 
class in relationship to what they would like. And our function 
really is to bring that down into a reality, and that is really 
what has been occurring in terms of the Patent Office Building.
    Mr. Dicks. The $60 million is over four years, is that 
correct?
    Ms. Newman. That's right.

        national museum of the american indian--design contract

    Mr. Dicks. Now the $19 million requested in the 
construction appropriation account for the fiscal year 2000 
completes the Federal share of the National Museum of the 
American Indian. Last year was a turbulent one for this project 
and resulted in the Smithsonian firing the architectural firm 
responsible for the award-winning design of the museum. As you 
indicate in your justifications, page 140, the Smithsonian is 
directing a new design team and hopes to keep the project on 
schedule for site preparation this year, actual construction 
next year, and completion in 2002.
    Please give us an update on the situation addressing the 
following issues: the status of the relationship including any 
legal action with the previous architectural firm, I think it 
is GBQC, and the lead designer on the project, Douglas 
Cardinal.
    Ms. Newman. Right now we are attempting to settle the case 
between the Smithsonian Institution and GBQC. But this has not 
at all stopped the work on the design of the project. We took 
many of the architects and engineers who worked on the design 
initially and brought them into the project. Because the design 
has been completed and reviewed and approved, what we needed 
are the construction documents and we have brought in, under 
the leadership of our group, people who already understood the 
design of Cardinal and were able to help bring us to the next 
step.
    You should understand that we are using his design. That is 
the design that was approved and we are not altering that. We 
are just getting the details that are necessary for the 
construction.
    Mr. Dicks. Are you acting now as the prime contractor?
    Ms. Newman. We are acting as the prime contractor. We have 
others that have come in to help us with this, but the 
leadership of the project is in the Smithsonian.
    Mr. Dicks. In an article appearing last year in the 
Washington Post, architecture critic Benjamin Forgey wrote 
about the collapse of the architectural contract for the 
National Museum of the American Indian. Here is what he said, 
and I would like you to respond to his observations. ``The most 
troubling parts of the Smithsonian statement are not the 
listing of the design team's contractual failures. These 
issues, if necessary, can be settled in court. The real problem 
arises from the Smithsonian's insistence that the creative 
phase of the design process for the Mall building is finished. 
All that remains,'' the statement went on to say, ``is the 
completion of technical construction and engineering drawings. 
There is a pertinent example close at hand. Directly across the 
Mall stands the I.M. Pei National Gallery of Art East Building. 
Would this unusual building be as excellent as it is inside and 
outside if the Gallery had dismissed Pei and team before ground 
was even broken? The only answer is, no. Many key aesthetic 
decisions on the East Building were made after construction 
began. This is the way of many significant buildings designed 
by architects with strong personal visions.''
    Ms. Newman. We also have examples of major buildings in 
this Nation where there was a different group that took 
thedesign of the architect to the next phase. That was not our 
preference but we feel very comfortable that this will result in an 
extraordinary building, particularly because many of the people in the 
original team are still offering their expertise to this project.
    Mr. Dicks. So you are not worried about this?
    Ms. Newman. We are not worried about this.
    Mr. Dicks. We are not going to wind up after spending all 
this money with a second-class building?
    Ms. Newman. We are not worried about this.
    Secretary Heyman. You are going to have a really first-
class building. We are very lucky that amongst those who are 
now supporting our leadership on this project are some 
extraordinarily good architects. And as I have been observing 
in any event, as they have been coming in with modifications 
that are necessary in order to get it built, they are really 
sensitively designed and they are really following the basic 
conceptions of Douglas Cardinal which had been applauded, as 
Mr. Forgey indicated.
    I really am quite confident of the fact that this is just 
going to be a grand building.
    Mr. Dicks. Thank you, Mr. Chairman.

                            spokane scholars

    Mr. Regula. Mr. Nethercutt?
    Mr. Nethercutt. Thank you, Mr. Chairman.
    Welcome to you all. It is nice to have you here again. Mr. 
Heyman, I understand you are headed out to Eastern Washington 
in April, I believe.
    Secretary Heyman. Looking forward to that.
    Mr. Nethercutt. To the Spokane Scholars organization. It is 
a great group and they have had some very distinguished and 
prominent people, and I am delighted you are going to be able 
to join that list.
    Secretary Heyman. I am pleased that you recommended me to 
them.
    Mr. Nethercutt. I recommended you very highly. Dr. Eric 
Johnson is a good friend and is very involved in that and there 
is some great community support for Spokane Scholars. It is a 
program that rewards excellence in high school academics and 
these young students who get scholarships to go all over the 
country.
    Secretary Heyman. Well I really look forward to it.

        national museum of the american indian--design contract

    Mr. Nethercutt. I just want to follow up on the National 
Museum of the American Indian line of questioning. I asked 
about this last year and got an update from you relative to the 
status of the law suit and the appeal of the architectural 
personnel who were working on it. Is there a lawsuit pending 
right now or has there been a resolution of the disagreement 
between the architectural design firm and the Smithsonian? What 
is the status?
    Secretary Heyman. The status is that GBQC brought a lawsuit 
against us. They made a big claim against the Smithsonian for 
breach of contract. And in terms of the procedural position of 
that lawsuit, it is not appropriate at this time for us to 
assert our counterclaim. Following substantial discovery by 
GBQC, the case was stayed to permit settlement negotiations. 
Should these discussions fail to resolve our claims, we will 
then prepare to assert a formal counterclaim.
    This is in the Court of Federal Claims here. It is pretty 
clear, at least to our attorneys, that the judge doesn't have 
very much confidence in the validity of that lawsuit. We are 
now in some settlement conversations. But we are continuing to 
demand that we receive a payment for some of the losses that 
have occurred because of the delay, that we owe them nothing, 
and that clearly in this kind of a lawsuit one cannot, given 
the applicable procedural law, properly ask for reinstatement; 
all one can seek are damages.
    There was a settlement conference I think about a week ago. 
It went on for four hours. Now both sides are contemplating 
where they should go from here. I am really confident, and here 
I am using a little of my own field as a lawyer, I am pretty 
confident that surely we are not going to owe anybody any money 
and that we have a really strong claim for some damages for 
breach by the other side.
    Mr. Nethercutt. Good. I appreciate the update. I know when 
you are in the middle of settlement it is difficult to be too 
specific, and I appreciate that.
    What, if any, costs will be uncompensated for, assuming 
there is a settlement, and you are satisfied with that 
settlement? Has this dispute caused some delay in construction 
which has translated into cost to the Smithsonian or delays in 
time?
    Secretary Heyman. Clearly, we are going to have some added 
costs and it is not going to be $10,000; it is going to be 
something more substantial than that. We are not seeking any 
additional Federal money to bring this to closure. Whatever 
that cost, it is going to have to be borne by our money-raising 
efforts or the efforts of the National Museum of the American 
Indian to raise private funds from both foundations and 
individuals. So we won't be back. But it is really sad and I 
felt badly, and if I felt badly, the Director of the National 
Museum, Rick West, felt really unhappy about the fact that the 
relationships between those architects fell apart and we simply 
couldn't get any product out and that we had to take the step 
that we did and sever those relationships with them.
    But as I was saying to Mr. Dicks, I am really quite 
confident this is going to be a superb building. I am unhappy 
that we are going to have to dip into some trust funds in order 
to accomplish it, but we will do it.

            national museum of the american indian--funding

    Mr. Nethercutt. I understand. You have requested $5 million 
and 11 staff positions to fund three activities in association 
with the American Indian Museum: (1) the operational support at 
the Cultural Resources Center at Suitland, (2) the move of 
objects from New York to Suitland, and (3) the exhibition 
development associated with opening the Mall museum. I am 
wondering how much of the $5 million is dedicated to each of 
these three activities, if you have that broken down.
    Secretary Heyman. Well, it is $2 million-plus for the 
exhibition. The balance goes to CRC. I had it in my head at one 
point. You might have that at hand.
    Ms. Newman. Here it is.
    Secretary Heyman. The move that we have with respect to 
this request is $1.1 million. That is moving materials from New 
York to Suitland. The balance for the Cultural Resources Center 
is about $1.060 million, which are for positions in archives 
and research and curatorial and library resource centers and 
some technology in the Cultural Resource Center. Now that it is 
up and it is ready to function and we are doing things within 
it, we have got to build some additional staff.
    As far as the Mall museum is concerned, essentially we are 
asking for $2.3 million towards the exhibitions that will be in 
that museum when it opens. It seems strange but you really have 
to start to plan for exhibitions of this nature,of permanent 
exhibitions, three to four years in advance and you have to start 
bringing in materials, arraying them, and doing all the rest. This is, 
undoubtedly, no-year money.
    Ms. Newman. Right.
    Secretary Heyman. So this is money that we can expend over 
that period of time before the opening of the museum. And then 
there is a little bit extra in there. There are five positions 
in there with respect to museum operations of both the Mall 
museum and I presume the branch which has been the sole museum 
up in New York until this occurs. So five positions are for 
community services and publications.

         REPAIR AND RESTORATION AT THE NATIONAL ZOOLOGICAL PARK

    Mr. Nethercutt. I have another question, Mr. Chairman, but 
if you prefer I wait----
    Mr. Regula. Go ahead.
    Mr. Nethercutt. Okay. Quickly. With regard to the National 
Zoo and the new buildings such as the Amazonian Gallery, I am 
wondering what provisions have been made for the renovation of 
existing exhibits, the dilapidated condition of some of the 
exhibits as opposed to the new ones. How much money are you 
putting toward renovation and construction relative to those?
    Ms. Newman. All of it. We can give the details. For the 
Zoo, in this request there is $6 million for repair and 
restoration. That is for roads, for utilities to address fire 
codes, and to start bringing the buildings up because there has 
been deferred maintenance.
    Mr. Nethercutt. And you are satisfied that is adequate to 
meet the needs?
    Ms. Newman. We are going to try to bring the Zoo level up 
to $10 million a year, and then that would get the Zoo in the 
same status as the rest of the Institution, that we would cycle 
back around to keep everything as it should be.
    Mr. Nethercutt. Including security systems, I take it?
    Ms. Newman. Yes. Yes, the security systems. The wiring and 
all is within this amount but the CCTVs and all are separate 
and would not come under this category.
    Mr. Nethercutt. Thank you very much.
    Mr. Regula. At our request, they have packaged the Zoo 
repair and restoration with all the rest so it will be on 
track.
    Mr. Hinchey?

          SMITHSONIAN INSTITUTION TRAVELING EXHIBITION SERVICE

    Mr. Hinchey. Mr. Chairman, thank you very much.
    Thank you, ladies and gentlemen. It is a pleasure to have 
you here and to be here with you. The Smithsonian, housing as 
it does some of America's great treasures, is a treasure 
itself. I congratulate all of you who are responsible for it 
for the very good work that you do there on behalf of the 
American people. I know that it is a place that is treasured by 
Americans all across the country and people want very much to 
come and to visit it. I understand that in order to meet that 
objective on the part of many Americans that are unable to come 
to Washington, you are planning some traveling exhibits. Can 
you tell us a little bit about that.
    Secretary Heyman. Yes. We are doing three things to get out 
of Washington, basically. One are the traveling exhibitions 
that are mainly done by the Smithsonian Institution Traveling 
Exhibition Service. We do a whole bunch of them. We do about 
150 presentations a year and that includes about 70 different 
shows, some are shown in multiples, during the year. Those are 
really usually scaled down versions of exhibitions that are at 
the Smithsonian; sometimes they are completely different.
    In addition to that, there are some of the museums that 
travel their own shows. As an example, when we do the major 
restoration and renovation of the Patent Office Building, both 
the National Portrait Gallery, which is located there, and the 
American Art Museum are traveling six to eight big shows around 
the country during the period of time that those museums will 
be closed. Consequently, some significant portions of those 
collections will be appearing in other museums around the 
country during that period of time. That's one.

                          AFFILIATIONS PROGRAM

    The second is that there was instituted by the Regents in 
1996 a program of affiliations in which we are entering into 
agreements, and the momentum now is really on the rise, with 
museums around the country and some new museums that are coming 
on line to make long-term loans of Smithsonian artifacts and 
objects which will be housed in those museums. That will 
increase public access to our collections around the country 
and will be of real aid to those museums that are seeking 
affiliation with us.
    We have put out the word. We receive propositions from 
museums daily. We are actively involved in 23 negotiations now, 
5 have come to conclusion. There have been over 150 inquiries 
with respect to affiliation. So that is moving nicely.

                            INTERNET ACCESS

    And then the third is the burgeoning presence on the 
Internet. We must have 50 hours now on the Internet. I was 
saying before that we are averaging well over 30 million hits a 
month. We are doing a lot of educational programs on it. We 
have a lot of our exhibitions that are on the Internet now. We 
have an increasing ability for people to access particular 
objects and classes of objects. And it is a primary vehicle for 
us delivering curriculum for K through 12 around the country.
    So the Smithsonian today, in relationship to ten years ago 
let's say, is way around the country as well as solely being in 
Washington as a place that people visit on their pilgrimages to 
the District.
    Mr. Regula. You have a folder there that maybe you have 
seen that addresses about everything.
    Mr. Hinchey. Yes, I have seen it, Mr. Chairman.
    Well I congratulate you on that effort. I think, obviously 
as you do because of your obvious enthusiasm for it, that we 
all realize how important it is to try to get all of this out 
to as many people as possible. An awful lot of people would 
like to come to Washington, particularly young people, but who 
aren't able to. Your efforts will bring it to them, and I think 
all of us very much appreciate that.
    Secretary Heyman. Thank you, sir.

                     REPAIR AND RESTORATION BACKLOG

    Mr. Hinchey. I would like to ask you about the backlog on 
maintenance. I know that several years ago you identified for 
the committee approximately $450 million in maintenance backlog 
plus an additional sum of money each year. Since then the 
committee I understand has provided $145 million of that. I am 
wondering where we are in terms of maintenance, of repair and 
upkeep of buildings. I know that some of the galleries have 
been closed perhaps because of maintenance problems. If you 
would talk about that a little bit.
    Secretary Heyman. We haven't closed galleries because of 
maintenance problems. We have closed galleries because we are 
doing maintenance. For instance, in the Air and Space Museum we 
are replacing at the moment all of that glass that surrounds 
that museum. And as the people who are doing the work progress 
around the building, we have got to closewhatever the gallery 
is that's adjacent to that. But we haven't been forced to close 
galleries because of maintenance problems except very rarely and then 
for just a day or so while we are either mopping up the water or 
stopping it from coming in through the roof.
    What we have done is we came to this committee a number of 
years ago with an analysis of if we got X amount of money a 
year, we can take care of the place--all of the place on an 
ongoing basis--so that as things deteriorate we will have the 
money to make sure that the deterioration doesn't go too far. 
We had suggested $50 million a year was necessary for the 
Smithsonian and $10 million was necessary for the Zoo. Now they 
are together and it is $60 million. The Chairman has been a 
wonderful stimulant to trying to get our R&R budget up to the 
point where we are self-sufficient in the sense of being able 
to address on an annual basis our R&R needs. We are getting 
there now. We really are.
    The President's budget has $47.9 million in it for that 
purpose. And I was saying before to the Chairman, the Office of 
Management and Budget looks in a friendly way to trying to 
bring that up to $60 million next year because we will not be 
involved with any major construction projects at that time and 
so the capital funds that have characteristically come here can 
all go into R&R. I would really welcome being able to get on 
that sustaining basis.
    Mr. Regula. We're going to help them.
    Mr. Hinchey. Yes. Could I ask one more question, Mr. 
Chairman?
    Mr. Regula. Okay. Please be brief.

                    SMITHSONIAN MUSEUMS IN NEW YORK

    Mr. Hinchey. Sure. In New York we are very fortunate in 
that we have Cooper-Hewitt and the Museum of the American 
Indian. I wonder if you could just tell us briefly where we are 
on those two museums and what you plan for them.
    Secretary Heyman. Well, Cooper-Hewitt went through a very 
major renovation. We put in $13 million of Federal funds that 
had really been dedicated over time for that purpose, and, with 
the knowledge of the committee, of course, we got the board of 
the Cooper-Hewitt Museum, which had never really been asked to 
raise substantial amounts, to match that with $7 million. So we 
ended up with $20 million and we have renovated that whole 
place. It is in wonderful shape now. Some galleries were added, 
bridges between the buildings were added. It is a place that is 
peculiarly wonderful in terms of access by people in 
wheelchairs.
    In any event, it is really fine and it is back in business. 
The board raised over $1 million last year for operating 
expenses. That is a museum that will always need to have 
significant operations and participation by its board.
    It is getting absolutely grand reviews in the New York 
Times I must say. It has turned from a decorative arts museum 
into a museum of design. So the architecture community, the 
interior design community, et cetera, are really very wedded to 
it. And now we have got to start to build up attendance, which 
I think is really quite possible as we start to become more 
sophisticated in marketing in that very tough market in New 
York.
    Down at the Battery with the branch at the revived old 
Customs House is the National Museum of the American Indian, 
that has absolutely surprised me in terms of the extraordinary 
visitorship. We are getting around 500,000 to 600,000 people in 
a museum that isn't near other museums. You would expect that 
that would be the hardest place to really draw large numbers of 
people. But we are getting them. Maybe we are getting a lot of 
them during lunch and after lunch who are working in the 
financial district, I don't know. But we are getting real 
visitorship at that museum, which is one of the reasons that I 
am so optimistic with respect to what the popularity of the 
Mall museum will be when it is finally erected.
    Mr. Hinchey. Thank you very much.
    Thank you, Mr. Chairman.

          SMITHSONIAN INSTITUTION TRAVELING EXHIBITION SERVICE

    Mr. Regula. Mr. Cramer?
    Mr. Cramer. Thank you, Mr. Chairman.
    Welcome to the committee. I had to leave earlier, and I 
apologize for that, but I am interested in hearing about the 
SITES program. You have probably talked about the SITES program 
several times this morning, but I am very impressed with the 
program. I have the summary publication here. The rural 
initiative has existed for five years. Could you tell me how 
many travelling exhibitions are you able to support each year? 
Briefly, how do you determine what to take to the road? How 
proactive are you with that program? Do you identify within an 
area a particular exhibit or program that you take in there? Is 
there give and take between a local community with what you do?
    Secretary Heyman. First of all, we have an imaginative 
staff and a wonderful director of the SITES activity, Anna 
Cohn. What we do is we design a whole bunch of shows and we 
publicize them to those in the market for those kind of shows. 
We might have 15 different new ones at any month or every other 
month and we get the word around. Then people pick and choose 
between those shows.
    We have had really wonderful luck with the ``Museums on 
Main Street'' activity. I don't know the numbers, but I do know 
the success rate of some of them. ``Barn Again,'' which we 
talked about before, has just done exceedingly well. The poster 
show from the Second World War has been the basis of a number 
of rural communities organizing their own activities around the 
core of what we have done. I see that in terms of this rural 
initiatives program in terms of participating communities, I 
have got four from Alabama--and the populations are really 
interesting when you look at this--Butler, with 1,872 people in 
it; Alberta, with 458; Scottsboro, with 13,786, at least the 
figures I have here.
    Mr. Cramer. That's right. [Laughter.]
    Secretary Heyman. But what happens with each of these is 
they become a locus for people from around not solely in the 
community itself. They also represent a kind of partnership 
between the Smithsonian which is providing funds, the local 
community which is providing some funds, and then usually 
whatever the humanities council is at the State level is 
providing some funds.
    Mr. Cramer. So you offer a menu of choices that allow the 
communities to weigh into that?
    Secretary Heyman. We offer a menu, yes. This is this year's 
menu.
    Mr. Cramer. That's the menu for this year? All right. You 
have partnerships or you are seeking partnerships and 
cooperative ventures with private sector. How is that going?
    Secretary Heyman. I think it is going pretty well. The 
reason I am hesitating is because there are so many different 
ways that this can occur.
    Mr. Cramer. Well, for example, I have noticed that in 
fiscal year 2001 SITES and the Lila Wallace Reader's Digest 
Fund will introduce an exhibition about America's lost jazz 
shrines. Is that an example of a partnership with the private 
sector as well?
    Secretary Heyman. Yes, of the nonprofit part of the private 
sector. But we are also doing alliances in SITES with the for-
profit sector. I have one here that I know, which is an 
alliance with Silver Dollar City, which is a theme park in 
Branson, Missouri, and that is a for-profit operation but it is 
a place in which we can get a lot of people to see our shows 
and we can make a little money which then can get plowed back 
into our share of the costs of other presentations. There are a 
few others with respect to SITES, for instance, where there are 
exploratory conversations going on presently along the same 
line.
    Mr. Cramer. I would like to, not now but at some point, 
maybe we could visit with appropriate staff over this program 
and discuss some ideas that I have.
    Secretary Heyman. We would be delighted. We would be 
delighted.
    Mr. Cramer. Thank you.
    Thank you, Mr. Chairman.

                           business ventures

    Mr. Regula. Thank you. Just one last question. You were 
discussing new strategies for your business ventures, 
magazines, museum shops. How are they performing and do you 
think they are cost-effective?
    Secretary Heyman. Well they are certainly cost-effective in 
that they are producing about $25 million a year in 
unrestricted trust funds.
    Mr. Regula. Are you talking about net profits?
    Secretary Heyman. Yes, net. That is the net profits from 
them. The biggest contributor to that is the Smithsonian 
Magazine which has over 2 million subscribers.
    Mr. Regula. You are talking in terms of subscriptions, not 
any sales, but your biggest contributor to your bottom line is 
the Magazine.
    Secretary Heyman. To my bottom line is the Smithsonian 
Magazine. That must gross about $65 million a year and net 
about $12 million. So that's not bad for that.
    Mr. Regula. Very well done.
    Secretary Heyman. And then we have shops and we have the 
catalogue sales and the like.
    Mr. Regula. Do you get any complaint that you are invading 
the private sector with these?
    Ms. Newman. Not really.
    Secretary Heyman. I have not heard one since I have been 
Secretary.
    Mr. Regula. You have a somewhat different line of 
merchandise.
    Secretary Heyman. Yes. Everything is related to the 
collections of the Smithsonian, at least all of the retail 
sales, shops and catalogue.

                       secretary heyman's legacy

    Mr. Regula. Thank you very much. I want you to know that we 
appreciate your being here, and we are sorry this will be your 
last hearing.
    Secretary Heyman. I am a little sorry about that too, sir. 
But thank you very much.
    Mr. Regula. I would be curious, if somebody said to you 
what do you consider your greatest single legacy is, Mr. 
Secretary, do you have any thoughts about that?
    Secretary Heyman. Well, I have thought about that. I think 
it really is in the outreach programs that I have talked about.
    Mr. Regula. Certainly, that will touch more lives.
    Secretary Heyman. I think so and I think that is a real 
change for the Smithsonian. I think that as we look back 
sometime in the future with respect to the nature of the 
Smithsonian and how we feel about it, I think that will 
probably be the major thing that has come out of my term.
    Mr. Regula. Mr. Hinchey would agree with that.
    Mr. Hinchey. Indeed, I would, Mr. Chairman.
    Mr. Regula. We on the committee have very much appreciated 
our relationship with you and your staff. As I said, you leave 
a great legacy and a lot of quality people will be here to make 
it work.
    Secretary Heyman. I thank you very much.
    Mr. Regula. Come back and visit with us.
    Secretary Heyman. Oh, I shall. I will be here until 
December and that's a long time in Washington. [Laughter.]
    Mr. Regula. Thank you all very much.
    The hearing is adjourned.
    [Additional questions for the record follow.]

[GRAPHIC(S) NOT AVAILABLE IN FORMAT]


                                         Wednesday, April 28, 1999.

                    NATIONAL ENDOWMENT FOR THE ARTS

                                WITNESS

BILL IVEY, CHAIRMAN, NATIONAL ENDOWMENT FOR THE ARTS
    Mr. Regula [presiding]. We will reconvene the hearing. We 
will wait a minute. Mr. Dicks should be back soon. Well, while 
we are waiting a minute, we'll go off the record again.
    [Off the record.]
    Mr. Regula. We will go back on the record. We will go 
ahead. I'm sure Mr. Dicks will be here shortly. Mr. Ivey, we 
are pleased to welcome you, and your full statement will be 
made part of the record. Do you have any comments you would 
like to share with us?
    Mr. Ivey. Thank you, Mr. Chairman. It is good to be with 
the members of the committee today, and also to see so many of 
the committee's staff members with whom I have had the 
privilege of working with in preparation for this conversation 
today and also preparation of our Challenge America initiative.
    I thought that, given the rare opportunity to have just a 
few minutes to visit with you, that I wouldn't rely on prepared 
remarks but would rather say just a few words about my 
relatively brief tenure with the agency. I think as of today, I 
have been chairman for exactly 11 months. This is my first 
opportunity to present the case for the agency and its budget 
in front of this committee. I wanted to share a little bit of 
the experiences that I have had and a bit about what we are 
trying to accomplish with the Endowment as we move into the 
next century.
    For a number of years I was a director of the Country Music 
Hall of Fame in Nashville, and came to the post of NEA chair 
directly from that job. Having run a free-standing, not-for-
profit organization that worked with the NEA on a number of 
projects over the years, I brought with me both a deep respect 
for what the NEA could accomplish, and first-hand experience 
with the understanding the value of an NEA grant to an arts 
organization. I also had some ideas about what it might take to 
move forward, a federal agency that I care deeply about, bring 
it to a place of strong bipartisan support, advance its agenda, 
perhaps increase its budget, and allow it to do an even better 
job of serving the American people.
    Within a few weeks after becoming chairman of the 
Endowment, working with the staff--an eager staff ready to take 
on any assignment at that point--and with many of our partners 
out around the country, we began work on a new strategic plan 
for the agency. By the end of the summer we had a new strategic 
plan for NEA. I think you have a brochure in front of you which 
describes the elements of that plan.
    We set seven goals for the agency, promising measurable 
outcomes so that we could address Congress and the American 
people in the language that we feel would best describe the way 
in which we would invest Federal dollars. Growing from our 
strategic plan was the special initiative that becomes the 
basis for the President's request of a $150 million level of 
funding for the NEA for Fiscal Year 2000.

                           challenge america

    Five of the goals in our strategic plan were combined into 
a special initiative we call Challenge America, which is an 
initiative designed quite simply to use partnership and the 
power of the Federal-invested dollar to place the arts right at 
the center of community life for Americans all over the 
country.
    Challenge America has, as I mentioned, five goals. It 
addresses arts education, youth at risk, access to the arts for 
all Americans, preservation of cultural heritage, and the 
creation of arts partnerships.
    The Challenge America initiative will utilize all $50 
million of the new money that would be available to the agency 
in Fiscal Year 2000 if this budget is approved.
    Mr. Regula. Let me just interrupt you for a minute. If you 
don't get the extra $50 million, will you still do elements of 
the program?
    Mr. Ivey. Yes. Obviously, Challenge America demands some 
additional funding, but if we were to be funded at an 
intermediate level of say $25 million, we could do a scaled-
down version of the entire program. Were the funding to lower, 
say in the $10 million range in terms of new money, we would 
first concentrate on the partnership funds that would go to the 
States: 40 percent of Challenge America, just like 40 percent 
of our current budget, would go to State arts agencies around 
the country.
    And we would then focus on the small grants, which are 
those that particularly address issues of access and the needs 
of under-served communities around the country.
    So Challenge America would happen in a somewhat modified 
form. And Challenge America is really, if you look at the over-
arching idea, an attempt to use partnerships to engage arts 
organizations and communities around the country in delivering 
a wide range of arts services to Americans.

                             youth at risk

    I think we sometimes lose sight of the many ways in which 
the arts can serve our communities and our families and our 
young people. I want to talk just a little bit about our youth 
arts project, which is something that was initiated by the 
Endowment back in the mid-1990's.
    This is a project for which we provided seed money: 
$100,000 per year over several years. It's a cooperative 
project that involved private foundations and a partnership 
with the Department of Justice to look at after-school 
programming for at-risk young people in three cities, in 
Portland, Oregon; San Antonio, Texas; and in Atlanta, Georgia; 
in Fulton County.
    Those projects were very successful. The Justice Department 
hired independent evaluators at Caliber Associates to do a real 
assessment of how well those programs had worked in addressing 
the challenges of young people who are at risk, and we were 
able to determine that they had had a real impact. Because of 
the success of the programs, working with other partners, 
including Americans for the Arts, we helped to develop kits 
that can now be made available to communities all over the 
Nation that will allow other cities to replicate these very 
valuable and successful arts after-school programs.
    This is the Youth Arts Kit. It has many elements, including 
a book, and a floppy disk that even provides the tax forms that 
a partnership would have to file if it was to create a new not-
for-profit in order to carry out these programs. It is a very 
fine kit. We have a sample here which I would love to pass 
around to members of the committee. We have additional copies 
if any of you would like to have one to keep. It is a very, 
very exciting project.
    It is just one example of the way in which the arts can be 
organized in order to bring services to communities and 
families all over the country.

                       recent nea accomplishments

    I'd like to wrap up these comments, because I think the 
most important part of a hearing like this is to give members 
an opportunity to ask me questions and for me to respond on 
behalf of the agency. We have accomplished some important 
things over the last 10 months.
    First of all, the agency has demonstrated an aggressive 
willingness to follow the instructions of Congress in changing 
the way in which we did some of our business to make sure that 
we minimized the likelihood of problem grants. I think we have 
implemented those changes effectively, and they have been 
effective in terms of----
    Mr. Regula. I would like you to amplify your comments on 
the impact of the changes that have been put in the law by this 
committee as part of the conditions of the grants.
    Mr. Ivey. There are four that I would emphasize. First of 
all, we now have Congressional members as ex-officio members of 
our National Council on the Arts. So there is, I would say, a 
deeper ongoing communication between Congress and the agency 
than perhaps has been the case at other times in the NEA's 
past. That is a presence that has been very successful for the 
Endowment.
    I think both the members of our Council, the members of the 
Endowment staff, and, frankly, I think the members of Congress 
have enjoyed the experience and found it fulfilling. I think 
all parties feel that it has allowed the agency to do its work 
and talk about its issues in an environment in which there was 
very open communication among some of the very key parties.
    A second change was the elimination of grants for seasonal 
support in which the agency would say to an organization, 
``Here are funds; you can use these monies for anything that 
you might take on over a period of time.'' I think we saw that 
as a source of potential problem grants because, frankly, we 
did not know everything that we were funding in those 
situations.
    In a related action, Congress told us not to use Federal 
funds through re-granting, which is the process of giving 
another entity the right to make selections about what money 
would go to what destination.
    Then, finally, with a few exceptions, grants to individual 
artists were eliminated. The NEA now, with the exception of 
literature fellowships, National Heritage Fellowships and 
American Jazz Master Fellowships, really addresses the needs of 
individual artists through grants to organizations. While we 
are able to have some impact in that fashion, we don't have the 
communication directly with individual artists that we have had 
in the past.
    Those changes, I think taken together, have been 
implemented by the NEA and have had a salutary effect on our 
grant-making process.
    We have developed a new strategic plan, and the Challenge 
America initiative so that the agency can really come to 
Congress asking for additional money, not simply to do more of 
the work that we have in the past but to really take on some of 
the special issues that are of concern to artists, arts 
organizations, members of Congress, and the American people.
    After a summer, fall, and winter of hard work on the part 
of our staff and good communication between the NEA, members of 
Congress and Congressional staff, we have a model, a plan that 
will certainly allow the agency to move forward effectively and 
address the real needs of the American people.
    I think in 50 years we will look back on 1999 and 2000 as a 
time of renewal and perhaps a new beginning for the NEA and the 
relationship between the Federal Government and the nurturing 
of America's creativity and living cultural heritage. I am 
proud to be chairman at a time when working with the all the 
parties, I think we have a wonderful opportunity to make that 
happen.
    [The statement of Mr. Ivey follows:]

[GRAPHIC(S) NOT AVAILABLE IN FORMAT]

    Mr. Regula. Well, thank you. I want to congratulate you on 
your leadership thus far. And I think, particularly, you have 
been sensitive to some of the grant programs. Probably our 
oversight has resulted in avoiding what could have been some 
difficult challenges for members, particularly as they have to 
respond to their constituents. So I certainly appreciate that 
personally.
    How many States have NEA groups or commissions?
    Mr. Ivey. Arts agencies?
    Mr. Regula. Yes.
    Mr. Ivey. All 50 have arts councils or arts agencies.
    Mr. Regula. So they are funded by their legislatures then?
    Mr. Ivey. Yes. The State investment in the arts is 
substantial.
    Mr. Regula. Is the provision that requires a balance to the 
distribution of 40 percent to the States and no more than 15 
percent to any one State working out?
    Mr. Ivey. We are very comfortable with that formula. It has 
worked well, we think, for both the Federal agency and for the 
State arts agencies.
    Mr. Regula. Do you get a lot of volunteers involved in your 
programs?
    Mr. Ivey. Yes. We are reliant on volunteers. When you 
sayvolunteers, do you mean at the level in terms of our grant-making 
processes?
    Mr. Regula. Well, yes. Do the grants that you give to 
organizations generate additional funding and additional 
involvement in the local communities?
    Mr. Ivey. Yes. All of our grants are matching grants. Some 
are matched three to one. We feel we have a very significant 
impact in terms of generating matching dollars, something like 
a four to one total as monies pass through the different 
agencies that themselves require matching. Additionally, 
because some of the match can be in kind, we see significant 
volunteer contributions of time and services from citizens all 
over the country.
    Mr. Regula. Do you and Mr. Ferris coordinate to some 
extent? It would seem there would be some overlapping of what 
your programs are hoping to achieve.
    Mr. Ivey. There is some overlap, and we look for 
opportunities to work together on projects. Recently, we have 
begun working on what we think is a very exciting project that 
would result in a film documentary and television program about 
America's folk music heritage, something that hasn't been 
documented in that way. It would draw upon information in 
archives all over the country.
    It is a perfect joint project because it has both a very 
rich humanities component and is also clearly an arts project.
    Mr. Regula. So it would probably carry credits to both 
agencies?
    Mr. Ivey. Yes. It would carry both credits.
    Mr. Regula. I think that is great that you work together. 
It's one set of taxpayers.
    Mr. Ivey. Yes.
    Mr. Regula. The more that these programs can coordinate, 
the more effective it will be for both.
    Mr. Ivey. Yes. I think there is some very important areas, 
subject areas, where we can and should work together.
    Mr. Regula. Mr. Dicks.
    Mr. Dicks. Well, Mr. Ivey, I want to welcome you here and I 
want to congratulate you on the job you are doing at the 
National Endowment for the Arts.
    I can tell you as a member of this subcommittee for 22 
years--starting my 23rd year--I have been a big supporter of 
the Endowment. And I can remember, back in the 1970's when 
there were two or three major challenge grants given to our 
major arts institutions in Seattle and they have blossomed and 
grown and are very dynamic.
    And some people say, all the money goes to just a few of 
the districts, but people from all over the State of 
Washington, from Canada, from Oregon, from the entire Northwest 
come to Seattle. They go to the opera or to the Northwest 
Ballet, or to the Seattle Arts Museum, the new art museum 
there. And in my district, Tacoma, we have gotten support at 
the Pantages Theater for the Broadway theater group. We have 
seen the importance of the Endowment in our own State. And it 
has helped us, and it has helped our region in many, many ways.
    I noticed that the chairman of the authorizing committee 
sent out a rather pejorative letter the other day that I 
thought contained some inaccuracies about how this money is 
distributed. And I would like to give you a chance, for the 
record, to give an accurate presentation on that subject so 
that the committee will be properly informed.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN FORMAT]

    Mr. Ivey. I think the primary inaccuracy in that 
communication was that it did not take into account grants of 
national or regional scope. Sometime back, when Congress said 
that we should cap the percentage of funds that would go to a 
single State, one of the things that we became aware of was 
that the agency had and will continue to make a number of 
grants where project activity reached far beyond the place 
where the grant originated.
    The services would actually be delivered all over the 
country on a regional basis. And if you look at our grant-
giving this year, something like 1,514 grants that will be 
awarded, and about 372 of those, a growing percentage, will be 
of national reach: They will go beyond the city where the check 
actually arrives. When grants of national significance were 
extracted from the numbers that were circulated in that letter, 
you saw a significant reduction so that in fact the dollars 
distributed to the big cities, New York, Chicago, San 
Francisco, and so on, were actually commensurate with the 
population of those particular cities.
    I think we were able to correct the misapprehension that 
was expressed in that communication.
    Mr. Dicks. As I recall Congress asked you to do a couple 
things. One was to try to make the arts available all over the 
country, the other was to support the arts all over the 
country. I think you have done that. I think that has been 
accomplished.
    Mr. Ivey. Thank you.
    Mr. Dicks. I think you have made education a major part of 
your program. I can tell you about a program in Tacoma, 
Washington. Dale Chihuly, one of our noted glass artists, 
started an after school program that I saw that teaches kids to 
blow glass.
    A lot of kids who were at-risk children are now actively 
involved in this program. Their grades have gone up. When they 
were given something positive to do in their life, they 
flourished.
    The other thing you have done that I appreciate is trying 
to fund the best quality projects. And I know you don't have 
enough money to fund everything, but you have faithfully 
administered the law and I think done a good job in that 
respect.
    I know that is controversial. Anytime you get involved with 
the arts, any kind of decisions along those lines are 
controversial, and we recognize this. And so I hope that the 
Congress, now looking at what you have done, what the 
humanities have done, will revisit this issue. I really believe 
that we have unfairly cut these agencies back, and that you 
need to have some growth if you are going to do the job that 
the Congress wants you to do.
    And so that is why I wanted us to have this hearing today. 
We are in a very tough budgetary spot. The chairman and I have 
been commiserating about these caps. We would love to see 
them--I speaking only for myself now--I would love to see those 
caps lifted for at least a cost-of-living adjustment so that we 
can get our appropriations bills through the Congress.
    I don't see how we are going to get them done without that. 
But, if we can get some relief, obviously I think it is well 
overdue for the two endowments to receive an increase in 
funding. I think you are doing the job we ask you to do, and 
you are bringing all kinds of private-sector money to the 
table. And the arts create a lot of jobs all over this country. 
And this is labor intensive.
    And so I think it is very positive. I think the American 
people support it. When we get through doing the demagoguing 
and all the other things that happen up here on Capitol Hill, 
when we get down to the nitty-gritty of all these grants that 
go out, that help people all over this country, I think it is a 
very positive story, and one that I strongly support.
    And, again, tell us, what has been the consequence of the 
severe budget cuts? You are a person that knows the local 
scene. What has happened because of this?
    Mr. Ivey. Well, one of the things that we have seen in our 
work is, first of all, we no longer give grants, small grants, 
to individual artists. Also, we are hardly engaged in the kind 
of challenge grants that the capital needs of big organizations 
in the way the agency was involved for many years.
    If you simply look at the way our funding has changed over 
the last several years, what you see, in our attempt to reach 
out, more grants being made. But the grants have gotten 
smaller.
    If you go back to 1997, the average grant was $59,000. Well 
now, as of 1999, we are looking at an average grant of $28,000. 
So that is a big difference. We are fulfilling through our 
ArtsREACH program and through the vision of Challenge America, 
the demands that Congress has made on us to serve the American 
people. We are actually spreading our work more thinly across 
the country as we reach out to places that haven't been served.
    We are also simply not able to have an impact on the big 
projects that can be so transforming for large organizations. 
So there has been a very dramatic impact in our work and in 
what we are able to do for people around the country even as 
the demand for our services has increased, partly because of 
the work we have done.
    Mr. Dicks. The bottom line is that the budget you have 
today is inadequate, but the President's budget request helps 
redress the imbalance?
    Mr. Ivey. The President's budget request, combined with a 
very specific program as to how those funds will be applied 
around the country, takes the agency a good step, a big step 
toward being able to play the role in American society that it 
should, being able to serve the American people the way it 
should.
    Mr. Dicks. Thank you, Mr. Chairman.
    Mr. Regula. Mr. Wamp.
    Mr. Wamp. Thank you. And welcome, Chairman Ivey.
    Mr. Ivey. Good to see you.
    Mr. Wamp. Two observations and then a question. One 
observation is we should all be encouraged by the progress that 
is clearly being made. And I think members from both sides of 
the aisle can take stock in the fact that some conflict is 
brought about, some resolution brought about change and reform. 
And you are to be commended for your early leadership in all 
these significant changes that are taking place.
    The second observation, which is kind of a follow-up to 
your reform and your new way of doing things, the new direction 
of the National Endowment for the Arts, I am one member who--I 
am more impressed, and frankly more comfortable--talking about 
the National Endowment for the Arts with a dobro player, a 
quilt-maker, or a woodcarver from rural America than I am a 
star from Hollywood. I would encourage you to use the people 
that benefit from the programs directly through the grants at 
the grass-roots level to advocate on your behalf as opposed to 
all the propaganda. I am just not comfortable around it, and I 
think a lot of people aren't. And I would prefer it to be done 
at the ground level because that is where the benefits are 
mostly derived.
    Then my question is, the timing of Challenge America is 
good, from the sense that you are in a big-time reform mode and 
new things need to happen. And that always requires some 
infusion of capital. And we recognize that, but the time of 
Challenge America, from our perspective, is not good, as you 
know. And I just want to know what is the backup plan? What do 
you do if we can't come up with but level funding, or but a 
small increase, and we can't there for the Challenge America 
initiative to fund it and get it rolling? What do you do?
    Mr. Ivey. Well, there are obviously backup plans, and we 
would be irresponsible not to have them. At the flat funding 
level, which is $98 million, the Challenge America initiative 
will not happen. However, there is a piece of Challenge America 
that will expand somewhat.
    If you look at the heart of Challenge America, it is really 
about partnership and access. We have the benefit of a project 
that is not so big in dollars but has been very effective, a 
project called ArtsREACH, which in its first year was about a 
$730,000 program. No matter what happens with our Challenge 
America funding, we will increase ArtsREACH in Fiscal Year 
2000. These are small grants, $5,000 to $10,000, obtained on a 
quick turn-around that help communities in under-served States 
build theirarts structures in communities so that they can 
become customers of the Endowment.
    So ArtsREACH is going to continue. At full funding of $150 
million, we would do a full-blown Challenge America. If we were 
to receive an additional $25 million--funding at the $125 
million level--we could scale down Challenge America and 
produce quality work in all of the five areas of emphasis that 
are contained in that initiative.
    If it is a small increase, say the $110 million range, then 
what we are going to do is continue to fund the part that 
involves State partnership, the 40 percent that goes to the 
States. But with the remainder of the money we will concentrate 
on the small grants that are, I guess you would call them the 
son of ArtsREACH, the things that grew out of the ArtsREACH 
initiative because those are the grants that we think come 
closest to carrying out this access mandate, which is important 
to us and important to Congress and the American people.
    So we do have plans for intermediate funding.
    Mr. Wamp. Mr. Chairman, if I might add, just on behalf of 
my colleague, Mr. Cramer from Alabama, how proud I am and he is 
of the leadership that the States of Alabama and Tennessee have 
provided for arts and humanities in our country today.
    Thank you both.
    Mr. Regula. Thank you. Mr. Cramer.
    Mr. Cramer. Thank you.
    Welcome, Bill Ivey, and thank you for presenting yourself 
and the information. I think it is important for us to have a 
hearing like this and for us to hear from you personally and 
get to know of your direction that you are going to give NEA. 
It has come a long, long way. There are a lot of reasons for 
that, but we look forward to your leadership and are thankful 
for your leadership.
    I want to talk a little more specifically about Challenge 
America and the programs--is Challenge America an expansion of 
ArtsREACH? Does it build on the strength? It doesn't take the 
place of ArtsREACH?
    Mr. Ivey. It doesn't take the place of ArtsREACH. ArtsREACH 
is a commitment that we made to bringing the services of the 
agency to under-served States, those that had received five or 
fewer grants over the last few years.
    Mr. Cramer. My State. Yes.
    Mr. Ivey. You are one of them. ArtsREACH really 
concentrates on community planning and executing community 
plans so that a town that may have a theater and a chamber of 
commerce and board of education, as many do, can do a community 
plan that puts those entities together to create an art scene 
for the town. It is a way of building customers for the 
Endowment.
    Mr. Cramer. You actually go in and help them do that? 
Right?
    Mr. Ivey. We have staff that provide technical services. 
The grants themselves are small. They are in that $5,000 to 
$10,000 range, but the technical services help people get these 
little structures going. It has been interesting, and it has 
been very successful. In our Grants to Organizations category, 
which are the basic, most common grants that the NEA makes--
ArtsREACH States received 51 grants the year before ArtsREACH 
was implemented. After the first phase of ArtsREACH, grants 
made through the Grants to Organizations category in those 
States jumped to 123.
    So what you see is the effect of going out and creating the 
ability to apply to us. Now it creates a separate problem, 
which is now we have more customers, but no more money to 
distribute.
    That is a long-winded answer, but ArtsREACH is a distinct 
program, although the entire notion of access, how important 
that is to us, is embedded in ArtsREACH and is a big part of 
Challenge America.
    Mr. Cramer. But ArtsREACH has its own line item?
    Mr. Ivey. It has its own line item.
    Mr. Cramer. And Challenge America as well.
    On the Youth Arts--that program has existed for a few 
years. Is that right?
    Mr. Ivey. Yes. In fact----
    Mr. Cramer. Collaborative effort?
    Mr. Ivey. What you see with the kit is, in many ways, a 
culmination of that program that we are now disseminating 
around the country. It has about a five-year history at this 
point.
    Mr. Cramer. Who funded--where did the funding for the 
research for Youth Arts come from?
    Mr. Ivey. The follow-up research?
    Mr. Cramer. I assume that there was research and then the 
program was produced or----
    Mr. Ivey. I think it went the other way. What happened was, 
was that the three cities each developed their own model for 
how to approach arts for at-risk youth after school. And so the 
Portland and San Antonio and Atlanta programs each used 
different approaches.
    Mr. Cramer. Approaches?
    And what were the target ages?
    Mr. Ivey. They were high school aged young people.
    Mr. Cramer. And then those communities split the $2.3 
million that was----
    Mr. Ivey. There was community money; there were several 
private foundations that were a part of it; and----
    Mr. Cramer. And all this is what is reflected on the back 
of here, including money from OJJDP from Justice?
    Mr. Ivey. Yes. And Justice, in that early phase, was 
responsible, among other things, for the research that assessed 
how well the programs worked, which was very important.
    Mr. Cramer. Well, again, I would--I am very interested in 
that and want to hear more about that. And I congratulate you, 
all of you, for the work you have done. And I hope we can make 
your funding problems a little easier, but I am not sure. There 
are too many uncertainties.
    Aren't there, Mr. Chairman? [Laughter.]
    Mr. Regula. Well, we don't have a large amount yet to 
spread around.
    Mr. Cramer. Thank you. I yield back. Thank you.
    Mr. Regula. In conjunction with Mr. Cramer's question, 
would you, for the record, submit a few, maybe four, examples 
where you have had some education successes that have been 
leveraged by NEA money. I think you touched on that a little 
bit, and I would like to have some of those in the record.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN FORMAT]

    Mr. Ivey. We would be happy to do that, Mr. Chairman. I 
have reviewed some and found that there is an interesting 
variety of approaches to successful educational arts programs.
    Mr. Regula. If you can get those to us, we will put them in 
the record at this point.
    Mr. Ivey. It will be my pleasure to do that.
    Mr. Regula. Mr. Hinchey.
    Mr. Hinchey. Mr. Chairman, thank you very much. Mr. Ivey, 
nice to see you.
    Mr. Ivey. Nice to see you, Mr. Hinchey.
    Mr. Hinchey. I know that your budget was reduced 
significantly back in 1995 because of certain exigencies that 
existed at that particular time. And I am wondering if in your 
testimony--I am sorry I wasn't here to hear your opening 
testimony; you may have covered this--how that cutback affected 
your ability to provide funding for arts around the country. I 
know that what you are requesting now would bring you back 
roughly to where you were previously--approximately.
    Mr. Ivey. Not quite.
    Mr. Hinchey. Not quite. Okay.
    Mr. Ivey. But that's----
    Mr. Dicks. We had some good days--in the 1980's.
    Mr. Hinchey. Yes.
    Mr. Regula. That was when it was authorized, but for some 
reason, it was not authorized after about 1993.
    Mr. Hinchey. Right.
    Mr. Regula. And we are now operating without an 
authorization for either the NEH nor the NEA.
    Mr. Ivey. Well, I wish----
    Mr. Dicks. I think that is our fault, by the way, Mr. 
Chairman, up here, on the Hill.
    Mr. Regula. I didn't want to say it, but I am glad you did.
    Mr. Dicks. I did. [Laughter.]
    Mr. Hinchey. Well, I always pay very close attention to 
everything you say, Mr. Chairman. And I know that a few minutes 
ago you said we don't have an awful lot of money to spread 
around yet, and I was----
    Mr. Regula. Did you like the ``yet'' part? [Laughter.]
    Mr. Hinchey. I may have paid too much attention to the word 
``yet.'' I'm not sure. [Laughter.]
    Mr. Regula. Well, that is going to be reflected by the 
leadership of both of our parties, including the President, as 
to whether or not we accomplish that objective. So, go ahead.
    Mr. Hinchey. Yes.
    Mr. Ivey. Mr. Hinchey, I would be happy to talk a little 
bit about the effect on----
    Mr. Hinchey. Particularly in small towns and communities as 
well as the large ones.
    Mr. Ivey. One of the primary effects has been to squeeze 
the agency between the very legitimate demand both from 
Congress and the American people and from fledgling arts 
organizations to do more with fewer resources. So what we have 
seen is a decrease in the size of our average grant. I think it 
has had a significant impact.
    I mentioned earlier that only a few years ago, the average 
grant was $59,000, and now it is down to $28,000. So we are 
forced to try to do more with less. This year we were only able 
to give grants for about 23 percent of the funds that were 
actually requested.
    Again, if you go back only a few years, that would have 
been 34, and there were times when we were able to fund 50 
percent of the dollar requests.
    So I think that what we have seen is a significant 
squeezing in our ability to serve our constituents even as the 
very legitimate pressure to do more in more places has grown.
    Mr. Hinchey. Well, thank you. And it is clear that there is 
an awful lot more that could be done.
    Mr. Ivey. Yes.
    Mr. Hinchey. I know that the chairman wants to support you 
in every way that he can, and I think many of the members of 
the committee want to follow his lead in that regard.
    Mr. Ivey. Thank you.
    Mr. Hinchey. Sometimes the NEA has been criticized for 
being somewhat elitist and for providing funding for only the 
large cities in the country and for specific communities. You 
know, in some sense, that may not be such a bad thing, looking 
at other agencies and other committees, other subcommittees of 
this particular committee, there is no proportionate 
distribution of funding equitably and in some way based upon 
population or any other way.
    So you have to make choices based upon where you think the 
money will be best spent. So I think that that isn't 
necessarily a bad thing. You have to support high-quality work.
    But it is important to know how you are supporting smaller 
communities as well and trying to bring arts and art 
opportunities to smaller communities as well. And also, what 
effort you might be making to bring the higher quality work 
that may be done in small cities, like I am thinking about, oh, 
maybe the Cleveland Symphony Orchestra, for example, or 
bringing something from New York City out to other people in 
other parts of the country.
    Mr. Regula. If you will yield. One of the things we did in 
capping any percentage to a State and/or local community, we 
exempted grants to organizations that have an outreach that 
goes beyond their area, like performances in Lincoln Center 
oftentimes are broadcast nationwide. Those types of support 
programs would not be constricted by any caps; they are 
exempted from them.
    That was part of our reform program. I think that fits with 
just what you commented on here.
    Mr. Hinchey. Perfectly, Mr. Chairman. Yes. That is exactly 
what I was thinking of. And I hadn't realized that you had done 
that. I think that is terrific.
    Mr. Ivey. We find that this year about 25 percent of our 
grants will have reached beyond the point at which the grant 
was actually given but the services were delivered elsewhere. 
So I think we are doing a good job of following that 
instruction.
    Mr. Hinchey. So, with regard to reaching out to the smaller 
communities, what are we----
    Mr. Ivey. There are two things I would mention. One is an 
existing program that I have talked just a little bit about, 
called ArtsREACH, which is specifically designed for those 
States that have received the fewest number of direct grants 
from the NEA. It is funded at about three-quarters of a million 
dollars, and will be funded at a million dollars, assuming flat 
funding. ArtsREACH goes out most often to small communities, 
combining small grants with some technical service, some 
professional help from the Endowment staff so that we can 
actually help organizations in smaller towns build the capacity 
to create arts activities themselves and also become customers 
or ours in the future.
    Now, in Challenge America, a very significant part of the 
Challenge America initiative would be addressed specifically at 
under-served areas. Now this does not only mean rural areas. It 
also means parts of cities that perhaps have not been touched 
as effectively as they should have been by the work of the 
agency. But we actually propose, in Challenge America, a 
thousand small grants each year--this will be, again, in the 
$5,000 to $10,000 range--that would help communities form the 
partnerships that they need to become effective creators of 
arts activity and also become customers of the NEA in the 
future.
    So the idea of access is one of the primary notions driving 
this agency at present. And we are doing it without 
compromising our commitment to excellence in quality in the 
work that is delivered.
    In both ArtsREACH and in Challenge America we have specific 
components of that, of those efforts designed to reach out to 
smaller communities.
    Mr. Hinchey. You have also done some work with regard to 
local artists and folk art and things of that nature.
    Mr. Ivey. Yes.
    Mr. Hinchey. If I remember correctly, you have been working 
with folk artists to record them and help develop that idiom as 
well as some very important blues artists and places around the 
country.
    Mr. Ivey. Yes. Like my colleague, Bill Ferris with the 
Humanities Endowment, I am trained as a folklorist and have had 
over the years my closest associations with NEA through service 
as a panelist in folk arts activities. So I have a good sense 
of how broad and deep the agency's commitment to that part of 
American's culture has been over the years.
    I think it is one of the most important things that the NEA 
does. We have a program that culminates every fall called our 
National Heritage Fellowship Program, which honors a dozen 
senior folk artists each year. They could be a quilter, a blues 
singer, an early jazz musician, a boat maker, a jewelry maker. 
By bringing the multiple traditions that make up our society 
together, the different cultural strains, the different 
nationalities, here in Washington to recognize the finest of 
our folk artists, I think we accomplish something as an agency 
that is very important to society and I think in many ways is 
unique among Federal roles.
    So we have a very strong commitment to folklore and folk 
art. I guess I am prejudiced because of my background as a 
folklorist and my commitment to grass roots American art forms, 
but I do think it is one of the most important things that the 
agency does.
    Mr. Hinchey. Thank you. Thanks very much. Thank you, Mr. 
Chairman.
    Mr. Regula. We have my partner here, Mr. Dicks, to thank 
for these hearings. He pushed hard for them. Initially we had a 
constrained period of time because we were trying to get these 
bills out in conformance with the law, but of course the 
problem of allocations under the budget and the caps has 
somewhat skewed that situation. But Mr. Dicks, would you like 
some further questions?
    Mr. Dicks. Well, Mr. Chairman, I want to thank you for 
agreeing to this, and it was always a question of whether we 
could work in the time to do it. And because I think all the 
members were very interested in hearing from the two directors, 
and I think the hearings have been quite good.
    And I just hope we can continue to work together. There is 
an education process for the country. There also is an 
education process up here on Capitol Hill that has to be done. 
[Laughter.]
     And as I recall, Mr. Chairman, last year, I think we had a 
majority on the floor support us.
    Mr. Regula. Once we got by the rule.
    Mr. Dicks. Once we got by the rule. [Laughter.]
    And now we will have to do some creative thinking about how 
we attack the authorization problem. And it is not our problem, 
on the appropriations committee, but we are stuck with it.
    We have to help you get re-authorized somehow. That is a 
challenge you need to work on in both bodies.
    Mr. Ivey. We very much appreciate the opportunity to have 
this hearing at a time for NEA when I think we have responded 
to congressional concerns and have a real vision. There is no 
substitute for being able to talk about it in this kind of 
forum.
    So we are very appreciative of your time.
    Mr. Dicks. Well, yes, I think people want to see more done 
at the grass-roots level. Challenge America obviously is a way 
to do it, but you have to have the resources to do it. So if we 
are going to reduce this, one-third of the Congressional 
districts may not benefit. The best way to succeed is to give 
you the resources to continue what you are trying to do.
    And again, I want to compliment you on the steps you have 
taken to deal with the problems that the Congress had pointed 
out properly. And the chairman was involved in this even before 
he was chairman. He and I worked together on language to try 
and deal with this problem to keep the endowments alive. I am 
just glad that we did. I can remember back to the days when 
Ronald Wilson Reagan wanted to eliminate the Endowment for the 
Arts.
    And it is hard to believe that someone who is a 
professional actor would have actually proposed that. And thank 
God the Congress rejected it, as they should have.
    This committee played a role in that. We will continue to 
work with you and Mr. Ferris. And we think you do good work. I 
think that the American people support this, and I think that 
is why there is a majority in the House of Representatives that 
favor the National Endowment for the Arts and Humanities 
because I think people out there recognize that good, positive 
things are occurring.
    When you think about thousands and thousands of grants that 
have been awarded and the fact that only a handful have ever 
been really controversial, I think that is miraculous in 
itself. I think it is very important to go around to these 
members and continue to educate them; tell them what you are 
doing, explain what you are doing in their States and in their 
districts, and tell them about this Challenge America program.
    We have to build support here in the Congress, one to get 
the re-authorization and, two, to get the support for the 
funding. But just speaking for myself, I think you make a very 
powerful case and one the Congress should consider. And I just 
wish we didn't have these budget caps so that we could deal 
with this thing forthrightly and do the right thing.
    So keep up the good work. Nothing succeeds like success. 
And the more that you do that is positive, and the more people 
hear about it from home, the better our chances are.
    But I thank you both for being here and doing a very 
professional job. And you both have very good staffs who we 
enjoy working with too. They are up here working hard and 
helping us with the things that we need to know about. So we 
compliment you on that too.
    Mr. Ivey. Thank you.
    Mr. Regula. Thank you. And let me just emphasize what Mr. 
Dicks said. As you get around the country and speak to groups, 
and I know both you and Mr. Ferris do this, urge them to tell 
the story to their local member of Congress and their 
legislators.
    Mr. Ivey. Right.
    Mr. Regula. That helps build support. I am sorry every 
member of the House wasn't here for the hearing this morning to 
hear this message. Nothing is as persuasive to members when 
somebody back home says here is a very positive program that 
has been accomplished in our community because of a small or 
incentive grant from either NEA or NEH. It does help a great 
deal as we have to try to move these programs along.
    And, of course, at this point we have no idea what we are 
going to have in funding. I think both you and Mr. Ferris have 
done a good job of making a case for your programs this 
morning, and we very much appreciate your being here.
    With that, we will conclude the hearing.
    [Additional questions for the record follow.]

[GRAPHIC(S) NOT AVAILABLE IN FORMAT]

                                         Wednesday, April 28, 1999.

                 NATIONAL ENDOWMENT FOR THE HUMANITIES

                                WITNESS

WILLIAM R. FERRIS, CHAIRMAN, NATIONAL ENDOWMENT FOR THE HUMANITIES

                            Opening Remarks

    Mr. Regula [presiding]. Good morning to all of you. I'm 
glad to see there is some interest in this hearing this 
morning. We are happy to welcome all of you. We will get the 
hearing started.
    Mr. Dicks. Mr. Chairman?
    Mr. Regula. Mr. Dicks. Mr. Ferris, we are happy to have you 
here. What I would like is if you would summarize your 
statement. Then we will have some questions.
    Mr. Ferris. Thank you so much.
    Mr. Regula. Your full statement will be made a part of the 
record.

                     Statement of William R. Ferris

    Mr. Ferris. Thanks. Well, I want to first thank you, 
Chairman Regula and Ranking Member Dicks, for the opportunity 
to appear before the subcommittee. And I am here to speak on 
behalf of President Clinton's request for $150 million for the 
National Endowment for the Humanities in Fiscal Year 2000. I 
want to stress that I, and all of my staff, look forward to 
working closely with you and other members of the committee as 
we pursue the goal of strengthening the Nation's humanities 
programs.
    Folklorists love to tell stories so it is appropriate that 
I, as a folklorist, chair the agency that is charged with 
telling our Nation's story. It is a story that spans centuries, 
a story of people like each of us, a story of places that each 
of us come from. Of States like your State, Chairman Regula, 
Ohio, that boasts seven of our Nation's Presidents: Garfield, 
Grant, Harding, Harrison, Hayes, McKinley, and Taft.
    Mr. Regula. Some of us say eight, but I don't know which 
one it is you missed.
    Mr. Ferris. I will rely on you to correct that list.
    Of a State like my home, in Mississippi, that has given our 
Nation writers like William Faulkner, Tennessee Williams, 
Richard Wright, and Eudora Welty, who celebrated her 90th 
birthday last week.
    Each American has a proud tale to tell of family, of roots, 
of what it means to be an American. This tale is especially 
important as we enter our next century, the next millennium. It 
is especially important because we are in danger of losing our 
stories and, with them, our memory of who we are as Americans. 
As interstates and strip malls stretch across every community, 
we need these stories to ground us in our history and culture.
    The humanities are the many voices that shape our lives. 
They are the voices of our parents and grandparents heard over 
dinner. They are also the historic voices from the fields of 
literature, history, and philosophy--the voices of Plato and 
Shakespeare, of Abraham Lincoln and Martin Luther King, of Mark 
Twain and Frederick Douglass.
    A strong nation requires an educated citizenry, a people 
who understand their roots and who can envision their future. 
For over three decades, the National Endowment for the 
Humanities has protected both our past and our future. Each of 
our core programs has given critical support to the Nation's 
educational and cultural life. Through our Research and 
Education division, we support summer seminars and research for 
teachers that enrich the classroom experience for hundreds of 
thousands of students each year. Through our Public Programs 
division, we support television, radio programs, and museum 
exhibits. Through our Challenge Grants office, we help build 
endowments for educational programs. Through our Preservation 
and Access division, we have saved hundreds of thousands of 
brittle books and pages of newspapers in every State, a project 
to which Congressman Yates was closely connected. And, through 
our Federal/State Partnership, State humanities councils enrich 
grassroots humanities programs throughout the Nation.
    Our Nation stands at the end of what some have called ``the 
American century'' and on the threshold of a new millennium. 
The year 2000 also marks the 35th anniversary of the National 
Endowment for the Humanities.
    Our proposed budget for Fiscal Year 2000 is designed to 
help every citizen rediscover America by strengthening 
classroom and lifelong learning. Why is the Endowment critical 
to our Nation's future? Because two-thirds of our Nation's K-
through-12 curriculum is dedicated to the humanities. Because 
the Nation will need 2 million new teachers in its classrooms 
over the next decade. And because four out of every 5 teachers 
in the classroom today feel inadequately prepared for their 
subject areas.
    For over 25 years, the NEH summer seminars for teachers 
have addressed these issues. Before our 36 percent budget cut 
in FY 1996, the NEH funded 166 seminars for teachers that 
reached out to 417,000 students. Because of those cuts, we now 
offer only 52 seminars that reach 156,000 students. Our 
proposed budget will allow us to significantly rebuild these 
programs for our Nation's teachers.
    Our recently launched Schools for a New Millennium link 
faculty, students, parents, and administrators in an entire 
school with a museum or a university in the area to develop an 
exciting new curriculum that focuses on local history and 
culture. At the Booker T. Washington High School in Memphis, 
the focus is on the Civil Rights movement. On the Laguna Pueblo 
Indian Reservation in the Southwest, it is on Indian religion. 
And in Milwaukee, the focus is on the community's ethnic 
diversity. Together, these programs address the educational 
needs of both the classroom and the community.
    With the help of a gift from MCI/WorldCom, NEH created 
EDSITEment, a site that links 50 sites and allows a teacher 
quick access to information on subjects like Congress, George 
Washington, and Martin Luther King, Jr. Within minutes, the 
teacher has both the information on the topic and a classroom 
syllabus that outlines how to present the subject at their 
grade level. You have a copy of a beautiful poster that evokes 
the many faces and subjects that EDSITEment deals with.
    [Clerk's note.--Material was distributed at the hearing.]
    Mr. Ferris. And I am especially proud to say that, as of 
today, we have just learned that this project is one of five 
finalists for a Smithsonian Computerworld Award. This is one of 
the highest honors that technology and education offers.
    Research in the humanities also is critical to our Nation's 
lifeblood of educational and cultural life. We have supported 
six Pulitzer Prize-winning volumes. Here are a few of the many 
books that we have helped produce. You may have read reviews of 
the recent book by Jean Strouse on J.P. Morgan. It has received 
wonderful reviews and is a very exciting read. Jean Strouse 
began this work with Endowment support.
    Mr. Regula. In other words, she received grant funding, but 
not directly for this book.
    Mr. Ferris. Well the research was begun with what we think 
of as seed money, essentially, to start, from NEH.
    Mr. Regula. Right, from NEH.
    Mr. Ferris. Two Pulitzer Prize-winning volumes, both of 
which began with Endowment support, include James McPherson's 
``Battle Cry of Freedom,'' a great work on the Civil War, and 
Jack Rakove's ``Original Meanings'' on the Constitution.
    Similar support from our Public Programs division helped 
launch Ken Burns' television series on ``The Civil War,'' ``The 
West,'' and ``Baseball.'' Our recently funded film on General 
Douglas MacArthur--and you have information in your packets on 
this film--will be shown nationally on public television 
shortly. Next year, Ken Burns will air his greatest and longest 
series to date on jazz, a 20-part series, which, again, the 
Endowment funded.
    Because of our budget cuts in FY 1996, the availability of 
these rich programs fell by two-thirds by the end of this year. 
This means that the cumulative audience for quality humanities 
programming will fall by approximately 70 million viewers and 
that almost 4 million people will not have the opportunity to 
engage in lifelong learning by visiting educational museum 
exhibitions. Our requested budget, again, is designed to 
address these needs.
    With the additional FY 2000 funding requested, we also will 
provide over $11 million new dollars to 56 State humanities 
councils for their programs. These programs reach into 
virtually every local community in the Nation. We will expand 
lifelong learning for all Americans through high-quality 
museum, television, radio, and library reading programs. We 
will digitize humanities collections in museums, archives, and 
libraries so that they can be used by every American.
    We will extend the reach of our programs by providing 
special funding to institutions and communities that have 
received few, if any, grants from the Endowment in the past. 
Our support will be directed towards small and mid-sized 
museums and libraries; small and mid-sized educational 
institutions and two-year colleges; historically black, 
Hispanic, and Native American institutions; and rural and 
inner-city audiences.
    As someone who grew up on a farm, I am especially pleased 
that the Endowment is addressing the needs of rural America. We 
recently funded ``Barn Again,'' an exhibit on barns that 
examines the American farm and its relation to both the country 
and the city. Through a partnership with the Utah Humanities 
Council and other State councils in the Northwest, the Midwest, 
and the South, the exhibit has now been shown in over 30 small, 
rural museums in 9 States. This June, it will open at the 
Wolcott Mill Historic Center in Ray, Michigan.
    We will also reach out to rural America through our 
regional initiative that will create humanities centers in 10 
regions throughout the Nation. In response to our discussions 
with congressional leaders, we are requesting support for only 
four of these centers; we expect to raise the remaining funds 
from private sources.
    Finally, we will encourage every American to discover their 
family history through our new intitative, ``My History is 
America's History.'' With the support of the White House, we 
will launch this project on Thanksgiving of this year. It will 
allow each of us to place our genealogy and family stories on 
the Internet and to explore time lines that show how our family 
history connects to national and international events.
    As you well know, the National Endowment for the Humanities 
is the largest single source of funding for the humanities in 
the United States. We are the keepers of the fire of our 
Nation's education and cultural worlds, and we have done our 
work well. For over three decades, our work has enjoyed 
bipartisan support because our programs seek to reach all 
people. We urge Congress to approve our request for increased 
funding in FY 2000 so that the Endowment can move forward with 
an exciting new agenda for the humanities that will help to 
celebrate the story of our Nation in ways that will touch every 
American.
    Thank you.
    [The statement of Mr. Ferris follows:]

[GRAPHIC(S) NOT AVAILABLE IN FORMAT]

             stimulating private support for the humanities

    Mr. Regula. Well, thank you. I have a couple of questions. 
How much private money do you think the Federal money generates 
in matching grants in terms of being stimulated for private 
contributions?
    Mr. Ferris. I can get those figures specifically for you 
shortly. Our Challenge Grants generally are matched three-to-
one or four-to-one. Since the beginning of the agency, we 
directly stimulated $1.58 billion in third-party support. More 
than $1.23 billion of that amount has been generated by our 
Challenge Grant program which, as I mentioned, requires either 
a three-to-one or four-to-one match. So there is a significant 
leveraging support through the Federal dollars that we receive.

                  state funding of humanities councils

    Mr. Regula. How many States have a legislative 
appropriation for a State NEH and what is the total of that 
funding? Do you have any idea what the total appropriations 
are?
    Mr. Ferris. I can get those figures for you shortly. We are 
working closely with the Federation of State Humanities 
Councils at their annual meeting to encourage aggressive fund 
raising, both from legislative and from other private sources. 
Some individual States have done extremely well, such as 
Louisiana. As of this year, the Louisiana Endowment for the 
Humanities has secured $1.5 million and hopes to see $3 million 
annually from their legislature. In 1998, 34 Humanities 
Councils received State-appropriated funds of $7.9 million. 
That figure is growing annually under the leadership of Gail 
Leftwich, who heads the Federation, and the State chairs.

                 neh and the state humanities councils

    Mr. Regula. Do you provide some grants to most of the 
States and some level of NEH money?
    Mr. Ferris. We do. We fund an annual appropriation to each 
State. But also, the State councils are encouraged to apply for 
specific grant support from the various NEH divisions. So, in 
addition to the annual appropriation, there is grant-specific 
funding to various State councils.
    Mr. Regula. Does the program, both on the State and Federal 
levels, generate a lot of volunteer activity?
    Mr. Ferris. Absolutely. We are in the process of getting a 
firmer hand on the numbers, but the State councils have 
advisory boards. They have volunteer projects. Much of the work 
at the State level and much of the work that Federal projects 
generate involves volunteer support.
    Mr. Regula. I will just digress off the record a minute.
    We will go back on the record and Mr. Dicks.
    Mr. Dicks. Mr. Ferris, I want to welcome you here today and 
tell you how much we appreciate your leadership and, as I 
remember now, this is your second appearance before the 
subcommittee?
    Mr. Ferris. Yes, sir, it is.
    Mr. Dicks. You have been here a little over a year now?
    Mr. Ferris. That is correct.
    Mr. Dicks. Well, what do you think of all this? [Laughter.]
    Mr. Ferris. I think it is great. I think it is great that 
here we sit in this room with distinguished congressional 
leaders, cultural leaders, and students. And,if I might add, 
while he was too modest to say it to the students, Chairman Regula is a 
former teacher and education is at the heart of what we are about here 
today. So we welcome each of you.

                  neh support for humanities education

    Mr. Dicks. Mr. Ferris, you have indicated in your testimony 
that support for education is one of the major objectives that 
the NEH will pursue through its Fiscal Year 2000 budget. Again, 
in what way will your efforts support the President's goal for 
the education in the Nation as we enter the next century?
    Mr. Ferris. Every aspect of our funding is directed toward 
education. We are defining education as cradle to grave. We 
have special programs that address K through 12 and others that 
address college and university education within the classroom. 
But, beyond that, we have lifelong learning programs that range 
from public television and radio to museums and library reading 
groups. So we aim to have a well-educated population in the 
Nation and we have done that well and we will do it better in 
the future.
    Mr. Dicks. You mentioned your website, which I strongly 
support. I think that is a tremendous thing and I know how 
young people, including my own children, are heavily into the 
use of personal computers and the Internet. What is the 
Endowment doing in other ways, besides the website, to make 
quality humanities materials more available to students and 
teachers in the Nation's schools?
    Mr. Ferris. Well, the central issue is access and, through 
technology and the Internet, we give every American access to 
the humanities. We do that through EDSITEment. You don't have 
to be a teacher or a student in order to get access to rich 
information on a subject. We are doing it through our newly 
developed electronic newsletter that was launched last month. 
Overnight, we have assembled a list of over 14,000 subscribers. 
That is a monthly newsletter that will give not only 
congressional leaders, but all Americans access to the latest 
information on our resources.
    We have added a Millennium Schools initiative, which is 
focused on the use of technology in the classroom and, 
increasingly, we are creating websites with each of our film 
series and our museum exhibits. We are also digitizing 
collections of primary materials and documents so if one wants 
to know about the papers of Benjamin Franklin and you are a 
third grade teacher, your students can read Franklin's letters. 
It is a marvelous and wonderful new age for all of us.

                      regional humanities centers

    Mr. Dicks. Please tell me more about the status of your 
plans to establish regional humanities centers. How many 
regional centers will there be and what kind of support and 
obligation are you seeking from the Federal Government to 
support this initiative?
    Mr. Ferris. There will be 10 regional centers that will 
cover the Nation that will support undergraduate and graduate 
degree programs on the history and culture of the region, 
research projects, such as encyclopedias and archives, and 
public programs. And each of these centers will link in a 
hublike way all of the education and cultural institutions of 
those regions. We are, at the suggestion of congressional 
leaders, requesting support for only 4 of the 10. That, 
essentially, would be $1 million a year for those 4 over a 5-
year period. That will be a challenge grant and will be matched 
three-to-one, so, for every $1.00 that Congress invests, $3.00 
will be raised privately within the region.
    Mr. Dicks. To create the center.
    Mr. Ferris. Exactly. And that will be, essentially, an 
endowed institution for the rest of time. These will be not new 
institutions in the sense that we are creating them from 
scratch; we are recognizing excellence within existing 
institutions, probably universities, that will build on 
outstanding work in the study of regions that is already being 
done and will, essentially, help secure the future study of 
American regions.
    A visitor in my office, a college president from the 
Midwest, recently referred to his part of the country as a 
flyover zone. He was concerned that his people feel a sense of 
insecurity that the East and West coasts are not the kind of 
worlds that they are part of. These regional centers will be 
designed to address every part of our Nation.

                     outreach plans and initiatives

    Mr. Dicks. What is the Endowment doing to reach out more to 
rural communities and culturally diverse populations, such as 
Native Americans, Hispanics, and African-Americans?
    Mr. Ferris. We have specific initiatives that we are 
developing. We have a working group within the Endowment 
designed to do just that. We are working with historically 
black churches and institutions to preserve church records in a 
way that will protect them from the fires that we have seen in 
recent years. We are working with Native American institutions 
to develop teacher institutes that will give better access to 
the history of Native American culture. And similar efforts 
with Hispanic institutions are being developed.
    Mr. Dicks. Well, I just want you to know that, I strongly 
support what you do and I know that the humanities are very 
strong in Washington State. We have a very strong State 
organization and the support that they receive is deeply 
appreciated. We also appreciate your leadership on these 
issues.
    Mr. Ferris. Thank you, sir.
    Mr. Dicks. Thank you, Mr. Chairman.
    Mr. Regula. Just to go off the record a minute. Back on the 
record, Mr. Wamp.

                         grant rejection rates

    Mr. Wamp. Thank you and welcome, Mr. Chairman. In your 
written responses, which we have got this a little backwards 
here, but it is nice to have all the written responses before 
we even ask the questions. [Laughter.]
    You say----
    Mr. Dicks. Have a test.
    Mr. Skeen. Here is my program.
    Mr. Wamp. No more tests. 81 percent grant rejection rate 
for the National Endowment for the Humanities, which, 
obviously, is troubling. And 3 other grant making agencies, the 
Arts, 52 percent; the National Science Foundation, 67 percent 
rejection rate; the National Institutes of Health, 69 percent. 
Those are all, I think, troubling to us. Of that 81 percent 
that you are now experiencing in terms of rejecting these grant 
requests, what would be an acceptable rate? Obviously some of 
your grants would be rejected under all the funding that you 
needed, you would still--they wouldn't meet the standards. What 
would an acceptable rate be? And, then, of these 81 percent, at 
this current levelthat you are having to turn down, how many of 
those are really good grant requests that you need to meet?
    Mr. Ferris. That is an excellent question. We turn down 
many grant requests that are fully eligible for funding. 
Presidential papers, for example. The papers of George 
Washington, of Thomas Jefferson, are all crying for support. We 
can only give, at best, partial support in every one of our 
divisions. For the films of Ken Burns, for example, we give a 
very small part of what he needs. And there are young Ken 
Burnses in the pipeline, the young lifeblood for the next 
generation of scholars, of teachers, of film makers are all in 
need.
    We simply cannot begin to fund everything that should be 
supported. We should be growing. You mentioned NSF, as compared 
to their growth, which is appropriate for the study of science, 
we have been cut and then held at level funding for four years. 
The needs of this Nation are not waiting on us. The 2 million 
new teachers we will need over the next decade are not going to 
wait on the kind of support that we need. We are desperately in 
need of the additional funds in the proposed FY 2000 budget to 
at least begin funding many of these outstanding projects that 
are deserving of funding.
    I should stress that all of the projects that we fund have 
been carefully vetted through a peer review process that goes 
through several stages in which scholars and distinguished 
leaders in the field of the proposals carefully review and 
recommend funding or not funding.
    Mr. Wamp. I also serve on the subcommittee that funds the 
Library of Congress and I can't help but think--this is my 
third year over there--how important that is to us and how 
similar the two are, really, in all respects and we need to 
kind of consider those two on a par with each other because 
Library of Congress funding continues to go up. I yield back, 
Mr. Chairman.
    Mr. Regula. Thank you. Mr. Skeen.

                        support for oral history

    Mr. Skeen. Thank you, Mr. Chairman. And, Mr. Chairman, 
welcome. I would like to like to know something more about your 
oral history programs. We get so little rain in New Mexico, 
would you record the rain on a tin roof for us?
    Mr. Ferris. Absolutely.
    Mr. Skeen. I think it would be a real work of art. 
[Laughter.]
    But I know that you are doing a lot of work in Indian 
Country, particularly in the Laguna Pueblo.
    Mr. Ferris. Yes.
    Mr. Skeen. Would you tell us what you are doing there?
    Mr. Ferris. Well, the Laguna Pueblo received 1 of the 20 
grants we made in our new Schools for a New Millennium program. 
Again, we could use a Schools for a New Millennium grant in 
every district. Because of our limited funding, we had to 
select the top 20 proposals and the Laguna Pueblo was one of 
the 20. They are, essentially, with their teachers, students, 
parents, and all of the community, working together to build a 
new initiative, a new curriculum that will look at the religion 
and culture of the Pueblo people as part of what they study 
within the classroom.
    Mr. Skeen. Their arts, like pottery.
    Mr. Ferris. All of their culture. And I would like to 
include this list for the record of all of our support for 
Native American projects, which range from the preservation of 
endangered Native American languages to oral histories. I am a 
folklorist and oral history, to me, is something close to my 
heart. When I teach, I refer to the African proverb that when 
an old man or woman dies, a library burns to the ground.
    Mr. Skeen. That is true.
    Mr. Ferris. Now the Library of Congress is a great 
institution, but much of our history is not within the pages of 
books. As you well know, oral history is critical and this is 
why we have initiated projects like ``My History is America's 
History'' so every American can talk to their parents and 
grandparents and put their tales down for the next generation.
    Mr. Skeen. I think that is a very worthwhile endeavor on 
your part, mainly because we are so rich in the history that we 
have and in that particular part of the country, even though we 
don't have much rain, we have got a lot of history. [Laughter.]
    Well, thank you for the work that you do and how well you 
do it.
    Mr. Ferris. Thank you, sir.
    Mr. Skeen. I appreciate it.
    Mr. Regula. Without objection, your item will be made a 
part of the record.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN FORMAT]

    Mr. Skeen. Thank you, sir.
    Mr. Dicks. Would you yield to me just for a second?
    Mr. Regula. Yes, certainly.

                       importance of oral history

    Mr. Dicks. Just, on that point, I remember Studs Terkel's 
book on oral history of World War II which was remarkable in 
that so many of these veterans had never talked about their 
experience in World War II because it was very, you know, we 
have all seen the movie ``Private Ryan'' and it was very 
horrific in many circumstances. It was the first time they had 
ever talked to anybody about their experiences. And, also, the 
Japanese Americans and the internment and interviewing them and 
how they felt. And I think you are absolutely right, I think 
that is a kind of history you are not going to get anywhere 
else, except from the people who really participated.
    Mr. Ferris. Well, Studs Terkel was my hero in graduate 
school at Northwestern University. He inspired me to go into 
folklore. He is also--I am proud to say--an advisor to NEH's 
``My History Is America's History'' project. He calls the oral 
histories ``the stories of the anonymous.''
    We are also working and having conversations with the Shoah 
Foundation, whose work has allowed us to understand the tragic 
history of the Holocaust through oral histories. What we want 
to do is do equivalent work with every American to say, whether 
you grow up under a tin roof in the Southwest or in a farm in 
Ohio, your stories are important. They need to be recorded and 
we are here to help you do that.
    Mr. Regula. As a common interest we have, you could do a 
history of the 4-H clubs in the United States. [Laughter.]
    Did you have a comment, Mr. Skeen?
    Mr. Skeen. Yes, I do. I have discovered the History Channel 
on television, since there is so very damn little else that you 
can watch.
    Mr. Ferris. Exactly.
    Mr. Skeen. But the History Channel is one of the most 
outstanding, particularly for you historians. The rest of you 
do the by-play on it and I want to recommend it to you. It is 
fascinating.
    Mr. Regula. I think they use some of your material.
    Mr. Ferris. They do.
    Mr. Regula. I see the credits.
    Mr. Skeen. Have you ever appeared on the program?
    Mr. Ferris. I have not.
    Mr. Skeen. I think that they should ask you.
    Mr. Ferris. I would be honored.
    Mr. Skeen. I will take 5 percent of the take. [Laughter.]
    Mr. Ferris. That might get us a cup of coffee together. 
[Laughter.]
    Mr. Skeen. Well, we will start a little fund, anyway.
    Mr. Regula. Mr. Cramer.

                 nonfederal support for the humanities

    Mr. Cramer. Thank you. Dr. Ferris, welcome to the 
subcommittee. Mr. Chairman, thank you for giving us this 
opportunity. I think it is important that we hear from you and 
track the past and what we hope the future will be. I support 
funding for you. I have appreciated as well your outreach to me 
when I requested information. You came to my office and you 
made sure that I got that information. Your background is, of 
course, impressive. I am your neighbor there in north Alabama, 
being that you are from Mississippi. And I particularly like 
the emphasis on the educational mission of the agency.
    I want to ask you a very general question. How much 
communication is there between NEH and what significant 
foundations, private foundations, are doing?
    Mr. Ferris. There is growing communication. Last week, I 
gave a major address to the Council on Foundations in New 
Orleans at their annual meeting. Foundations are a multi-
billion dollar arm of support for our culture and education, 
and we are increasingly working, through our Enterprise Office, 
to bridge congressional support for NEH with foundation 
support. We expect to do that at the national, regional, and 
local levels, to increase giving for the humanities. It really 
is a two-way street. They are impressed that Congress believes 
in the humanities and I think Congress appreciates the fact 
that the Ford Foundation and other major foundations are making 
commitments to the humanities from the private sector.
    Mr. Cramer. I would imagine there is some gain there of 
coordination, who is doing what, to make sure we don't, I mean, 
if it is possible, do not duplicate. I am not so sure we can 
invest enough in those issues, but there is coordination there?
    Mr. Ferris. Yes, there is. Projects like our Schools for a 
New Millennium and our support for the digitization of archival 
papers are of interest to all of these foundations and, again, 
communication is critical. The Council has recently created a 
major website. This meeting was literally broadcast globally 
through the website. We are doing similar work with our NEH 
website. We will be working in a partnership increasingly with 
both the Council on Foundations and with individual foundations 
around the Nation.
    Mr. Cramer. I noticed as well your background in the Blues 
and you know about our W. C. Handy Jazz Blues Festival that, 
for years, we have had in the Shoals area of my congressional 
district and we are interested in a Blues institute because we 
think there is a history that should be tracked there and we 
should be more aggressive in preserving that. And I hope that 
you can continue to consider that.
    It is good to see you again and thank you for participating 
with us today.
    Mr. Ferris. Thank you, sir.

                  american legacy editions initiative

    Mr. Regula. I have one question and then I will go around 
the panel. We have a few minutes, yet. And I am sure some of 
the members, including myself, will have questions for the 
record we will submit to you.
    Please describe briefly the American Legacy Editions 
initiative and its costs for Fiscal Year 2000 and subsequent 
years. How would this initiative help speed up important 
Presidential papers and increase private sector support for 
this work?
    Mr. Ferris. This is the issue we mentioned earlier. The 
Presidential papers, along with all of our projects, have been 
struggling for support because of the funding cuts. What we 
have done is to carefully assess, through our Research and 
Education division staff, a long-range plan that will 
essentially provide funding to the key projects and bring them 
all to conclusion within a defined period of time. And, for the 
record, I would like to submit the information on this. But, 
basically, at the present request, this project would provide 
$3.4 million in grants to the editing projects and would allow 
us to see these projects through to completion.
    We are talking about the Nation's Founding Fathers. We are 
talking about the great voices that created the very vision 
that brings us here today. So it is absolutely a national 
treasure that we are dealing with and the funding that we have 
proposed is a modest request to allow us to fully complete 
projects like the papers of Thomas Jefferson, of Benjamin 
Franklin, of names that we all know, such as Martin Luther King 
and Frederick Douglass. These are significant voices for every 
American and this is a fixed time and a fixed amount of money 
that will, essentially, put these to bed.

                    history of the ``first ladies''

    Mr. Regula. One last question: Are you doing anything on 
first ladies?
    Mr. Ferris. We are. [Laughter.]
    In fact, it is with great pleasure that I wrote Mrs. Regula 
recently and requested that she speak to our National Council 
on the Humanities this summer in July. We are increasingly 
concerned about issues related to women and, to Mrs. Regula's 
credit, she pointed out the obvious, which none of us had seen, 
which is that there is no record of first ladies. We have got--
as I was saying--the Presidential papers, but where are the 
papers of the first ladies who were just as important, as we 
know?
    Mrs. Regula, in Canton, Ohio, has taken the bull by the 
horns, so to speak, and I will be visiting her museum and 
speaking to your Rotary Club after a program that I am doing at 
Ohio State. We are very proud of this project and we look 
forward to using the Endowment's ``bully pulpit'' to celebrate 
and to call attention to her good work.
    Mr. Regula. Well, I think it is to the First Ladies, 
because they really have been extremely influential. Mr. Dicks.

               IMPACT OF CUTS IN PUBLIC PROGRAMS' FUNDING

    Mr. Dicks. Your public programs division has provided 
support for a number of projects on PBS that have captivated 
the Nation, including the Ken Burns series on ``The West'' and 
``The Civil War'' and the various biographies of the 
Presidents, such as Roosevelt, Kennedy, and Reagan. Is the 
public programs division still able to function effectively 
given that it has been subjected to a 60 percent cut to its 
base?
    Mr. Ferris. Tragically, that division was the hardest hit 
of all and, as I mentioned earlier, if we do not see increased 
funding, by the end of this year, the American public will be 
facing a 70 percent cut in the number of quality programs 
available on public TV. And, as we mentioned earlier, it is 
very difficult to find high-quality programs on television and 
radio. The Endowment has been a critical supporter of such 
programs. We don't provide all the support, but we, 
essentially, provide an imprimatur of excellence. For Ken 
Burns, it may have been $800,000 or $1 million in a $10 million 
or $20 million project, but our money allowed him to go to 
General Motors and to others. This is a story that is repeated 
all across the board with other filmmakers.
    The public programs we support are a serious issue because 
they reach so many. One great film may reach 50 million to 100 
million viewers, so it really is absolutely essential that 
public programs find additional support.
    Mr. Dicks. How much is spent on that division now in this 
budget?
    Mr. Ferris. I'll get those figures for you. Essentially--if 
your will bear with me just a moment.
    Mr. Dicks. I think we have numbers here. It is $11.2 
million in the Fiscal Year 1999 appropriation and a request of 
$16.7 million. Would that help? Would that get you back on 
track?
    Mr. Ferris. It would get us back on track. It would put us 
moving in the right direction. We have carefully reviewed, 
within each NEH division, how we would use the additional 
funding and it is not simply going to be business as usual. We 
are creating a much more focused agenda to reach out, not only 
with major grants to artists like Ken Burns, but to give seed 
money to young filmmakers, perhaps $10,000 to a struggling 
young filmmaker who may one day be a Ken Burns or a Steven 
Spielberg because they all began at the same level. With a 
little Endowment support, Ken Burns was able to launch his 
career.
    Mr. Regula. Mr. Wamp, any additional questions? Mr. Skeen.
    Mr. Skeen. No.

            cost of moving from the old post office building

    Mr. Dicks. I have one additional question, Mr. Chairman. I 
understand that the GSA has informed you that the Endowment 
will need to move from its current location at the Old Post 
Office Building. Is this correct? And what cost would be 
associated with such a move that would have to be borne by the 
Endowment's administrative budget?
    Mr. Ferris. Well, we have received a letter indicating that 
it is quite possible we will have to move in the year 2000 or 
2001. Our estimate is that, in addition to the basic costs that 
GSA would support, we would probably need something in the 
range of $1.1 to $1.5 million to fully transfer all of the 
systems--computer and other systems--that we will have to 
relocate.
    Mr. Dicks. Okay. So you keep us informed on that.
    Mr. Ferris. Yes, I will.
    Mr. Dicks. Thank you.
    Mr. Regula. Thank you very much, Mr. Ferris, for being 
here. And we certainly will be sensitive to your needs and the 
objectives of your program.
    Mr. Ferris. Thank you, sir.
    Mr. Regula. We have a vote on the rule on the House floor, 
so we will just suspend for about 10 minutes while we all go 
and vote and then we will have Mr. Ivey from the National 
Endowment for the Arts. So we will be in recess, briefly.
    [Whereupon, the subcommittee recessed, to reconvene later 
the same day.]
    [Questions for the record:]


[GRAPHIC(S) NOT AVAILABLE IN FORMAT]

 TESTIMONY OF MEMBERS OF CONGRESS AND OTHER INTERESTED INDIVIDUALS AND 
                             ORGANIZATIONS

                              ----------                              

                                           Tuesday, April 20, 1999.

                         GATEWAY NATIONAL PARK

                                WITNESS

HON. FRANK PALLONE, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW 
    JERSEY
    Mr. Regula [presiding]. We will get the hearing started 
today. We have a long list of people to go through, and, Mr. 
Pallone, you are going to lead off.
    Mr. Pallone. Well, thank you, and thank you for----
    Mr. Regula. We will put your statement in the record.
    Mr. Pallone. Yes, I have a complete statement for the 
record, and I am just going to summarize it, but I did want to 
start off by thanking you for all your support in the past for 
various projects in my district as well as nationally for 
various Interior programs.
    In my district, we have the Sandy Hook Unit of Gateway 
National Recreation Area, and the administration's budget 
request includes funding for operations and maintenance and 
also for upgrading the water and sewer system which is very 
important. I know you always stress the safety factors as the 
primary concern for dollars, and I am just asking that we at 
least get the level of funding that has been requested by the 
administration.
    Mr. Regula. Well, let me tell you, Frank, the 
Administration's request is $1.2 billion over last year, and I 
don't see where that is coming from.
    Mr. Pallone. I know it is a problem, because in the past--
--
    Mr. Regula. It is easy to make requests, and that is not 
taking into account the caps. It is just that it is a $1.2 
billion more than we had in this bill and without any source. 
It has tobacco money and a whole host of things that are not 
going to happen. So, for us to fund the President's request at 
100 percent across the board would be impossible with the money 
available. So, what we will try to do is the prioritized 
projects.
    Mr. Pallone. Well, that is why I said, I wanted to mention 
this water and sewer, because I know that that is important, 
because, obviously, they can't function if they don't have 
adequate facilities.
    Mr. Regula. So, your number one priority is water and 
sewer?
    Mr. Pallone. In terms of what they have requested as part 
of the operation and maintenance and overall, but there is 
another thing at Sandy Hook that I wanted to mention to you, 
and we have it in here in my full testimony as $4.4 million, 
but we have broken it down so that there could be significantly 
less than that given the budget crunch. There was a threat to--
the historic artifacts related to Sandy Hook and the military 
operation that were there. They were stored and displayed at 
Sandy Hook, but they were deteriorating or there was a threat, 
I should say, that they could deteriorate, because there wasn't 
an adequate facility to house them, and the Park Service has 
agreed to leave them there which is important for the community 
and the local area, but we need to have a program in place to 
restore the facility so that they can be properly stored and 
displayed. I set forth in my testimony a sort of multi-stage 
process for doing that that ultimately involves about $4 
million but that can be done in stages to protect it, and I 
really would like you to look at that seriously.
    Mr. Regula. What have they been collecting in rec fee 
money?
    Mr. Pallone. They collect--I don't have the overall budget, 
but our problem has always been the fear that we are not 
getting sufficient amounts of that. Now, I know that there is a 
Demonstration Program in effect and that that Demonstration 
Program now requires that the money be used----
    Mr. Regula. At the parks.
    Mr. Pallone. At the park.
    Mr. Regula. Well, 20 percent is set aside----
    Mr. Pallone. Right.
    Mr. Regula [continuing]. For parks that do not have 
entrance fees.
    Mr. Pallone. Well, we have an entrance fee, though, or they 
call it a parking fee, I guess, the same thing.
    Mr. Regula. Yes.
    Mr. Pallone. Well, that money is there, but I don't know 
whether or not--I know that that is not adequate to do all the 
things that----
    Mr. Regula. Oh, no, I understand that. In setting up this 
demonstration project on entrance fees and letting the parks 
keep it, we envisioned using the funds to do things that just 
don't get done in the normal course of events. This artifacts 
project sounded to me like the kind of thing that would 
qualify.
    Mr. Pallone. Exactly. Well, that certainly is something 
that you could look into as the source of it. But I know that--
I just want you--you said, what is the most important thing? 
This is something----
    Mr. Regula. Water and sewer, am I correct?
    Mr. Pallone. Absolutely, but if this isn't done with a 
storage facility, at least in the initial stages, then these 
artifact will have to be removed from Sandy Hook which isn't 
what we want.
    The other thing you have always been very supportive of is 
the shore protection needs of Sandy Hook. You funded this 
pipeline that allows us to take sand from one area to another 
in order to prevent the road from deteriorating, and then there 
is no access to Sandy Hook, and that has been going well. But 
the problem is we still need an overall beach fill project, 
because that is only for that little critical zone. So, I am 
asking for funds for the beach nourishment project.
    And I know you always say to me, ``Well, why does it have 
to go through Interior?'' But my understanding is that----
    Mr. Regula. The Corps of Engineers does that in some 
places.
    Mr. Pallone. I know, so I don't understand why that is the 
case, but apparently that is the case, and so I bring it here.
    The last thing I wanted to mention and this is as a result 
of a meeting. I went to a meeting last night in Monmouth Beach, 
which is one of my smaller towns, but they have a lifesaving 
station that dates back to the 19th century that, again, is in 
danger of being demolished, because they don't have the funds 
to restore it. And what I have in here also is a request for 
$250,000 to try to restore that lifesaving station, so it 
doesn't get demolished. We might be able to attach some State 
funds to that too in some kind of partnership.
    And then I have a couple other things that I often mention 
to you, but we don't get funded. One is the Church of the Seven 
Presidents in Long Branch; that needs money for preservation. 
And, lastly, the Edison Tower. Menlo Park, New Jersey, which is 
in my district, is where Edison had his lab, and he invented 
the incandescent light bulb and the----
    Mr. Regula. I thought that the millennium people were going 
to deal with that.
    Mr. Pallone. Well, what we were trying to do with that was 
to get that coin bill passed. There was a bipartisan bill that 
would do an Edison coin, and I keep hoping that that would be 
the source of funds, but it never gets passed, so that is why I 
put it in with you, as well.
    Mr. Regula. One last thing: Have you asked the Park Service 
about your water and sewer problems? We don't earmark most of 
the backlog maintenance money, and we have doubled that account 
in the last few years.
    Mr. Pallone. Oh, you mean, in other words, we might be able 
to get it through some sort of general funds?
    Mr. Regula. Yes.
    Mr. Pallone. I will look into, sure.
    Mr. Regula. I think you ought to talk to the Park Service 
about the possibility of doing that out of their backlog 
maintenance funding, because as I say, we have doubled it, 
because there is such a huge backlog.
    Mr. Pallone. And it is not specifically earmarked?
    Mr. Regula. Debbie, we leave a lot to their discretion, 
isn't that correct?
    Ms. Weatherly. In the operations budget, we have more than 
doubled their cyclic maintenance----
    Mr. Pallone. Okay.
    Ms. Weatherly [continuing]. And then we have line item 
construction, and you are in line item construction this time.
    Mr. Pallone. Yes.
    Ms. Weatherly. So, there is, for backlog, just for future 
reference----
    Mr. Pallone. Things like sewer and water.
    Ms. Weatherly [continuing]. Is their area.
    Mr. Pallone. Well, we will look into it.
    Mr. Regula. I think you should talk to Park Service, 
because those projects have to have a very high priority in 
terms of backlog.
    Mr. Pallone. The last thing I wanted to mention was the OCS 
moratorium. I know every year you usually put that in, and I am 
hoping that we will get it in again this year.
    Mr. Regula. That is ironic. The same people that want the 
OCS moratorium want this land legacy bill so that they get the 
money from OCS revenues from other States. There is a little 
hypocracy there. [Laughter.]
    Mr. Pallone. Well, thanks, anyway. We always battle over 
it, but it always ends up well, so I appreciate it. Take care.
    Mr. Regula. I don't know that I want to fight that one 
again, but I question why they want the money coming from the 
revenues, but they don't want to provide the revenues. The 
worst offender is California.
    Mr. Pallone. I understand. Thank you.
    [The statement of Mr. Pallone follows:]

[GRAPHIC(S) NOT AVAILABLE IN FORMAT]

                                           Tuesday, April 20, 1999.

           BLACKSTONE RIVER VALLEY NATIONAL HERITAGE CORRIDOR


                                WITNESS

HON. PATRICK J. KENNEDY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    RHODE ISLAND
    Mr. Regula. Mr. Kennedy. Blackstone River Valley.
    Mr. Kennedy. National Heritage Corridor.
    Mr. Regula. Yes, it's very popular, isn't it?
    Mr. Kennedy. Very popular. It is really spawning a rebirth 
in northern Rhode Island, and I know the issue that you are 
often interested in is what the match is locally. I can tell 
you it is well over 50/50 on our side.
    Mr. Regula. That is happening in our corridor too. People 
just love these things.
    Mr. Kennedy. Yes, and the local businesses are putting up.
    Mr. Regula. Right.
    Mr. Kennedy. And, in fact, we just had a boat built that 
will take people up and down the river which historically had 
been closed to the public, because industrial sites had been 
set alongside the river. Now, it has all been opened up, and 
this was a project where the Federal Government match was 1 to 
30. We raised $30 for every $1 that was raised from the Federal 
Government.
    Sufficed to say, we asking for--we never get any money for 
the construction projects, really. We get--$3.75 million is 
what we are asking for. The statutory aid, we usually get about 
half of what we ask for, and that is--$650,000 is what we are 
asking for, and we really--this is critical for us. We get 
about $300,000, $350,000, but we really need to bump it up to 
$650,000, and the reason is because the statutory area within 
the Corridor has doubled in size but the money hasn't; it has 
stayed fixed. So, basically, it is like having a house with no 
furniture. We are not there in terms of what we need. And we 
always get the $245,000 operations Park Service money, but 
that--people think, well, if you give them that, then you have 
covered the operational side of the commission and you haven't.
    And, of course, in order to leverage the private side, you 
have to have the commission participation, because that is what 
brings it in. We will have members of the private sector; we 
will have local mayors; we will have--so, for us to have such a 
good match, you sort of have to fund the commission, because, 
otherwise, you don't bring people in investing in the process. 
So, we are asking for $3 million to $3.75 million for the 
construction side which sort of always gets zeroed out, so 
anything on that side would be great. And double the statutory 
aid, and I have to say that is what has been provided for by 
statute. Of course, the appropriations have never been met or 
only been half met.
    Mr. Regula. Well, I know these are popular, and they do 
serve a lot of people on almost a daily basis. We will do the 
best we can, but it depends a lot on what we have in our 
allocations.
    Mr. Kennedy. Yes, I got you.
    Mr. Regula [continuing]. And whether our leaders on both 
sides can reach an accommodation on the caps issue.
    Mr. Kennedy. Yes, okay; I got you.
    Mr. Regula. So, you can talk to your leader; it takes two 
to tango on this.
    Mr. Kennedy. Well, I want to say I supported your bill last 
year--not all my caucus did--but I just wanted to add, because 
I know you did a lot for us, and, Norm, I appreciate your help 
with this as well.
    Mr. Dicks. Pat, we will work with you on this, and we are 
just faced with a tough problem. If we don't get the caps 
lifted, we have to cut $1.4 billion from the President's 
request. So, we are praying here for the caps to be lifted.
    Mr. Kennedy. Now, the President's budget in terms of 
special projects, can any of that money be folded into regular 
projects?
    Mr. Regula. Are you talking about the millennium money?
    Mr. Kennedy. The millennium money, yes.
    Mr. Regula. Oh, I don't think so. That is a special 
account, and, of course, the First Lady has some input on that 
one.
    Mr. Kennedy. All right.
    Mr. Regula. But it is not fungible in the sense you are 
talking about.
    Mr. Kennedy. Okay.
    Mr. Regula. Okay, thank you.
    Mr. Kennedy. All right, thanks so much.
    [The statement of Mr. Kennedy follows:]

[GRAPHIC(S) NOT AVAILABLE IN FORMAT]

                                           Tuesday, April 20, 1999.

           BLACKSTONE RIVER VALLEY NATIONAL HERITAGE CORRIDOR


                                WITNESS

HON. JAMES P. McGOVERN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MASSACHUSETTS
    Mr. Regula. Mr. McGovern.
    Did you have any questions?
    Mr. Dicks. No.
    Mr. McGovern. Thank you very much. I will be quick, because 
I am just echoing what Patrick Kennedy said. He comes from 
Rhode Island, and I am from Massachusetts, and the Blackstone 
River Valley National Heritage Corridor is a part of 
Massachusetts as it is in Rhode Island.
    Mr. Regula. What is the total length of the corridor?
    Mr. McGovern. Well, it goes from Worcester to Providence, 
so--I failed mileage in school, so----
    [Laughter.]
    Mr. Regula. You can give it to us in kilometers. 
[Laughter.]
    Mr. McGovern. Yes, well, it is about a good hour and a 
half, hour and 20-minute drive from one end to the other. I 
mean, and there is all kinds of other things happening too. I 
mean, in the ISTEA bill, Senator Chafee and I worked together, 
and we have a bike path that is going to compliment all that is 
going on here in the Corridor, and it is not only going to be 
great for people to learn about the history of the industrial 
revolution, and it is already having important spinoffs in 
terms of additional business activity in a lot of towns that 
have really, quite frankly, been economically depressed, but it 
is going to link two of the largest cities in New England--
Worcester, which is the second largest city in New England, and 
Providence, Rhode Island.
    Mr. Regula. Is there a hiking path?
    Mr. McGovern. Yes, they are working on that now.
    Mr. Regula. Are the two States contributing?
    Mr. McGovern. They are, and business communities are also 
contributing. I mean, there is a real partnership here, and 
there is an excitement over this project, the likes of which I 
haven't seen, and anything else, quite frankly, that the 
Federal Government has participated in.
    Mr. Regula. You have gotten a lot of volunteers too.
    Mr. McGovern. A lot of volunteers, and it is bringing, 
again, the business community together with the environmental 
community with people are--with the academic community. It is 
putting together a partnership that I think is worth 
preserving, and there has been great progress already made on 
this initiative, and we just want to see this thing to 
completion. And I understand--I heard what you said to 
Congressman Kennedy, and I understand the constraints that all 
of you are under here, but this project really is working, and 
if you get a chance to come up there--I think you may have been 
up there several years ago--it is really remarkable what is 
going on.
    Mr. Regula. Well, I don't think there is any question these 
corridors are great. You can get out with your family in the 
evenings and ride a bicycle and walk, and it is a very positive 
thing.
    Mr. McGovern. And all the pieces are coming together, so we 
are really excited about it, and whatever you can do----
    Mr. Regula. We will do as much as we can----
    Mr. McGovern. I appreciate it very much.
    Mr. Regula [continuing]. With the fiscal constraints. Mr. 
Dicks?
    Mr. Dicks. Well, Jim, thank you for being here and 
testifying, and we will do the best we can.
    Mr. McGovern. I appreciate it. Thank you.
    [The statement of Mr. McGovern follows:]

[GRAPHIC(S) NOT AVAILABLE IN FORMAT]

    Mr. Regula. Any other Members? I don't see any.
    [Recess.]
                              ----------                              

                                           Tuesday, April 20, 1999.

                      ERNEST E. DEBS NATURE CENTER


                                WITNESS

HON. XAVIER BECERRA, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Becerra. Mr. Chairman, Mr. Dicks, I apologize; I was 
with a constituent.
    Mr. Regula. Okay. You are on.
    Mr. Becerra. Mr. Chairman, thank you very much, Mr. Dicks. 
Let me just briefly mention that this project that I am hoping 
that the subcommittee will consider is a project that is fairly 
new to Los Angeles, because it is in the urban core. We are 
looking at a project that has gotten quite a bit of private-
public support. This is a project where the Federal 
Government's share would be only a small portion of the dollars 
that are necessary to create what they are calling an urban 
habitat; environmentally, an area where people, mostly kids, 
inner-city kids, would have a chance to go.
    There is nothing out there in these areas for young kids to 
go to. They would have to travel in some case 15 to 20 miles to 
be able to get to a beach. I can take you to schools in my 
district where kids who are born and raised in Los Angeles will 
tell you they have never been to the beach in Los Angeles; it 
is just very difficult to get out there.
    So, the nice thing about this particular project is it 
gives these young folks a chance to enjoy some of the 
surroundings, to have recreation, without having to try to 
travel someplace too far away.
    Mr. Regula. I have to ask the obvious question: first of 
all, California had a bond issue to build parks. This one, 
apparently, was overlooked. Secondly, this would seem to me to 
be a city park and a natural thing for the city to build.
    Mr. Becerra. There is already a park; it is already a park 
there; it is maintained by the city. Yet, the problem becomes 
it is not that usable. It is sort of tucked away in some hills, 
and it is something we are going to try to make into something 
more usable, and what they want to--what everybody is trying to 
do is create a center. We need monies to build the center so we 
can make use of the facility. I mean, you have got residents 
who have lived in the area for quite some time who don't 
realize that that park even exists. If you were to drive along 
the city----
    Mr. Regula. Would the city be able to expose this park with 
signage? It seems like it is a city responsibility.
    Mr. Becerra. It is ultimately a city responsibility, but 
the city is saying, ``We are so tied up with the few resources 
we have for all the various projects that we have, that it 
would be difficult for us, by ourselves, to fund this.'' That 
is why the State has already pumped in some money; the city is 
already prepared to pump in some money, and there is private 
money also going in. But what they are trying to do is come up 
with enough money to put it alltogether and do it. The city, 
ultimately, could probably do it; it just would take longer.
    Mr. Dicks. What is the request?
    Mr. Becerra. Oh, it is a small request of just about $1 
million, $1.5 million; it is small.
    Mr. Regula. Normally, we don't fund private, non-Federal 
projects, and this is a non-Federal project.
    Mr. Becerra. Mr. Chairman, if we were to make it into a 
Federal project, then the city wouldn't contribute anything, 
nor would the State, and it would be more difficult for us to 
ultimately get that done.
    Mr. Regula. True.
    Mr. Becerra. The quality of this project is that without 
it, kids who otherwise don't know where the beach is in Los 
Angeles, have never gone skiing in the mountains nearby, and 
don't know about all the other national parks that we have and 
Government parks that we have nearby, Angeles Forest, for 
example, will never make use, and what it will do is just keep 
them on the streets.
    Mr. Regula. It seems to me the city school system ought to 
have a program about parks, because California has some 
terrific parks.
    Mr. Becerra. That is the purpose of getting this money, 
because what they want to do is develop a center that can help 
them bring kids into the center first; let them know what these 
parks are, and then they can take them up. The parks exist; it 
is out there. It is just not--when you look at it driving, you 
don't think of it as a park.
    Mr. Regula. Yes.
    Mr. Becerra. And it is very difficult to make use of it, 
and I wouldn't be coming here if it were solely the Federal 
Government that we were seeking funding from, but, quite 
honestly, the Federal Government is the last part of this 
equation. The State has already put money in; in fact, more 
than I am asking the Feds to do; the city is already putting 
money in, and we have got private money, as well, working on 
this. What they are hoping to do is get all the money in right 
now, because without it, they can't go forward with the 
developers to finish this up.
    Mr. Dicks. What about the State Land and Water Conservation 
Program? Is there just not enough money there?
    Mr. Becerra. No, there is not enough money to go around. 
That is why the State, itself, is putting in an appropriation 
in its State budget for this. In other words, on top of what is 
already out there in existing bond funding, in agency program 
dollars, both at the local and State level, this is what is now 
needed on top. They have already got money being spent to 
maintain the park in its current condition. What we are asking 
for is dollars to help create the center that will make it a 
landmark. Without it, there is just no way, and, again, for the 
most part, folks who will use this are kids. It is a way to get 
the inner-city children who don't have a way to get transported 
all the way to the beach, which is only about 15 to 20 miles 
away, but there is just no way to get them there.
    Mr. Dicks. Where in Los Angeles is this located?
    Mr. Becerra. This is right in the heart of L.A. If you 
think of--think of Dodger Stadium. Do you know where Dodger 
Stadium is? If you were to look for Dodger Stadium, if you 
could look and do a panoramic view, you would run past--your 
eyes would run past the park, you just wouldn't know it. It is 
hills, it is just some hills that you can't really build on, 
because they are too steep, and they have left them open, and 
what they did was they created, in essence, a park, but, 
because most people don't know they can use it, they don't. 
Some folks walk their dogs and do a few things like this, but 
the kids really don't make use of it, and there is nothing--if 
you look at a map of Los Angeles, you will see nothing but 
concrete, and most of these kids are hanging out on the corner. 
If they knew that they could go out there and do a few things 
in these parks, it would be a lot safer for folks.
    Mr. Regula. Okay, well, thank you very much.
    Mr. Becerra. Mr. Chairman, thank you. Mr. Dicks, thank you, 
and thank you for indulging with the time, and I apologize for 
being a little late.
    [The statement of Mr. Becerra follows:]


[GRAPHIC(S) NOT AVAILABLE IN FORMAT]

                                           Tuesday, April 20, 1999.

           BLACKSTONE RIVER VALLEY NATIONAL HERITAGE CORRIDOR


                                WITNESS

HON. BOB WEYGAND, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF RHODE 
    ISLAND
    Mr. Regula. Mr. Bereuter. Oh, Mr. Weygand? Oh, yes, sorry.
    Mr. Weygand. I will be very brief, Mr. Chairman----
    Mr. Regula. Yes, we need that to catch up here.
    Mr. Weygand [continuing]. Because I know you have had two 
of our colleagues who talked about it already.
    I am here before you to testify in support of the 
Blackstone Valley Heritage Corridor Project, which I know you 
are very familiar with, Mr. Chairman. I know that 
Representative Kennedy and Representative McGovern were in 
earlier. I am going to submit my statement for the record, so 
that you have that.
    Mr. Regula. Without objection.
    Mr. Weygand. I know that the project, itself, has begun to 
spur a tremendous amount of tourism development around the 
Blackstone Heritage Corridor, and it has been absolutely 
wonderful for the communities that have for a long time 
suffered from a lot of the recession that occurred in the 
1990's, early nineties, in Rhode Island.
    This money would be used for, primarily, construction for 
improvements to boat ramps; for various parts of bicycle paths, 
as well as other tourist information centers, interpretive 
centers, and a host of other things that really explore the 
heritage and the history of the river and the mills and the 
dams and the canals that made New England a very rich 
industrial area, and this would be well worth the Government's 
investment, because it is also matched by local monies, as 
well, and private investment.
    Mr. Dicks. Sounds like a great program.
    Mr. Weygand. I know you love it. [Laughter.]
    Mr. Chairman, you have been very kind----
    Mr. Dicks. You have good allies, too. [Laughter.]
    Mr. Weygand. I know. Thank you very much.
    Mr. Regula. Thank you.
    [The statement of Mr. Weygand follows:]


[GRAPHIC(S) NOT AVAILABLE IN FORMAT]

                                           Tuesday, April 20, 1999.

  FISH AND WILDLIFE SERVICE, NATIONAL PARK SERVICE, AND FOREST SERVICE


                                WITNESS

HON. DOUG BEREUTER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEBRASKA
    Mr. Regula. Mr. Bereuter.
    Mr. Bereuter. Thank you, Chairman Regula, Congressman 
Dicks, and staff. I appreciate the time that you spend 
listening to all of us and me, especially, today. I want to 
thank you, first of all, Chairman Regula, for your interest and 
support in an ongoing project in my district, the Indian Health 
Service Hospital Replacement in Winnebago, Nebraska, which will 
serve parts of the three-State area and numerous tribes.
    Without your help last year, we wouldn't have got the 
remaining planning money which was unexpected and unpredicted 
by the Indian Health Service. Your intervention was crucial.
    This year, the Indian Health Service, in its original 
budget request requested $10 million for the first phase of 
construction of the hospital, but OMB overruled IHS and 
eliminated the construction funds for reasons that I have yet 
to determine, and I am not holding my breath. Frankly, I am 
frustrated with the administration's handling of this project, 
and I regret that I have to ask for your special assistance 
again for the beginning of construction money since the 
planning activity is expected to be completed in June or July. 
I do not want that time delay. Oftentimes, when you have a 
substantial delay between the planning phase and the 
construction phase, they have to go back and reconfigure and 
redesign and reexpense.
    I know you have a very difficult task related to Native 
American issues generally, especially the part that is in your 
jurisdiction, because the administration has requested 
dramatically less than most of the programs. I am hoping, 
however, that some funds--now they say $12 million instead of 
$10 million--can be available for beginning the hospital 
construction, but I think it is crucial, at least, that the 
construction begin during this fiscal year.
    Mr. Regula. What is the total cost estimate?
    Mr. Bereuter. The total cost estimate is $42.2 million, of 
which construction would be $39.5 million. Design completion, 
as I mentioned, is expected to be done this year.
    Mr. Regula. Does it serve a number of tribes?
    Mr. Bereuter. It does. Two very specifically are adjacent 
to it--the Omaha and the Winnebago--but they also provide 
service to other areas and especially urban Indians living in 
the Sioux City area.
    Mr. Regula. Do any of them have casinos?
    Mr. Bereuter. I am sorry?
    Mr. Regula. Do any of them have casinos?
    Mr. Bereuter. In fact, two of them do. In the Iowa portions 
of the two tribes which were cut off by a change in the course 
of the Missouri River, both the Omaha and the Winnebago have 
had casinos. Their income, I think, was well used, particularly 
with respect to one tribe, but Council Bluff now has the Las 
Vegas firms in the Council Bluff, Iowa area, and they have 
dramatically cut into proceeds of the casino, so they are down 
by about two-thirds from their intake a few years ago.
    Mr. Regula. In other words, competing casinos.
    Mr. Bereuter. I also want to say that there are seven items 
in the administration's budget, which I have listed, which I do 
support fully. Two of them I would mention as priorities. One 
is--the highest priorities are the National Agricultural 
Forestry Center and their budget, which serves the Great Plains 
area out of a Lincoln facility, and the Lewis and Clark 
National Trail's activities related to the bicentennial of the 
Lewis and Clark Expedition in 2003, and 2006. I am not asking 
for anything more than the administration's request in those 
two areas of the seven that are mentioned.
    Mr. Regula. Thank you. Mr. Dicks?
    Mr. Dicks. I just want to say that being from Washington 
State where the expedition ended, we are very interested in 
Lewis and Clark. I think it is something that is going to be 
very worthwhile for the country.
    Mr. Bereuter. I agree. I have been very active in this, 
and, as a matter of fact, the bicentennial coin which will 
generate a little money is my bill which failed in the last day 
of the last session; reintroduced, probably, with your co-
sponsorship.
    Mr. Dicks. Well, definitely; if I am not on there, put me 
on your bill.
    Mr. Regula. I would agree.
    Mr. Dicks. Thank you.
    Mr. Bereuter. Thank you.
    Mr. Regula. Thank you.
    [The statement of Mr. Bereuter follows:]


[GRAPHIC(S) NOT AVAILABLE IN FORMAT]

                                           Tuesday, April 20, 1999.

                   STONES RIVER NATIONAL BATTLEFIELD


                                WITNESS

HON. BART GORDON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    TENNESSEE
    Mr. Regula. Mr. Gordon.
    Mr. Gordon. Thank you, Mr. Chairman, Mr. Ranker, Ms. 
Weatherly. You know, it is that time again. The cherry blossoms 
have come and gone; the dogwoods are in full bloom; the birds 
is singing; the grass is green, and I am back here to report to 
you on the Stones River Battlefield and the really good 
progress, with your help, that we have made.
    Mr. Regula. You haven't come and gone, have you?
    Mr. Gordon. Sir?
    Mr. Regula. I said, you haven't come and gone?
    Mr. Gordon. No, sir; no, sir. [Laughter.]
    Mr. Regula. You stick around.
    Mr. Gordon. Since my friend, Mr. Dicks, only guest 
appearances here, I will recap a little bit. You have heard 
this over and over, Mr. Chairman, but Stone River Battlefield 
is in my hometown of Murfreesboro, Tennessee. Secretary Lujan 
put it on his 25 most endangered battlefields some years ago, 
and it is thought to be one of the 45 battles or skirmishes of 
the Civil War that had a direct impact on the outcome and also 
was one of the three bloodiest battles of the war with Shiloh 
and Antietam. Ms. Weatherly was nice enough to come by some--I 
guess a year or so ago when there was a superintendent's 
meeting, and I appreciate her coming and seeing the good work 
that you have done there.
    Let me give you a quick update. Two years ago, Roger 
Kennedy came down to start the restoration project of Fortress 
Rosecrans which was the largest earthen fort made during the 
Civil War and one of the largest, I guess, in the world. That 
being completed this year, Fortress Rosecrans and Brannan 
Redoubt, so I should never be back to ask you for anything else 
for those projects, and I appreciate you doing that. Bragg's 
Headquarters, the restoration, there, will be completed this 
year. The Historic River Trail is being completed this year, 
and it has already won a variety of national awards for 
excellence, and what it is, Stone River Battlefield was 
neglected for many years, and now it is in the middle of one of 
the fastest growing areas in America. So, it has really become 
a model for--I don't know whether you want to call it--sort of, 
suburban kind of historic areas where you have a linear part; 
that is, you don't have 3,000 or 4,000 acres, but there are 300 
or 400 here; you have another little area that was there, and 
you have a variety of these things that in Gettysburg would all 
be together, but it is not there. But, with your help, we were 
able to use the river, which, in a lot of places becomes 
dumping grounds and aren't used, which was the only little 
place left that wasn't being developed, to connect in a linear 
way. So, we have a linear park that I think really has become a 
model for these sort of areas, and I really hope you would be 
proud----
    Mr. Regula. Is there is a walking path?
    Mr. Gordon. Yes, sir. And, quite frankly, as it was being 
produced, I just took a dog cussing for frivolous expenditures 
at home. Now, it is generally recognized as the most 
significant improvement in quality in that area in anybody's 
lifetime, and it is a model, really, for the whole region where 
people are coming in and seeing what can be done, and it really 
has provided I think the model for communities all over 
Tennessee and the area to see what you can do, and it has 
raised awareness that these things are important which has been 
very good.
    So, most everything that you have done, we have completed, 
and I am grateful. There has been a general management plan 
that has been developed, and they have made some 
recommendations, one of which all the historic markers in the 
visitor's center were built in 1962; there has been nothing 
done to them since that time. Last year, this committee 
provided $300,000 to update all the various markers; the Park 
Service added to that $450,000 from their discretionary funds, 
so that is done. The Park Service also provided $300,000 last 
year for the design for an update of the visitor center. A part 
of the reason that you do that is there is a variety of 
displays and historic paraphernalia that is deteriorating, and 
so they have done that design, and now they are recommending 
$1.2 million to implement it, and so I am asking for the $1.2 
million today.
    The other thing that I am asking for is just to hold the 
line--the President has requested $4.3 million to complete the 
land acquisition, and let me tell you--you know, you have heard 
me whine about all the growth and all--let me tell you what is 
happening to show that it is significant now. There is about 
400 acres that with your help we have now in the battlefield. 
There is 100 or so around it to be picked up. What is going on 
right now is on the east side of the battlefield, Murfreesboro 
has purchased all of that property for a new convention center; 
it is gone. On the south side, Dale Corporation is getting 
ready to buy all of that property for their second----
    Mr. Regula. So, you are saying, now or never.
    Mr. Gordon. Yes, sir. So, you have got the northern and the 
eastern part, and that is it, and we have given up everywhere 
else, so that is why we need to grab that while we can.
    Mr. Regula. Okay. Mr. Dicks?
    Mr. Dicks. No, I just want to compliment the gentleman. He 
has been a steadfast advocate for this project, and I 
appreciate him taking the time to help educate us on the 
details, and I look forward to seeing him at five o'clock this 
afternoon.
    Mr. Gordon. I will be there. Thank you.
    Mr. Dicks. Thank you. [Laughter.]
    [The statement of Mr. Gordon follows:]

[GRAPHIC(S) NOT AVAILABLE IN FORMAT]

                                           Tuesday, April 20, 1999.

                UNDERGROUND RAILROAD INTERPRETIVE CENTER


                                WITNESS

HON. SHERROD BROWN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF OHIO
    Mr. Regula. Mr. Brown.
    Mr. Brown of Ohio. Mr. Chairman, I don't know what dog 
cussing is, what my predecessor talked about.
    [Laughter.]
    I don't know if that is a Tennessee or an Appropriations 
Subcommittee word----
    Mr. Dicks. That is Tennessee.
    Mr. Regula. I suspect it is somewhere in every district; it 
might be a different terminology. [Laughter.]
    Mr. Brown of Ohio. Bart sits next to me in committee, and 
he never did any dog cussing----
    Mr. Regula. I want to know, Bart, did they all come and 
tell you that they were wrong and you were right?
    Mr. Gordon. Amazingly, they stop you on the street now.
    Mr. Brown of Ohio. Mr. Chairman, Congressman Dicks, thank 
you for the opportunity to testify before you today. I am 
honored to express my support for Oberlin, Ohio's request for 
$1 million from the National Park Service that would establish 
a commemorative site to educate residents of northeast Ohio and 
visitors around the country of the Oberlin area's historic 
contribution to the anti-slavery movement. Oberlin Ohio and 
Oberlin College were established simultaneously in 1833. In the 
words of their founder, Reverend John Jay Shipherd, they were 
places ``to live together in all things as brethren.'' With 
those words, the legacy of the community took shape.
    In February, 1835, the board of trustees of the fledgling 
Oberlin College reached a stalemate--four in favor, four 
against. The deliberation at hand was whether to admit African-
Americans to their school and anti-slavery professors to their 
faculty. The tiebreaker was a vote by the chairman, Reverend 
John Keep, who, voting in favor of the resolution made a 
visionary commitment that designated Oberlin as one of the 
leading institutions of higher education for African-Americans.
    The city of Oberlin was stop number 99 on the road from the 
deep South to Canada. Stop 100 on the Underground Railroad was 
freedom. In 1850, the enactment of the fugitive slave law 
mandating northern cooperation in catching runaway slaves 
created greater dependence on the Underground Railroad 
intermediaries. Oberlin was proud to say they never lost a 
passenger. However, in September, 1858, an 18-year old fugitive 
living in Oberlin, John Price, was tricked by slave hunters and 
taken to the nearby town of Wellington to await a train that 
would transport him back to a life of slavery. The news of his 
abduction spread rapidly, causing local abolitionists to spring 
into action. Vowing no slave would ever be taken from Oberlin, 
the mob, including 300 Oberlin citizens--white and black--
stormed the building where he was held, shuttled Price back to 
Oberlin and hid him until he could leave for Canada. Thirty-
seven people were indicted for aiding the rescue of John Price; 
of them, 12 were black, including 3 fugitives jeopardizing 
their own freedom; 20 rescuers ended up serving time in jail. 
For 84 days, Oberlin citizens demonstrated outside the 
courthouse, declaring the prisoners martyrs for freedom.
    Today, visitors to Oberlin can trace much of this history 
to buildings, statues, and cemeteries that testify to the lives 
saved and lost in the struggle for equality.
    Mr. Regula. Are there any facilities of any kind to give 
you the interpretation of the movements?
    Mr. Brown of Ohio. No, there is no facility now to do that.
    Mr. Regula. So, for any history----
    Mr. Brown of Ohio. Secretary Babbitt visited and designated 
a home as a national historic landmark. There is some of that, 
but there is nothing comprehensive or nothing really large 
enough to pull the history together.
    Mr. Regula. Is the home open to the public?
    Mr. Brown of Ohio. The home is open limited hours to the 
public. It is in an out of the way place in Oberlin in a 
residential neighborhood.
    Mr. Regula. It has some historic meaning?
    Mr. Brown of Ohio. Yes.
    Mr. Regula. Is it operated by a non-profit?
    Mr. Brown of Ohio. Yes, I believe it is operated by a non-
profit group.
    Mr. Regula. Okay.
    Mr. Brown of Ohio. I will not continue my whole statement, 
but a local Oberlin resident, Kenny Clark, donated an 1889 
gasholder building which is in the lower income part of town 
and littered with debris. The $1 million would restore the 
property, and private money, would build and operate a museum 
within it. That is what we are asking for.
    Mr. Regula. Mr. Dicks?
    Mr. Dicks. Well, I just want to compliment the gentleman on 
his advocacy. It sounds like a very worthwhile project.
    Mr. Regula. Thank you.
    Mr. Brown of Ohio. Mr. Chairman, thank you.
    [The statement of Mr. Brown of Ohio follows:]

[GRAPHIC(S) NOT AVAILABLE IN FORMAT]

                                           Tuesday, April 20, 1999.

                    NATIONAL ENDOWMENT FOR THE ARTS


                                WITNESS

HON. STEPHEN HORN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Regula. Mr. Nadler is not here; Mr. Horn.
    Ms. Weatherly. He is stuck at the airport.
    Mr. Horn. Thank you very much, Mr. Chairman, for allowing 
some time on your and my favorite subject. I think it is long 
overdue that the administration recommended another $50 
million, and I am delighted to support it for $150 million.
    You know this was founded back in 1965; I was then on the 
Senate staff, and I think it has done an excellent job over the 
years, 99.9 percent. A few things caused you and I and a lot of 
Members a lot of trouble. I think we have a first rate 
administrator there now, and I think it makes a tremendous 
amount of difference, and I have great faith in him.
    But, basically, I just want to talk about my own City of 
Long Beach where there is a real commitment to the arts, and 
the National Endowment as well as the Museum Institute have 
been immensely helpful to the city. This is the second largest 
city in Los Angeles County, roughly a half million people, and 
the institute certainly helped the university that has one of 
the finest art museums in the country; small though it might 
be, it has been way ahead of the times.
    In terms of the Public Corporation for the Arts in Long 
Beach, which is a real commitment that comes from the room tax 
through the city council, and this matching bit, especially of 
the Challenge America, that is immenselyimportant to us, 
because we think there is a real reason to stress arts education. If we 
can't develop the audiences now for the arts, there aren't going to be 
any symphonies; there aren't going to be any operas and all the rest of 
it, and I think it is important to get that arts education in the early 
years.
    Mr. Regula. Mr. Horn, let me suggest you discuss this with 
some of our colleagues.
    Mr. Horn. I do, regularly. [Laughter.]
    And I count votes.
    Youth-at-Risk, Cultural/Heritage Preservation, it has got 
to touch their heart somewhere. My heart was touched when I was 
5 years old--I think I told you that before--in what appeared 
in the town of Hollister, the County Seat, and San Benito 
County, 13,000 people, the WPA Symphony came; that changed my 
life. I know you are a strong supporter, and I will be glad to 
back you.
    Mr. Regula. We will let Mr. Dicks----
    Mr. Horn. And, Mr. Dicks, we know is a strong supporter.
    Mr. Regula [continuing]. Who is a strong supporter.
    Mr. Dicks. Well, now, listen, we appreciate your advocacy, 
and we appreciate the fact that the Endowment has done a good 
job in Long Beach. I want you to know when my one time to play 
in the Rose Bowl, we stayed in Long Beach, and when I was a kid 
growing up, my parents used to come down there for a month 
every year to go right next to--what it is called--Pike?
    Mr. Horn. It is now leveled except for one tattoo parlor, 
so----
    [Laughter.]
    Mr. Horn [continuing]. If you want to renew your tattoos--
--
    Mr. Dicks. Well, it has had its better days. But we are 
going to do the best we can for the arts and humanities under 
the circumstances.
    Mr. Horn. Well, I appreciate that. With your leadership and 
your leadership, we ought to be in good shape.
    Mr. Regula. And your help with our colleagues.
    Mr. Horn. Absolutely. I will work on every one of them you 
send me in the direction.
    Mr. Regula. I can give you a clue as to where to go. 
[Laughter.]
    Mr. Horn. Where there is no use--with some, there is no use 
banging our heads against the wall.
    Mr. Dicks. But there is a significant number that can be 
counted on in the house.
    Mr. Regula. Right, talk to our leadership. That would be 
helpful.
    Mr. Dicks. I think our side stands ready to move on this. 
We just need as much bipartisan help as we can muster.
    Mr. Horn. Well, I think we will have several dozen that 
will be helpful.
    Mr. Regula. Our real problem is the authorization that we 
don't have. So, it makes it difficult if we get a point of 
order. We have to get a waiver. Thank you.
    Mr. Horn. You don't think the Rules Committee will give it 
to you?
    Mr. Regula. Your colleague is from California.
    Mr. Horn. That is right. We will be glad to work on him.
    Mr. Regula. You talk with him. Mr. Horn. And Louise 
Slaughter and I, as you know, are the co-Chairs of the Arts 
caucus. We will line them all up out in the hall.
    Mr. Regula. Okay, thank you very much.
    Mr. Horn. Thanks.
    Mr. Dicks. Thank you.
    [The statement of Mr. Horn follows:]

[GRAPHIC(S) NOT AVAILABLE IN FORMAT]

                                           Tuesday, April 20, 1999.

  FOREST SERVICE, NATIONAL PARK SERVICE, AND NATIVE AMERICAN PROGRAMS


                                WITNESS

HON. JAMES L. OBERSTAR, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MINNESOTA
    [Pause.]
    Mr. Dicks. Here is Mr. Oberstar.
    Mr. Regula. Good morning.
    Mr. Oberstar. Good morning, Mr. Chairman. I heard your 
call, I came running. It is amazing for a committee to be 
running ahead of time.
    Mr. Regula. We are not, we just had a few people who didn't 
show.
    Mr. Dicks. But you are ahead of time, and we are glad you 
are here.
    Mr. Oberstar. I will try to keep you on schedule. I have a 
few items that I have submitted. Voyageurs National Park in my 
district needs to complete its acquisition of inholding, and in 
another part of my statement I am saying don't give money to 
the Forest Service to buy more land, but I am asking you to do 
it here for the Park Service.
    Mr. Regula. Well, let me say, that we have a limited amount 
of money for land acquisition, and the top priority would 
always be inholdings with a willing seller to complete these. 
So, I think we have committed the resources that we have, 
pretty much to inholdings.
    Mr. Oberstar. Well, that is a very wise decision. In this 
case, I know one property owner who in good faith said to the 
Park Service, ``Here, we will sell whatever it is you need, and 
we can only afford this much,'' so, he sold half of the land. 
Now, the landowner can't do anything with the other half, and 
this continues to be a festering sore at the park.
    Mr. Regula. Well, we are going to deal with inholding 
problems as much as possible.
    Mr. Oberstar. I would appreciate that.
    The second point I raise is something I have been coming to 
this committee for many, many year pleading with your limited 
dollar amount for Indian education at the Fond du Lac School. 
Fond du Lac is located about 25 miles from the City of Duluth. 
It is one of the poorest reservations. Even though they have 
joined with the City of Duluth in a casino, it doesn't generate 
revenues like a lot of other casinos do, and what they do raise 
in that casino, they invest in their infrastructure. But this 
school--I say to my colleagues--is desperate. I have been to 
the school several times, and just recently I saw water coming 
from the melting snow in the ceiling, and the gym floor is 
buckled; the walls----
    Mr. Regula. Is this a BIA school?
    Mr. Oberstar. Yes. And if BIA had just given them the 
priority--they are a small band, and I can understand why they 
get sort of lost in the shuffle over there. The amount is an 
awful lot in these hard times, but I am requesting $14 million 
for this school--when I first made this request a decade ago, 
it was about half that amount. These kids deserve a decent 
place for an education.
    Mr. Regula. We will take a look at it, and you have an item 
in the Forest Service practices on management.
    Mr. Oberstar. Yes, there is a huge backlog at the Forest 
Service; 26 million acres of forest that are high risk because 
of infestation and disease, insect infestation. They have a 
huge backlog of $8 billion dollars for road development, and 
the administration wants to buy more land. Folks up my way, 
they are fed up with this. These roads that are built for 
timber harvesting, they are not highways; these are dirt roads. 
When the harvest is completed, and it is a 4-, 5-year contract 
maybe, then they revert, and they leave just a little bit of 
the land for hunting and for cross country skiing. These are 
multi-purpose roads, but without them we can't harvest the 
woods, and what is happening on our forest is now that there is 
no harvest going into effect, we are ripe for a major wildfire 
on the Superior National Forest. So, let us take care of the 
needs that we have.
    And a final item is funding for an interpretive center at 
Voyageurs National Park. The non-Federal interest--State, 
county, city, and private interests--are willing to put up 
$5.5, million, roughly, and we are asking for some $3 million 
for an interpretive center. This is as far north outside of 
Alaska as National Parks and resources go in the lower 48. It 
is the end of the road. A lot was promised when Voyageurs Park 
was established under my predecessor John Blatnik, and I was an 
administrative assistant at the time. It hasn't happened. The 
land has been taken; the part exists. I know we don't establish 
parks for economic development purposes, but that is how they 
are sold to people, and if we are going to realize the economic 
potential of this, then we need to have a first-class 
interpretive center, and I would appreciate anything you could 
do.
    Mr. Regula. Well, I suggest that you talk to BIA on the 
school, because they do not have that school on their priority 
list.
    Mr. Oberstar. I will see them again about it.
    Mr. Regula. Mr. Dicks.
    Mr. Dicks. Well, I want to compliment the gentleman for his 
statement here today. You and I got together and tried to 
figure out what we could do about this road backlog, which we 
both know is a very serious national problem. When we get 
around to looking at changes in our national program, we need 
to think about this with the small amount of money available, 
we will need your help to address the $8 billion backlog.
    Mr. Regula. And I think the environmental groups are a 
little difficult on forest health issues, because your point is 
well taken. When you have got all this detritus on the forest 
floor, you get a fire. It is a hot fire, and it destroys the 
living trees. Whereas, if the forest floor is relatively clean, 
the fire may scar, but it won't destroy. The first scenario is 
a disaster waiting to happen.
    Mr. Dicks. Well, we have the same kind of conditions in the 
eastern part of Washington and Oregon where we have not done 
the thinning and the pruning and adaptive management. We have 
created disastrous conditions. We have the same problems.
    Mr. Oberstar. We had the big hue and cry about the 
timberwolf when I first was elected to Congress in 1974. The 
timberwolf was on the endangered species list. Now, it is being 
taken off the endangered species list. We had only 1,100 or so 
wolves in Minnesota in 1974, and nobody knew how many came 
across from Canada; they never stopped at Customs or 
Immigration to check in----
    [Laughter.]
    Mr. Dicks. To check in.
    Mr. Oberstar [continuing]. And now we have got over 3,000 
timberwolves, not because it was on the endangered specieslist, 
but because we had a timber harvesting program that created new growth 
for the deer to feed on, and the wolves feeding on the deer have grown 
in number.
    Mr. Dicks. Have those wolves caused any problems for the 
local people?
    Mr. Oberstar. Well, they eat a dog here and there. 
[Laughter.]
    Once in a while----
    [Laughter.]
    Mr. Regula. Thank you very much.
    [The statement of Mr. Oberstar follows:]

[GRAPHIC(S) NOT AVAILABLE IN FORMAT]

                                           Tuesday, April 20, 1999.

                    INDIAN DUNES NATIONAL LAKESHORE


                                WITNESS

HON. PETER J. VISCLOSKY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    INDIANA
    Mr. Regula. Mr. Visclosky.
    Mr. Dicks. Hi Pete.
    Mr. Visclosky. Mr. Dicks. Mr. Chairman, I understand you 
have my entire testimony. I don't have any trees in my district 
outside the Indiana Dunes National Lakeshore. The committee for 
14 years has been very generous to me, and I would like to work 
with you, the ranking member, Mr. Dicks, as well as your staff 
as we proceed recognizing that your budget is very tight.
    Mr. Regula. Thank you. Mr. Dicks, any questions?
    Mr. Dicks. No, I don't have any questions, except I know 
this is an important project which we have supported over the 
years, and we will do as much as we can in the context of the 
budget constraints.
    Mr. Visclosky. And I appreciate that. The committee has 
always done that every year.
    Mr. Regula. Do the Chicago people use this park? Is it 
close enough?
    Mr. Visclosky. Yes. As a matter of fact, all kidding aside, 
it was rumored that during the summer months, half of Mr. 
Yates' constituency lived in the first congressional district.
    Mr. Regula. So, there is a large population base that 
enjoys this park.
    Mr. Visclosky. That is right; absolutely.
    Mr. Regula. Thank you very much.
    Mr. Visclosky. Thank you.
    Mr. Dicks. Appreciate your advocacy for this.
    [The statement of Mr. Visclosky follows:]

[GRAPHIC(S) NOT AVAILABLE IN FORMAT]

                                           Tuesday, April 20, 1999.

                   LAND ACQUISITION FOR LAKE UMBAGOG


                                WITNESS

HON. CHARLES F. BASS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEW HAMPSHIRE
    Mr. Regula. Mr. Gilchrest is not here. Mr. Bass.
    Mr. Bass. Thank you, Mr. Chairman, Mr. Dicks. Just like to 
start by saying that these are always difficult hearings, and I 
have talked to the chairman about the important needs that I 
have in New Hampshire. I had an opportunity recently to travel 
to a temple in Japan that had little things that you could buy 
to give you good luck----
    Mr. Regula. Did you bring it with you? [Laughter.]
    Mr. Bass [continuing]. In every single circumstance, 
including getting away with traffic tickets, getting good 
grades in school, and I noticed they had a little box, for 100 
yen, you could buy an icon, a little thing for good luck in the 
Interior Committee. [Laughter.]
    I purchased one for the chairman, one for the distinguished 
ranking member.
    Mr. Dicks. Thank you.
    Mr. Bass. At your leisure, you can read them, and tell me 
what they say.
    Mr. Regula. Well, we hand out a lot of good luck but not 
much money. [Laughter.]
    Mr. Bass. I am here to testify on behalf of three projects 
in the second congressional district in New Hampshire and also 
in Maine, interestingly enough, and I am just going to go over 
them very quickly.
    The first is that further acquisition at Lake Umbagog, 
which is the northern most pristine lake in New Hampshire, 
includes 6 miles of Maine shoreland, 7 subdivided building lots 
in New Hampshire, and 55 acres of land offered for sale by 
Crown Vantage. I have a map of this one which is somewhat hard 
to read, and I am not sure whether the committee has gotten 
this map or not, but----
    Mr. Dicks. This one right here?
    Mr. Bass. Okay, that is it.
    Mr. Dicks. Yes, I got it.
    [Map.]
    Mr. Bass. And this has been a long-term project that the 
State, Federal, and local people have been involved in for some 
period of time, and I have testified here before. The second 
acquisition, I have a slightly more slick map for, the Pond of 
Safety acquisition in Randolph, as you will see from the map. I 
am sorry you guys have copies; I am going to leave this with 
you so you can get a better view. What we are talking about 
here, here is the White Mountain National Forest; here is Mt. 
Washington, highest peak in the continental--no, eastern United 
States--I didn't want to get a little----
    Mr. Regula. I think Mt. McKinley tops it.
    Mr. Bass. Well, that is not in the lower 48.
    Mr. Dicks. Rainier might also. [Laughter.]
    Mr. Bass. Of course, absolutely. Today, Rainier is 
definitely taller than Mt. Washington.
    Anyway, we are talking about two pieces of property. This 
would be LWCF acquisition here in the National Forest; this 
would be a Forest Legacy easement acquisition here. As you can 
see, it is certainly an integral part of the National Forest.
    Mr. Regula. The easements would be taken by the Forest 
Service?
    Mr. Bass. By the State, I would believe.
    Mr. Regula. Oh, the State, okay.
    Mr. Bass. Yes, by the State of New Hampshire, which has 
been done before.
    Mr. Regula. That is the red area.
    Mr. Bass. The red area.
    Mr. Regula. They are in that process now?
    Mr. Bass. Yes, that is right.
    Mr. Regula. How about the purple? What would that be?
    Mr. Bass. That would be an LWCF fee simple purchase.
    Mr. Regula. Right, right. Let me ask you, do the State and 
Federal entities coordinate so that from the standpoint of the 
public, the benefits are good for them in terms of a State-
Federal relationship?
    Mr. Bass. Unquestionably, and we have a long history in New 
Hampshire in being able to do that not only with Forest Legacy 
but also with the New Hampshire program, LWCF, Land and Water--
no, that is a Federal program--the LCIP, Land Conservation 
Investment Program, which is the same idea as Forest Legacy 
except on a State basis.
    And my last request and one with particular--the chairman 
may recall, having worked with this before, is the Northern 
Forest Heritage Park, $700,000 to come out of the northeast-
midwest program for rural development through the Forestry 
Program. I want to say at this time how--restate how grateful I 
am to you, Mr. Chairman, for the manner in which you 
accommodated me a couple of years ago in this project in the 
City of Berlin, which is a struggling papermill town in the 
northern part of the State. It is a single-industry town or has 
been until recently, and the papermill has been suffering from 
tough times, and there is this continual effort to try to 
create an economic base in the area that will hold this 
community over for many years to come, and what the citizens 
have done is created this Heritage Park in the middle of the 
city. The Park Service was good enough to do a study, a 
preliminary study, from which much of this information has been 
developed, and so I would like--I don't know whether you were 
given this--but I would like to make sure you have an 
opportunity to see the fruits of your----
    Mr. Regula. Has it been authorized?
    Mr. Bass. That is correct.
    Mr. Regula. I say, has it been authorized?
    Mr. Bass. I don't know, Jim? No, it hasn't. So, I guess it 
would be----
    Mr. Regula. It probably wouldn't be a bad idea to put a 
bill in or get it hooked on to one of the omnibus park bills.
    Mr. Bass. I think that is excellent advice.
    Mr. Dicks. We will help you out there.
    Mr. Bass. All right, thank you. Yes, you are the guy I need 
to talk to there.
    All right, well, Mr. Chairman, that is all I have, and I 
appreciate all the attention and support that you have given me 
in the past, and I would appreciate any further support you can 
give me with these important projects.
    Mr. Regula. I assume that these lands get used by a lot of 
Massachusetts residents.
    Mr. Bass. They sure do. The Massachusetts delegation ought 
to be in unanimous support of this. The White Mountain National 
Forest is the most used National Forest, I think, in the 
country. We have almost seven million people a year utilizing 
it. There is a--93 runs right from Boston, right straight into 
the middle of the park, and it is probably one of the most 
popular recreation areas in New England.
    Mr. Regula. Mr. Dicks.
    Mr. Dicks. Well, I appreciate the gentleman's testimony, 
and we will do our best to help.
    Mr. Bass. Thank you very much, Mr. Dicks. Mr. Chairman, 
thank you.
    Mr. Regula. Thank you.
    [The statement of Mr. Bass follows:]

[GRAPHIC(S) NOT AVAILABLE IN FORMAT]

                                           Tuesday, April 20, 1999.

              REFUGE FUNDING: BLACKWATER AND SMITH ISLAND


                                WITNESS

HON. WAYNE T. GILCHREST, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MARYLAND
    Mr. Regula. Mr. Gilchrest.
    Mr. Gilchrest. Mr. Chairman.
    Mr. Regula. Okay, Mr. Gilchrest.
    Mr. Gilchrest. Good morning, Mr. Chairman. I have three 
projects: one deals with a little island in the lower part of 
the middle of the Chesapeake Bay called Smith Island; one 
project called the Chesapeake Stewardship Project, and the 
other called Nutria Eradication Program. I don't have any gifts 
to bring other than my good will and good nature.
    Mr. Regula. We had some oysters the other day. I think you 
ought to be able to do that well. [Laughter.]
    Mr. Gilchrest. You had some oysters. Were they from 
Louisiana?
    Mr. Regula. Chincoteague.
    Mr. Gilchrest. Chincoteague. Who was that, Herb Bateman? Is 
that right? That son of a gun. [Laughter.]
    Mr. Regula. They were excellent.
    Mr. Gilchrest. Well, how about some oyster fritters?
    Mr. Dicks. I would prefer some nice crabs. [Laughter.]
    Mr. Gilchrest. Give me a month on the crabs, and we will 
bring them around.
    Mr. Regula. Okay.
    Mr. Gilchrest. This Nutria Eradication Program is the third 
one. I will start with the--Smith Island is a small island.
    Mr. Regula. Is it occupied by anybody or anything?
    Mr. Gilchrest. Smith Island has about--there are about 500 
residents on the island.
    Mr. Regula. Oh, okay.
    Mr. Gilchrest. And we have been working with the Corps of 
Engineers over the last number of years to use dredge materials 
for channels to restore----
    Mr. Regula. What is the access, by ferry?
    Mr. Gilchrest. There is only a ferry. There is a ferry from 
St. Mary's County, not a very regular ferry, but from my 
district, Crisfield, there is a ferry that goes twice a day. It 
runs schoolchildren back and forth, and it runs mail and 
supplies back and forth.
    Mr. Regula. So, these are permanent residents.
    Mr. Gilchrest. Five hundred permanent residents have been 
there since the late 1600's. Some of the island has been 
washing away due to storms and a number of other things, and 
they have--we have money appropriated in the past, and this is 
just a continuation of that to restore the island based on 
material that is dredged from the surrounding channels that 
wouldn't go anywhere else, so it is a reclamation project that 
has beneficial use to the residents.
    What we are asking for today is--part of the island is 
owned by the Federal Government, Fish and Wildlife Service, and 
we are asking for--the Fish and Wildlife Service has been a 
part of this all along, but the President hasn't put anything 
in his budget for that part of the island, which is a wildlife 
refuge.
    Mr. Regula. Are they contributing to the Corps of Engineers 
to help pay for the movement of the fill?
    Mr. Gilchrest. Well, all of this money can be dumped into 
the same pot of dollars, because the island is all connected. 
It is a relatively small island with three little, tiny towns 
on it, and, actually, the wildlife refuge--and to answer your 
question--the money would be incorporated into the same 
project, so the answer to that would be yes. And that refuge is 
a fairly significant part of the project, because it is on the 
northern part of the island, which gets a lot of the northwest 
winds, which is responsible for a good portion of the erosion, 
and at this point we are only asking for $450,000 which could 
be the Federal portion of the refuge contribution, and there is 
a significant amount of money that has been raised on the local 
level and money that has been appropriated from the Corps of 
Engineers.
    Mr. Regula. Okay.
    Mr. Gilchrest. Now, the second project is an alien project 
or a project of non-indigenous species that came up to the 
Eastern Shore of Maryland as it did a number of other States 
around the country from South America, and they are little 
critters that can get up to 20 pounds and look exactly like a 
rat, but they are called nutria.
    Mr. Regula. Oh, yes, I know what they are.
    Mr. Gilchrest. Very, very, very prolific.
    Mr. Regula. Yes.
    Mr. Gilchrest. And the Fish and Wildlife people and local 
people have been trying to eradicate this little critter for 
the last 20 years, but, in recent times, because of the 
warming, and they have displaced natural critters like 
muskrats, they are really prolific now, getting to the point 
where they are reducing the number of wetland acreage by tens 
of thousands of acres. So, we have included in this 
appropriation $1.3 billion to be added to $1 million of State 
and local money to develop a pilot project working with people 
from Great Britain who have had the same problem, but 
eliminated that problem, so we can eradicate the nutria in 
Maryland, and that pilot program can be used by 20 other States 
that have the same problem.
    And the last one is----
    Mr. Dicks. How are you going to do that? What is the 
technique?
    Mr. Gilchrest. Well, the technique is using all local 
trappers. Norm, I don't think I can tell you exactly what they 
are going to do, but they are going to use traps, all kinds of 
traps, in areas that the nutria have lead to, and one of the 
reasons for the dollars is that if you go in there right now 
and you trap nutria, there is no market for them. There is no 
market for the meat; there is no market for the hide, and, as a 
result of that--that is what they thought they were going to be 
useful for--as a result of that, you can't get people to go in 
there--you can't shoot enough--you can't find enough 
recreational people with rifles to shoot these guys; they are 
very difficult to find. Just one other little peculiar thing 
about this non-indigenous species: the young suckle on the back 
of this little critter which adds to its ability to survive, 
and the day after they give birth, they go in heat again. It is 
just an enormous problem, and, unfortunately, the 
administration, again, hasn't provided any funds for this, so 
we are going to try to create this pilot program.
    Mr. Regula. Okay, what else do you have?
    Mr. Gilchrest. The last thing is the Chesapeake Bay 
Stewardship Project, $250,000. Now, it is a national program, 
and there is a fairly substantial amount of money put into this 
program, but we need $250,000 extra for program that are 
happening in the Chesapeake Bay area right now, and it is a 
collaborative program, and it is reforestation program. And one 
quick comment: one of the major problems with the Chesapeake 
Bay is nutrients not only from air deposition but from all 
sources underground, point and non-point source. Every 
biologist and scientist that I have talked to about how to 
restore the Chesapeake Bay is to create a buffer, a 100-foot 
buffer around the bay and its tributaries as far away as 
Cooperstown, New York. Now, to a large extent, that is pretty 
difficult to do, but we have undertaken that by the year 2010, 
we want to buffer 2,010 acres or 2,010 miles--I am sorry--of 
the Chesapeake Bay watershed, and this is a program that can 
add to that.
    Mr. Dicks. Are you using the Conservation Reserve 
Enhancement Program? I know that Maryland has got the program.
    Mr. Gilchrest. Yes, and we have what is called the 
Conservation Reserve--well, yes, CREP----
    Mr. Dicks. CREP.
    Mr. Gilchrest. CREP, in Maryland. We use every single 
source of money--the private sector, the Chesapeake Bay Program 
puts money in there, ag preservation programs, easement 
programs, national programs.
    Mr. Dicks. Just one thing we are going to have to work on 
together. Apparently, the Ag Committee is limiting the staffing 
of this particular program, and it is going to be a problem to 
get CREP really up and running nationally, so we may have to 
work together on this.
    Mr. Gilchrest. Okay.
    Mr. Dicks. Washington State has got a program.
    Mr. Regula. Thank you.
    Mr. Gilchrest. Thank you very much.
    [The statement of Mr. Gilchrest follows:]

[GRAPHIC(S) NOT AVAILABLE IN FORMAT]

                                           Tuesday, April 20, 1999.

              NEW BEDFORD WHALING NATIONAL HISTORICAL PARK


                                WITNESS

HON. BARNEY FRANK, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MASSACHUSETTS
    Mr. Regula. Mr. Frank.
    Mr. Frank. Thank you, Mr. Chairman. It is great to deal 
with a committee that tells you to come early rather than not 
at all. [Laughter.]
    I will apologize that because you are running early, I 
didn't get a chance to shave yet. So, I----
    [Laughter.]
    Mr. Frank. But, I am here to express support for the parts 
of the administration budget and the Park Service that affect 
the major National Park in my district, the park in New 
Bedford, with which this subcommittee has been very helpful. It 
was recently established. It has been an enormous success. 
There was a wonderful article in the New York Times travel 
section a while ago, which did a lot of good for this city, and 
the National Park was an essential piece of it.
    The administration has provided, as I understand it, 
appropriately--and I should say, on behalf of the people of New 
Bedford and others who have worked with them, that their 
experience with the Park Service has been a wonderful one.
    Mr. Regula. Does this tell the story of a typical whaling 
community?
    Mr. Frank. Yes, this is the National Whaling Park--we have 
actually established a kind of an affiliation here with Alaska, 
and the delegation from Alaska and myself have worked together, 
and there has been some interchange between the people from New 
Bedford and Alaska. This park includes, for instance, a number 
of the buildings that are written about in Moby Dick when you 
read in the first parts of Moby Dick, which, I confess, is 
about all of Moby Dick that I was able to get through. You read 
about--well, when you think of Gregory Peck preaching, that 
building is still around; the Seamen's Bethel where people 
live, it is preserved. And what is nice about it is that it is 
also a working waterfront. It is not just a museum. I know 
there was reference----
    Mr. Regula. Even today it is working?
    Mr. Frank. Yes, it is working waterfront, and more scallops 
are caught out of the Port of New Bedford, for instance, than 
anywhere else. I know people----
    Mr. Regula. Is fishing as an industry surviving up in that 
area?
    Mr. Frank. It is surviving. It took a hit because of 
conservation, but recently the New England Fisheries Council 
with the support of the Secretary voted to reopen part of 
Georges Bank to scalloping, because it was closed a few years 
ago, and the science showed that there were, in fact, more 
scallops coming back than we had expected. So, fishing is still 
a major industry. There have been restrictions, conservation-
imposed restrictions, but we now have the first evidence that 
these things can be done well, because, literally, they 
apparently found, the University of Massachusetts-Dartmouth 
staff did some scientific experiments. They found that the 
scallops had so proliferated in the closed areas, they were 
suffocating or whatever you do if there you are a scallop and 
there is a bunch of other scallops on top of you. I don't know 
what the physical process is, but it wasn't great.
    Mr. Dicks. So, harvesting was a good idea.
    Mr. Frank. Yes, and we are about to reopen it. So, yes, 
there is still some fishing, and I like that, because, too 
often, we get preservation or environmental and educational and 
cultural aspects pitted as opponents of ongoing economic 
activity, and there is a very serious effort here to merge the 
two. In fact, in last year's transportation bill, we got some 
money to redesign the highway which walled off the waterfront 
as a lot of cities mistakenly did.
    So, there is a genuinely integrated effort here, and one of 
the things we are doing is taking advantage of the existing 
facilities. There was an old bank building donated to the 
National Park to be the headquarters for the park, and one of 
the items that the President included in the budget was 
$800,000 for renovations which is subject to a 50 percent 
match, and we don't have any quarrel with that; we believe we 
will be able to easily do that. That is one of the items in the 
President's budget that we would hope would be preserved.
    This has been a pretty key park, because there was no land 
acquisition required, and the building was, in fact, donated, 
so the capital costs have been really quite small. In addition, 
because it has been so successful, the Park Service, as we 
understand it, has proposed an additional three positions. This 
is several hundred thousands in the overall budget. It is not 
earmarked, but we are hoping that they will get their budget, 
and we will be taken care of. So, we do, specifically, want to 
support the $800,000 earmark for the building.
    Now, as I said, the building was donated. This is to make 
it accessible, and it is an old building, so we don't want to 
do the accessibility without destroying the historic aspect. 
But, even there, the building was given to the Park Service by 
the local bank, and there will be a 50 percent match on top of 
that.
    Mr. Regula. Mr. Dicks?
    Mr. Dicks. Well, we look forward to working with the 
gentleman, and it sounds like a great project.
    Mr. Frank. And I will bring you some scallops. [Laughter.]
    I know they talk about bringing crabs. We have got a lot of 
crabs up there, but I have to deal with them when I go out and 
talk to them, so you don't want me to bring them down here. 
[Laughter.]
    Mr. Regula. Is water pollution a problem in seafood?
    Mr. Frank. Well, no it isn't for this reason--there is no 
more in-shore fishing. There is no more catching fish, because 
we had a PCB problem in New Bedford Harbor. In fact, New 
Bedford Harbor is one of the few waterbound Superfund sites, 
and we are working to try and clean that up, but the fishing 
that is done out of New Bedford is deep sea fishing. You have 
the scallopers who go out----
    Mr. Regula. And that is okay?
    Mr. Frank. That has not been a problem. They go out to 
Georges Bank, and they go out to--they do yellow-tail flounder, 
so, yes, there was----
    Mr. Dicks. Is the cod all gone or is it coming back?
    Mr. Frank. It has been restricted, but it is all deep sea, 
and the pollution has not been a problem, so--actually, the 
expert in all of this, of course, is my predecessor, Gerry 
Studds, who represented the district back in the seventies. I 
took it over as a result of redistricting in 1993, and, for us, 
there was the ground fishing and the scalloping a couple 
hundred miles out. So, we don't have--there was inshore fishing 
that is obviously not happening anymore, but the pollution is 
not a problem for this, and the city is alsoworking to try and 
clean up its harbor in the bay which it impacts.
    Mr. Regula. Thank you.
    Mr. Dicks. Appreciate it.
    Mr. Frank. Thank you.
    [The statement of Mr. Frank follows:]

[GRAPHIC(S) NOT AVAILABLE IN FORMAT]

                                           Tuesday, April 20, 1999.

                            LAND ACQUISITION


                                WITNESS

HON. BRAD SHERMAN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Regula. Mr. Sherman. You are on.
    Mr. Sherman. You are indeed ahead of schedule.
    Mr. Regula. Well, we have some people who haven't shown, 
but they will be here. You can count on that.
    Mr. Sherman. Mr. Chairman, I want to thank you again for 
the support that this committee has given to the Santa Monica 
Mountains National Recreation Area.
    Mr. Regula. You did well in Fiscal Year 1999, the 
combination of the omnibus and some of the money that was in 
the funding package for the Headwaters.
    Mr. Sherman. Title 5, we got a total of $1 million and 
then, of course, $2 million appropriated through the committee.
    Mr. Regula. Right.
    Mr. Sherman. And the National Park Service has requested $5 
million in the Fiscal 2000 budget. I urge you to appropriate 
that.
    Mr. Regula. What does it take to finish this thing?
    Mr. Sherman. Well, to finish the trail in terms of it being 
at least a few feet wide, we are very close to getting there. 
To finish the park, we are a decade away, and it is going to 
take additional efforts not only here at the Federal level but 
at the State level as well.
    The goal now is to make the trail wide enough so that it 
can serve as a wildlife corridor so that our furry friends no 
longer have to date their cousins.
    Mr. Regula. That is a good objective. [Laughter.]
    Mr. Sherman. And, also, it is a real mountain hiking 
experience throughout the length of the trail rather than, 
well, yes, you can get from A to B, but you are almost going 
through someone's backyard to do it.
    As I have told the subcommittee before, we have over 33 
million Americans visiting the mountains and the beaches of the 
Santa Monica Mountains National Recreation Area. Within a 1-
hour drive--and I will admit, this is a 1-hour drive early in 
the morning--1 out of every 17 Americans can reach the Santa 
Monica mountains. It is a rare Mediterranean ecosystem and a 
national ecological treasure as well as a well placed 
recreational resource.
    In the past, there has been discussion as to which parcel 
to prioritize. The National Park Service has revised its land 
protection plan to focus on the geographic information system 
to prioritize land acquisition. The park identifies the land 
priorities from the GIS system analysis looking at the highest 
resource value in terms of both visitor use and protection of 
habitat, and I know that this subcommittee has heard from my 
enthusiastic and sometimes remarkably enthusiastic 
constituents.
    In the past, groups have been very vocal as to which parcel 
should be acquired. I think we are increasing a public 
recognition that we need to leave it to the GIS system to 
decide how the funds that are appropriated are spent. This 
year, the Park Service had indicated that it would use funds to 
ensure that we have a backbone trail that is wide enough both 
for the hiking experience and as a wildlife corridor. This is, 
as I said, based on the GIS data, and it is also central to 
this effort to point out that we are dealing with willing 
property sellers and local support. This is not a situation 
where the park is being rammed down either an individual 
property owner's throat or the throat of the community. In 
fact, over 250 million local dollars have been spent within the 
boundaries of this unit of the National Park System. That not 
only represents over 60 percent of the total expenditures; it 
represents the largest amount of local and State dollars that 
have been spent anywhere within the boundaries of a unit of the 
National Park System.
    Attached to my statement is a letter signed by 18 of my 
California colleagues, both sides of the aisle, supporting the 
$5 million National Park Service request, and I finally should 
point out that the Los Angeles basin population is expected to 
double within the next 21 years. That puts a strain on the 
recreational resources. It also means that we need to move 
forward with the park now, because, yes, it is difficult and 
complicated now. You can imagine how difficult and complicated 
it will be 20 years from now.
    So, once again, I want to thank you for the support in the 
past, and I hope that you will appropriate what the Park 
Service has asked for.
    Finally, I want to add that I will do everything possible 
to urge my colleagues to provide a sufficient amount of 
resources to this subcommittee----
    Mr. Regula. Over the caps.
    Mr. Sherman [continuing]. Both to acquire the land and to 
make sure that it is properly administered. I think the 
administration of the park is doing an outstanding job now. You 
do not hear the stories of deferred maintenance that you hear 
elsewhere. We have a lot of volunteer support when it comes to 
maintenance and trailbuilding, et cetera.
    Mr. Regula. Mr. Dicks.
    Mr. Dicks. Well, knowing this area and knowing the 
gentleman's tremendous commitment to this project, I recognize 
how important this is. It is something we just must continue to 
plug along with as best we can. Help us on those caps.
    Mr. Regula. Thank you.
    Mr. Sherman. Thank you very much.
    Mr. Dicks. Let me ask you one thing: Is there an overall 
plan of all the properties they want to acquire?
    Mr. Sherman. Yes, yes, there is, and we are well more than 
half way there to acquiring in State, Federal or local 
ownership of the land that will make up this park. When you 
look on a map, it tends to have a patchwork look in large part 
because you have so much local participation from several 
different agencies. So, you have different shades of green 
depending upon whether it is a State park or a conservancy or a 
county or whatever.
    Mr. Regula. Do they integrate their programs?
    Mr. Sherman. Yes, there is constant consultation between 
the State agencies and the Federal, and then the local efforts 
tend to be to fund the State agency rather than to do the work.
    Mr. Regula. Okay, thank you.
    Mr. Dicks. Thank you very much.
    [The statement of Mr. Sherman follows:]

[GRAPHIC(S) NOT AVAILABLE IN FORMAT]

                                           Tuesday, April 20, 1999.

                    NATIONAL ENDOWMENT FOR THE ARTS


                                WITNESS

HON. LOUISE M. SLAUGHTER, A REPRESENTATIVE IN CONGRESS FROM THE STATE 
    OF NEW YORK
    Mr. Regula. Louise.
    Ms. Slaughter. Thank you, Mr. Chairman. Good morning, 
Norman.
    Mr. Dicks. Hello, Louise; welcome.
    Ms. Slaughter. Thank you very much. I am accompanied by my 
grandson this morning, Danny Secatore, who is the only member 
of my kids and kin that is interested at all in Government; the 
rest don't want to work this hard.
    Mr. Dicks. Well, maybe he is interested in the arts too.
    Ms. Slaughter. You bet, he is.
    Mr. Dicks. Sure.
    Mr. Regula. If he wasn't before, he is now. [Laughter.]
    Ms. Slaughter. That is right. No, he came down here with me 
when he was 2 years old and I was sworn in, and he took a great 
protective liking to what he called the palabatle----
    [Laughter.]
    Ms. Slaughter [continuing]. And we had to drive by there 
before we could go anywhere in the city, because he said he 
couldn't see it unless he was on the ground.
    Well, I am happy to be here with you again this morning and 
appreciate your generosity. I am here to urge the subcommittee 
to provide funding in the Fiscal Year 2000 Interior 
Appropriations bill for our Nation's cultural resources, and 
for two important projects in my own District, if I could 
mention that as well.
    First, I would like to request $164,000 for the David 
Hochstein Memorial Music School. David Hochstein was a young 
soldier killed in World War I, and his family built this school 
for him in a church sanctuary that serves as the school's 
performance hall. It was built more than 100 years ago as the 
former Central Presbyterian Church and is an historic and 
architectural treasure and complements the mission of the 
school as an educational community resource.
    It is located on the site of the Isaac and Amy Post home. 
It was a stop on the underground railroad and was the site of 
funeral services for Frederick Douglass and for Susan B. 
Anthony.
    The school serves more than 2,500 children each year. It 
offers educational opportunities through the professional 
presentation of music and dance and through the opportunity for 
students to perform in a world-class concert setting. The 
recitals and concerts and all the other events play an 
important role in the revitalization of downtown Rochester.
    Second, I am requesting $80,000 for the Rochester 
Association of Performing Arts for the restoration and 
renovation of the School of Performing Arts. It is New York's 
oldest and largest non-profit professional school of performing 
arts for all ages and serves a five-county area.
    And I am going to summarize here, because you have been 
host to me many times, and I know you have a lot of people 
here. But, finally, I do appreciate, once again, the 
opportunity to address you in support of our Nation's cultural 
resources, mainly the National Endowment for the Arts, for 
Humanities, and the Institute for Museum and Library Services.
    As you all know from my prior appearances before the 
committee, I believe very strongly in the power of the arts and 
their ability to benefit people across the country. As Chair of 
the Congressional Arts Caucus, I am committed to working with 
this group of more than 140 members of the House to advocate 
for a reinvigorated Federal investment in this critically 
important area. I, therefore, urge this subcommittee to fully 
fund the National Endowment for the Arts at the 
Administration's requested level of $150 million in Fiscal Year 
2000.
    From an economic perspective, the benefits of the arts are 
unmistakable. Last year, the $98 million allocated to the NEA 
served as the backbone for a $37 billion industry, and while I 
certainly agree that our cities and towns are generally better 
suited to determine what is best for each individual community, 
Federal funding for the arts has historically provided the 
lynchpin for all other types of support. For the price of one 
one-hundredth of 1 percent of the Federal budget, we support a 
system that sustains more than 1.3 million full-time jobs, 
providing close to $3.4 billion back to the Federal Treasury in 
income taxes.
    Equally important, the arts provide us with an opportunity 
to foster our Nation's most precious natural resource, our 
children. I am sure you are all aware that study after study 
has shown that the arts can change how children think by 
affecting the way their minds develop. In addition, we are now 
starting to learn about the positive effects of art on children 
who have already started to get into trouble.
    I am impressed by a recent initiative known as the Youth 
Arts Development Project. Through this collaboration among 
local arts agencies in Portland, San Antonio, and Atlanta, 
along with Americans for the Arts, the Department of Justice, 
and the NEA, cities evaluated current youth arts programs to 
determine their effectiveness in working with youth at risk. 
The results were remarkable. The children involved learned how 
to effectively communicate their feelings without resorting to 
violence. They developed self-esteem; showed improvements in 
their attitudes towards school; learned how to discipline 
themselves and finish the tasks they had started. As a result, 
these children experienced fewer new court referrals and 
committed less severe crimes compared to children not in an 
arts program. Most importantly, the artsprovided them an 
opportunity to express their fears, angers, and hopes in a structured 
manner that did not involve guns, drugs or violence.
    There is no better agency suited to meet these needs than 
the National Endowment for the Arts. Mr. Chairman, during the 
current fiscal year, the NEA will be funded at a level that is 
42 percent below the funding it received when I was first sworn 
into this body in 1987; rougly half the 1987 budget. Over the 
past several years, the NEA has worked hard to implement the 
reforms which have resulted in greater accountability, fiscal 
responsibility, and expansion of its reach to a larger cross-
section of the American people.
    I am particularly pleased the agency is moving forward with 
a new initiative called Challenge America. This $50 million 
program will allow it to reach out to Americans in areas not 
often exposed to art. From the fields of rural America to the 
streets of our inner cities, the NEA is working to spread the 
power of the arts to all of our citizens.
    And it is now time for the Congress to recognize these 
efforts by reaffirming its commitment to the NEA. The modest 
increase requested in next year's budget will help restore the 
agency to a level that would allow it to flourish into the next 
millennium. And while no one thing can ever solve all of our 
problems, the arts provide a means to bring people together. 
They represent our hopes, our past, and our future, and I urge 
you to take a small but important step in preparing for the 
future by funding the NEA at a level of $150 million in Fiscal 
Year 2000.
    In addition, I encourage the subcommittee to fund the other 
essential cultural agencies at the Administration's request. I 
urge the inclusion of $150 million for the National Endowment 
for the Humanities and $34 million for the Institute for Museum 
and Library Services.
    The NEH is vital to the preservation and teaching of our 
history, literature, philosophy, and other areas of the 
humanities. The IMLS is incredibly effective in its mission to 
strengthen and support museums and libraries to benefit the 
public.
    And, again, I thank the subcommittee for allowing me to 
come before you this morning and know that you will give 
serious attention to my request.
    Mr. Regula. Thank you. Mr. Dicks?
    Mr. Dicks. Thank you, and we appreciate all of your work 
and advocacy.
    Ms. Slaughter. Thank you very much.
    [The statement of Ms. Slaughter follows:]

[GRAPHIC(S) NOT AVAILABLE IN FORMAT]

                                           Tuesday, April 20, 1999.

                      RURAL ABANDONED MINE PROGRAM


                                WITNESS

HON. PAUL E. KANJORSKI, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    PENNSYLVANIA
    Mr. Regula. Mr. Kanjorski.
    Mr. Kanjorski. Mr. Chairman. Mr. Chairman, I appear before 
the committee, today, and, first, support the President's 
request in the budget for a $14 million commitment to the 
Community Federal Information Partnership. This will fund GIS 
systems across America, and if the committee is not aware of 
this valuable took, and the development of this tool by the 
administration, and that is to create a tool that is broad in 
perspective in combining together all kinds of information at 
every level to not only help the Federal Government but State 
government and local government plan what they can do and also 
have a major impact on industry.
    I have been working very closely with the program, and I 
can tell you that the benefits that have been derived by 
Pennsylvania and other distressed States by accumulating this 
information and making it available readily as a marketing tool 
for industry, has been of significance to both the Commonwealth 
of Pennsylvania and my district. So, I would urge that this 
committee support the request for $14 million in funding in the 
administration's budget.
    The second request I come before the committee for is to 
fund $25 million for the Rural Abandoned Mine Program. That 
program, I am sure the chairman is aware of, is to recover 
rural areas that have been devastated by unclaimed coal lands. 
To this day, it is my best information that we have something 
like $227 million that would be earmarked for the Abandoned 
Mine land Trust Fund.
    Mr. Regula. Are the States doing some of this work? In your 
case, Pennsylvania?
    Mr. Kanjorski. They are trying to start the program, Mr. 
Chairman, but in Pennsylvania, the burden is hundreds of 
thousands of acres in real estate. I think under the present 
level of expenditures in the Office of Surface Mining and from 
RAMP, it will be about 410 years to reclaim the land in 
Pennsylvania. I can imagine Ohio is not too far behind us or 
other State that have had the burden of surface mining.
    What I urge is we begin this program again--and this would 
be a modest 1 percent of what is already in the trust fund and 
earmarked for RAMP programs--to begin the program so that we 
can move on and start reclaiming some of these lands, 
particularly in rural areas where it is devastating to 
industrial development.
    Finally, I would urge the committee to give consideration 
to funding the Delaware and Lehigh Heritage Corridor. It has 
been funded to a minimal amount in the President's budget, but 
I am asking that the committee commit $2 million of that--$1 
million for operating expenses that are necessary and $1 
million for programs that have already been earmarked. This 
program was reauthorized for 10 years last year at this level 
of $2 million, and I certainly urge the committee to support 
that. That develops land and programs all the way along the 
Delaware River on up to Lehigh River through most of 
Pennsylvania, and it brings back our historical sites, and it 
goes to the National Park Service budget. That is what it is 
involved with, and it is a minor amount of money but a major 
contribution to the locality.
    To give you some idea of how successful that program has 
been, the ratio of leveraging Federal funds is nearly 10 to 1; 
10 independent or local funds to every $1 of dollar of Federal 
funds put into place. So, we anticipate the $2 million 
contribution----
    Mr. Regula. The corridors are very popular, because they 
are close, and people use them a lot.
    Mr. Kanjorski. Yes, very much so. And this, particularly, 
matched with these areas that we are trying to bring back in 
the coal mining district, so I would urge the committee to 
raise that appropriation to $2 million for the Delaware Lehigh 
Corridor.
    With that, Mr. Chairman, I know you are very busy today. I 
appreciate your attention. I have drafted testimony with some 
maps and displays of what effect this will have on my district 
and on the Commonwealth of Pennsylvania, and I urge the 
committee to give consideration to this request.
    Mr. Regula. Thank you. Mr. Dicks?
    Mr. Dicks. I appreciate your being here, and we will do the 
best we can to help.
    [The statement of Mr. Kanjorski follows:]

[GRAPHIC(S) NOT AVAILABLE IN FORMAT]

                                           Tuesday, April 20, 1999.

                            LAND ACQUISITION


                                WITNESS

HON. JOHN L. MICA, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    FLORIDA
    Mr. Regula. Mr. Mica.
    Mr. Mica. Thank you, Mr. Chairman and members of the 
subcommittee. I appreciate the opportunity to testify. If I 
can, I would like to submit a statement for the record.
    Mr. Regula. Without objection.
    Mr. Mica. I am back again, first of all, to thank you for 
your past support. The project that I deal with--if I can just 
take a minute to show you--probably the most money Congress is 
going to spend on land acquisition and preservation of the 
Everglades which is down in the south of Florida here. What you 
are doing is actually acquiring some of the land and 
redirecting some of the flow, because you can see from the 
satellite image how urbanization has overtaken this area. I 
grew up in this area.
    And it's cost us--this is the report that came out. It's 
going to cost us about $8 billion to do the restoration there. 
Now I represent--I was raised in this area, and we are going 
back there--I represent the area around Orlando, actually north 
of Orlando. And if you look at this satellite image, look at 
the growth. This has all grown in here. And what we have here 
is the Ocala National Forest. We have growth from the Canaveral 
National Seashore Park, and we have several State parks, Ocala 
State parks. We have a wildlife refuge and other areas in here. 
But what is happening is the same thing that is happening in 
central Florida that happened in south Florida.
    My request today is for $9 million, and I think they passed 
a little sheet showing a map showing the proposal to save this 
area in here before it is developed. This is very important 
because it is part of the St. John's River area. This shows you 
what this area looks like now, and we do not want this area 
paved over and built over--and this is what they are trying to 
correct to get back into this natural pristine state, what you 
are spending this $8 billion on. So I am asking for $9 million, 
which is half of the contribution, which will be met by State 
and local government; and we even have some private funds 
coming into this.
    You helped before and we have already created an 
environmental corridor or preserve that Secretary Babbitt, this 
committee, others, the Senate, everybody checked on. We saved 
this area in here along the St. John's, and I thank you for 
that.
    Mr. Regula. Does that designation limit building in the 
area?
    Mr. Mica. Well, it is owned. It becomes a preserve, an 
environmental preserve. Yes, there will be nothing, and then we 
do not get into the property rights issues. But the St. John's 
River Water Management District, the State of Florida, and 
local entities will preserve this as a park and preserve area.
    So this is our plan to save the rest of this area. It is 
actually $100 million, the total project. The first phase and 
the parcel we are talking about on the map is 1A, 1A on this 
map here, yes. And that is what will help us. And I am not 
coming in and asking----
    Mr. Regula. This would be a totally different project than 
the Everglades?
    Mr. Mica. Yes, different from the Everglades, but it is 
part of the project you started to help on in this area. And, 
again, with the help of Secretary Babbitt, this committee, you 
helped fund the acquisition of the land along the St. John's. 
So we don't create here in central Florida what they've done 
here. If they come back in 20 years, they will be asking for a 
billion because it will be developed. You will have to take it 
back. You will have to buy up properties that will become very 
expensive. Now we can buy this at wholesale prices. And you 
have local, State, and private support for this.
    So we're asking again for the $9 million.
    Mr. Regula. Is this under the management of the Fish and 
Wildlife Service or the Forest Service?
    Mr. Mica. It is neither one. It is the St. John's River 
Water Management District.
    Mr. Regula. So there is no Federal land at this moment?
    Mr. Mica. No, I don't believe there is.
    Mr. Regula. And is the State taking any action?
    Mr. Mica. We have a water management district that has 
acquired a lot of the area in here. There is the Ocala National 
Forest, and then we do have some Federal reserves that are in 
this area. And this will fill in those areas.
    Mr. Regula. What is the outlet for that lake? Where does it 
go?
    Mr. Mica. This is all the St. John's. It flows out actually 
into this area you see here, into the Atlantic, and this is all 
a national preserve too. This is the Canaveral National 
Seashore Park--the only stretch of beach-front left in Florida 
that isn't developed really. So this area here is under severe 
attack. Look at the development, and I represent this area. If 
we don't preserve that now, you will have the same situation 
even more critical because here this land area provides fresh 
water to support all of these areas. We are already sucking in 
here salt water as we get drier and drier in central Florida. 
So they are going to be coming back asking you for incredible 
amounts of money to either correct or deal with other 
situations that this is going to create.
    So we have a great opportunity. Nine million dollars is 
pocket change, and the State is putting in money, locals are 
putting in money; and it is a $100 million total project, but 
we can preserve all of this area in here. You have helped us 
create this environmental corridor here and, again, the administration 
and others have checked off on this initiative. And I know you are 
hard-pressed because you are putting so much money into this $8 billion 
project, but this would be the wisest thing we could do with a few 
dollars.
    So that is my testimony.
    Mr. Regula. It seems like the State ought to have a pretty 
large role in this.
    Mr. Mica. They are, very substantial, more than 50 percent. 
The environmental corridor that we saved down the other side 
that you helped with, we only put in $2 or $3 million and they 
put in probably $100 million.
    Mr. Regula. Okay, thank you.
    Mr. Mica. Thank you, Mr. Chairman. Thank you all, 
appreciate it.
    [The statement of Mr. Mica follows:]

[GRAPHIC(S) NOT AVAILABLE IN FORMAT]

                                           Tuesday, April 20, 1999.

     NORTHERN FOREST IN MAINE/NATIONAL FISH AND WILDLIFE FOUNDATION


                                WITNESS

HON. THOMAS H. ALLEN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MAINE
    Mr. Regula. Mr. Allen.
    Mr. Allen. Thank you, Mr. Chairman, Mr. Dicks. I will be 
brief. I appreciate this opportunity to appear before you, and 
I want to testify in support of two funding priorities in the 
Fiscal Year 2000 Interior appropriations bill. The first is 
funding for fish restoration in the Kennebec River. Last May, I 
intended a ceremony with Interior Secretary Babbitt and 
Commerce Secretary Daley to celebrate the historic agreement to 
tear down the Edwards Dam on the Kennebec River. This is just 
in Augusta, Maine.
    Mr. Regula. Was that a power-generating dam?
    Mr. Allen. It was. It was a marginal power-generating dam 
and after a great deal of conversations, the owner entered into 
an agreement to have the dam torn down and taken off-line. It 
was a very marginal project, .
    Mr. Regula. It was a private dam?
    Mr. Allen. Yes, it was. But the importance of tearing that 
dam is it gives a lot more room for fish to move up and down 
the river and it would replenish the wide variety of fish 
species that are native to the lower Kennebec. It is a 10 year, 
$7 million restoration project. The State of Maine has already 
secured half of the needed funding and is prepared to begin 
demolition of the dam this summer. The National Marine 
Fisheries Service has agreed to collaborate with the Fish and 
Wildlife Service to earmark funds for this project in future 
budget requests. But Fiscal Year 2000 funding will be necessary 
if this project is to move forward on schedule. And so I am 
asking your support for an appropriation of $1,018,000 for this 
historic opportunity to restore the lower Kennebec fishery.
    The second request is for the National Fish and Wildlife 
Foundation. As you probably know, since you have funded it in 
the past, the Foundation is a private nonprofit organization 
dedicated to conserving wildlife and its habitats. It uses 
Federal funding to make challenge grants, leveraging private 
funds to match Federal dollars at a better than a 2 to 1 ratio. 
The Foundation creates partnerships among local governments, 
corporations, private foundations, individuals, and nonprofit 
organizations to facilitate conservation efforts. It really 
maximizes Federal conservation spending and helps provide 
community and private support for projects that protect our 
natural resources. Those projects range from land acquisition 
to fish restoration, from efforts to help communities 
struggling with the economic impacts of a reduced fishing 
industry, to the development of educational materials on 
various ecosystems and habitats.
    So I am here simply asking for your support for the 
Foundation's Fiscal Year 2000 funding request through the Fish 
and Wildlife Service, the Bureau of Land Management, and the 
Forest Service.
    And with that.
    Mr. Dicks. We appreciate your testimony. One thing about 
these dams, we have had problems like this in the northwest. 
What we have found is where there is a consensus in the 
community and with the dam owner, they can be removed. But 
where there is a lack of consensus, then it is a much more 
daunting challenge. And, of course, as you well know, FERC in 
the re-licensing process oftentimes makes dams uneconomic. They 
add on things are all good for environmental protection, but it 
may be two or three times higher than market price.
    Mr. Allen. Right.
    Mr. Dicks. So we in the northwest are facing this problem 
head-on on our non-Federal FERC licensed dams. So we are 
watching very carefully what you are doing.
    Mr. Allen. This project is very interesting because its 
effects went all the way down the river. Bath Iron Works, which 
needed to build out into the Kennebec in order to have a land 
level facility and get away from these inclined ways, they just 
launched the Winston Churchill up there. It is a dramatic sight 
but it is almost done. In order to do that and do mitigation, 
they were able to help fund the removal of this particular dam. 
So all up and down the river, people are going to benefit. And, 
as I say, the private owner, this was an agreement worked out 
with the private owner of the dam.
    I appreciate your help. Thank you.
    Mr. Regula. Was this an earthen or a concrete dam, the one 
they took down?
    Mr. Allen. This is a concrete dam. I'm pretty sure it is a 
concrete dam.
    Mr. Regula. The one they took down?
    Mr. Allen. They have not taken it down, they are about to.
    Mr. Regula. Oh, okay.
    [The statement of Mr. Allen follows:]

[GRAPHIC(S) NOT AVAILABLE IN FORMAT]

                                           Tuesday, April 20, 1999.

             SOUTH FLORIDA ECOSYSTEM RESTORATION INITIATIVE


                                WITNESS

HON. PETER DEUTSCH, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    FLORIDA
    Mr. Regula. Okay, Mr. Deutsch.
    Mr. Deutsch. Thank you, Mr. Chairman. Mr. Chairman, I am 
here talking about the Everglades restoration issue, which this 
subcommittee has been incredibly thoughtful and generous in the 
eight years that I have been in Congress. In fact, I think I 
had it fact checked that this is the largest environmental 
restoration project in the history of the world.
    Mr. Regula. I would think so and the most costly.
    Mr. Deutsch. Sometimes they go in hand-in-hand. And, as you 
are well aware, you are as much of an expert as I am that the 
costs are going to continue. The re-study efforts are talking 
about an $8 billion number. So hopefully this committee is 
going to fully fund the administration's request. I have 
testimony which I will submit for the record.
    Mr. Regula. Without objection.
    Mr. Deutsch. I think it is significant in this point in 
time to really continue at that level of funding, particularly 
with the partnership of the State of Florida. This has been an 
issue which is a totally bipartisan issue, 100 percent support 
in the Florida delegation. The Florida legislature, which is 
now for the first time since Reconstruction actually controlled 
by Republicans, House and Senate and governor, has been very 
supportive. They are in their next to the last week of the 
session. The budget is basically out and so they are continuing 
their level of funding with a change in party control of the 
legislature.
    Mr. Regula. I saw the bill they had dropped.
    Mr. Deutsch. We are still watching on it a day-to-day 
basis. I was in Tallahassee, along with about half of the 
congressional delegation, and, as you are well aware, 
Congressman Goss and Congressman Shaw have been both very 
involved in this as well. So we have sent the message, you have 
sent the message about that legislation. I think cooler heads 
will prevail.
    Mr. Regula. Okay. Mr. Dicks?
    Mr. Dicks. Good, thank you, Peter. It is a great project 
and one that I strongly support.
    Mr. Deutsch. Right.
    Mr. Dicks. We have had similar problems out in the 
northwest, and I know this is very important to the people of 
Florida.
    Mr. Regula. Do you think it will meet the two objectives, 
which is to re-water the aquifer for the East Coast and still 
restore the river of grass? Those are really the two missions.
    Mr. Deutsch. The best science is working. We have seen, and 
we are always in the sort of best science mode. In fact, it is 
kind of interesting. Almost all of it--if you have been 
watching the news, almost all of those fires in the Everglades, 
basically all of them are in my district. And it really is a 
natural occurrence. It is not a negative thing. I think with 
the success of this subcommittee. I think it is one of the real 
success stories of the United States Congress, the Everglades 
restoration issue. The way I use the analogy, it was a huge 
aircraft carrier that was going in the wrong direction. And 
what we have done is we have moved it, and we know we are in 
the right direction now. And we have just got to keep moving in 
that direction. That is our job.
    Mr. Regula. Okay, thank you.
    Mr. Deutsch. Thank you very much, appreciate it.
    Mr. Dicks. Stay with the science.
    Mr. Deutsch. Thank you.
    [The statement of Mr. Deutsch follows:]


[GRAPHIC(S) NOT AVAILABLE IN FORMAT]

                                           Tuesday, April 20, 1999.

                         NATIONAL PARK SERVICE


                                WITNESS

HON. BART STUPAK, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MICHIGAN
    Mr. Regula. Mr. Stupak.
    Mr. Stupak. Thank you, Mr. Chairman. If I may, I would like 
to talk about the four national parks in my district and 
funding, if I may.
    Mr. Chairman, the first one on my list is the Platte River 
Pointe Parking. And, if I may explain, Platte River is part of 
Sleeping Bear Dunes National Lakeshore. In 1992, they had three 
canoe livery stations there and it went down to one. And this 
one place here, and in 1992, the general management plan said 
they would provide appropriate and safe parking access.
    Mr. Regula. Do you have any idea why they reduced it, just 
cost?
    Mr. Stupak. Mr. Chairman, I think trying to get the area to 
go back more to a natural state. When the park was started in 
the late 1960's, there were three. The original management plan 
said get down to one.
    Mr. Regula. So there are two schools of thought?
    Mr. Stupak. You bet you.
    Mr. Regula. One is to go back to the primitive state; the 
other is to let the public enjoy it.
    Mr. Stupak. And still enjoy it.
    Mr. Regula. Yes.
    Mr. Stupak. And then in 1992, when they did the general 
management plan, they said we had to have some parking. Well, 
in between there, I hate to admit, but the people who owned the 
canoe livery sued the National Park Service in a very bitter 
lawsuit. And since then, neither side wants to talk to each 
other. I have been there a number of times. I have tried to 
negotiate settlements. And both sides I think are being very 
unreasonable.
    But the point is, which remains, is from July to September, 
they exceed their parking capacity by 55 percent. People are 
parking on the shoulder of M-22, which is a State highway. Mr. 
Chairman, someone is going to be killed there and despite all 
the hard feelings over the lawsuit, it is not going to solve 
anything. Right by the canoe livery place, the Park Service has 
now acquired a homestead there. There is a home there; a big 
field. I have asked them repeatedly, just let them go through 
and park there and they won't do it for whatever reason. I am 
not trying to mandate, but let's get this parking lot built 
that is in the area of the canoe livery.
    Mr. Regula. The Platte River agreement, is this something 
the Park Service entered into?
    Mr. Stupak. Yes.
    Mr. Regula. And they are not abiding by it?
    Mr. Stupak. Not abiding by it, which says they will provide 
safe parking. And everyone says we have got a danger here. I 
have been down there. We have tried to work it out. The Park 
Service will offer parking a couple of miles away.
    Mr. Regula. You want us to direct them to abide by their 
agreement?
    Mr. Stupak. To abide by it and help them out, give them 
some money to do it. It is about $800,000.
    Mr. Regula. Okay, the second item?
    Mr. Stupak. The second item, Mr. Chairman, Keweenaw 
National Historical Park. Thanks to you and others and the 
President, they have requested $2.45 million for the park. This 
is really to buy important historical buildings. I have been 
here a number of times asking for it. We finally got a little 
money in the budget, the President's request. I hope we could 
honor that. As you know, the Keweenaw is a unique national park 
in that $4 have to be put in by State and local and private 
money to every dollar we put in. We really, ``we'' being the 
Federal Government, have not put any money in. This is the 
first shot in the arm. Besides symbolic, it would rekindle the 
spirit of that park. So I would ask that that request be 
honored.
    Pictured Rocks National Lakeshore, Mr. Chairman, you have 
been quite helpful in this one. That was County Road H-58, we 
need money to upgrade. We actually changed the law, which said 
strike the mandate that says build a new road, and authorize 
the Park Service to use its funds to help upgrade H-58. It is 
the road they have been using as the service road for 30 years. 
So we would ask over four years, $4 million be put in. That is 
basically a million a year because we are getting the State of 
Michigan to put in money to re-do this road. If you could look 
at that.
    Pictured Rocks, other than that is $292,000, we are asking 
to increase the base budgeting just to provide the basic 
services there at Pictured Rocks.
    Last, but not least, Isle Royale National Park, way out 
there in Lake Superior, is always listed as one of the parks 
that needs the most work on every national study you see. The 
home builders and others have donated money and supplies to re-
do quarters for rangers and shelters and things like this. But 
we are asking if you could increase the budget by $500,000 just 
to help with some of the deterioration of the health, essential 
services, such as electrical, the visitor boat docks and 
facilities.
    Mr. Regula. Do they charge a fee?
    Mr. Stupak. Yes, they do. All my parks in Michigan do.
    Mr. Regula. And that is money that is going back into the 
park.
    Mr. Stupak. The money is going back in. That is why while 
it looks like $500,000, a little bit different than Mr. 
Deutsch's request, $500,000 can go a long way on some of our 
small areas.
    Last, but not least, which will rival Mr. Deutsch, is the 
PILT payments. And I know the chairman is well familiar with 
PILT payments. We have been good at putting some money in and 
actually last year's funding of $125 million is still well 
short. But at least we are going in the right direction by 
finally putting in--and I know, Mr. Chairman, you have been 
very supportive of this program--anything we can do because 
even with the increase in appropriations a few years ago, we 
have been basically flat for the last four years. And actually 
it is a decrease when you take inflation and everything else in 
there.
    Mr. Regula. Give us some help on the caps.
    Mr. Stupak. You bet. I understand that one fully.
    Mr. Regula. There is a problem with adequate funds.
    Mr. Stupak. Right.
    Mr. Regula. Thank you.
    Mr. Stupak. You bet. Thank you. Thanks for your past help.
    [The statement of Mr. Stupak follows:]

[GRAPHIC(S) NOT AVAILABLE IN FORMAT]

                                           Tuesday, April 20, 1999.

                      C&O CANAL AND GLEN ECHO PARK


                                WITNESS

HON. CONSTANCE MORELLA, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MARYLAND
    Mr. Regula. Mrs. Morella.
    Mrs. Morella. Thanks, Mr. Chairman.
    Mr. Regula. I guessed what you are here for.
    Mrs. Morella. I think you are pretty good.
    Mr. Regula. I have heard about it.
    Mrs. Morella. You are pretty prophetic. Yes, indeed, over 
and over again. Actually, my utmost priority funding for Glen 
Echo Park. It is such a beautiful treasure, and I sent you some 
materials on it, 9.3 acre segment of the National Park Service 
system. It does annually 400,000 visitors.
    Mr. Regula. When will their management plan be out?
    Mrs. Morella. I don't know. I think it should be out 
imminently. But what Montgomery County did is, because of the 
National Park Service saying that they needed to have a 
management plan and giving some scenarios and asking to input, 
actually the county executive of Montgomery County, Maryland 
established a working committee; and I have the booklet with 
their results. They have an executive summary also where they 
decided that what they would do is to have a partnership, a 
three-part partnership. It is, of course, under the George 
Washington Parkway purview with regard to the park system, and 
they figure that $8.9 million would--let's see, it's $18.9 over 
a three year period. And they would divide it three ways. 
Actually, they would have asked for $2 million each year for 
three years from the Feds and the $6 million also from the 
State, and the county would put the rest in, which would be 
more than the $6 million.
    It is a park that is just so magnificent. It is the 
original Chataugua concept. It went through many different 
transitions, but it has a cultural section, environmental 
section. The community all come together. It has a Spanish 
ballroom where they have no air conditioning, nor do they want 
it. They allow no liquor there. They have no heat.
    Mr. Regula. They've got the big bands?
    Mrs. Morella. Yes, big bands. They have all different kinds 
of dancing. They have people from all over. It is really a 
national treasure. At any rate, recognizing that Federal 
funding is limited, that is why the partnership was established 
with the local, State, and Federal to propose methods to 
continue the preservation of the park. And I think basically in 
my testimony, I think you have got some of the details of it. 
The State of Maryland, in their legislative session, which was 
just completed, has promised that they would give their money.
    Mr. Regula. Right, okay.
    Mrs. Morella. Contingent upon the Federal Government. I 
look forward also to your visit. You will just love it. It is a 
small investment in something that is so important. When we had 
hearings there, there were like 1,500 people thatwould show up. 
Where are you coming from? Well, they talked about meeting there at the 
park and marriages that they had as a result of that, bringing their 
families there and all of that.
    Okay, two other points, C&O Canal. Obviously, you know that 
is my big love. It was just on Saturday that a group of people 
went on their five year--well, it is something that happens 
every five years. They trek 184.5 miles.
    Mr. Regula. They did the whole thing?
    Mrs. Morella. They are doing it now, right now they are in 
transit. They will return on May 1st.
    Mr. Regula. Have you gone?
    Mrs. Morella. No, but I am giving the keynote speech when 
they come back on May 1st. I am going to be relaxed. They are 
going to come and----
    Mr. Regula. I think you should walk the whole thing.
    Mrs. Morella. Would you do it with me?
    Mr. Regula. I might.
    Mrs. Morella. This is what happened with Justice Douglas in 
1954 when they wanted to make it highway. You remember?
    Mr. Regula. I talked with him.
    Mrs. Morella. Mrs. Douglas is going to show up on May 1st. 
One of their big problem is the Monacacy Aqueduct. I mean 
really. It is not in my district.
    Mr. Regula. Is it falling apart?
    Mrs. Morella. It really is and it is a tremendous historic 
spot. It is one of the 11 endangered historic places in the 
United States. And so I ask for your assistance for that 
stabilization.
    Mr. Regula. Is it a wooden structure?
    Mrs. Morella. Yes, right. And then the historic 
preservation.
    Mr. Regula. Is it water now?
    Mrs. Morella. Yes, it is. And then finally, the United 
States Park Police. You know with the NATO coming in this 
weekend and all.
    Mr. Regula. Yes, that is going to be a problem.
    Mrs. Morella. I know it really is. And these Park Police 
people have had some enormous challenges they have had to face 
and in the metropolitan area, they fight against drug related 
crime in the District of Columbia. And what they really need is 
$13 million for the Park Police in the Fiscal Year 2000 
Interior appropriations bill. And their personnel shortages are 
really acute. The demands have increased. And I look for the 
continued support of this wonderful, wonderful subcommittee. I 
give you big stars, high grades.
    Mr. Regula. If we get the stars and some money, we will be 
all right.
    Mrs. Morella. That is right. Thank you very much.
    Mr. Regula. Thank you.
    Mrs. Morella. Thank you.
    [The statement of Mrs. Morella follows:]

[GRAPHIC(S) NOT AVAILABLE IN FORMAT]

                                           Tuesday, April 20, 1999.

                             NEA; NEH; IMLS


                                WITNESS

HON. JERROLD NADLER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW 
    YORK
    Mr. Regula. Mr. Nadler, a little airplane problem this 
morning?
    Mr. Nadler. Yes, indeed. I thank you for your rescheduling.
    Mr. Regula. We always try to accommodate.
    Mr. Nadler. Forty-five minutes late.
    Mr. Regula. That is all right. You are here to testify on 
the NEA?
    Mr. Nadler. Yes, thank you, Mr. Chairman and members--
    Mr. Regula. Several Members testified on it.
    Mr. Nadler. I will be brief. I have a longer statement, 
which we are giving to you.
    Mr. Regula. That will be made a part of the record.
    Mr. Nadler. Thank you for the opportunity to testify before 
you today. I strongly support funding for the NEA, the NEH, and 
the Institute for Museum and Library Services and urge you to 
fund these programs at least at the level requested by the 
President: $150 million for the NEA; $150 million for the NEH; 
and $34 million for the Office of Museum Services within the 
Institution of Museum and Library Services.
    While I am greatly pleased by the reach of the NEA--and let 
me just say that that is an increase in funding obviously to 
start getting it back to a reasonable level from the 
destructive levels of recent years after the attempt to 
eliminate the NEA.
    Mr. Regula. We have a couple of problems. One, there is no 
authorization.
    Mr. Nadler. I know.
    Mr. Regula. Which is subject to a point of order and that 
is a difficult hurdle. We have been getting over it one way or 
another.
    Mr. Nadler. Right.
    Mr. Regula. And, of course, because of that, it gives those 
who are not enthused about it some leverage.
    Mr. Nadler. I appreciate the ingenuity and the energy with 
which the chairman and the leadership of this subcommittee have 
attacked that problem in recent years.
    Mr. Regula. And I must say we have made some reforms, which 
I think have been constructive.
    Mr. Nadler. Yes, some of them.
    Mr. Regula. And I am pleased with Mr. Ivy.
    Mr. Nadler. Yes, I agree.
    Mr. Regula. I think he is going to do a good job.
    Mr. Nadler. I think he is going to do a good job. I think 
he has done a good job so far.
    Mr. Regula. Right.
    Mr. Nadler. I want to say one other thing and being from 
New York, I could not help but say it. Some people will not 
agree with it. While I am greatly pleased by the reach of the 
NEA, I am concerned by legislative efforts designed to curb 
spending to areas that have traditionally been artistic and 
cultural centers. New York City attracts the best and the 
brightest artists from around the country who come looking to 
improve their skills and achieve their full potential as 
artists. We are proud of this in New York. But every year the 
NEA is criticized for supporting artists in certain big cities 
and recently legislation has been passed to artificially limit 
funds going into certain regions of the country. It is unfair. 
It is time to stop punishing and start rewarding States that 
nurture the arts.
    I said on the floor a number of years ago in a colloquy 
with Mr. Burton I think it was, when he was criticizing, said 
so much of the NEA funding goes to New York. He left out Los 
Angeles, but he said New York. And I got up and I said, ``I am 
shocked. I just discovered that New York City gets not a penny 
of the wheat subsidy.'' We pay for it. We don't get a penny of 
it. We don't grow any wheat, but what does that got to do with 
anything.
    Mr. Regula. Well, you get cheap bread.
    Mr. Nadler. Well, presumably. That is an indirect benefit 
and the rest of the country gets better art by supporting art 
where it is produced. The point is obviously that money for 
something that we think deserves support should go where it is 
and where the money is most neededwithout arbitrary----
    Mr. Regula. I understand.
    Mr. Nadler [continuing]. Limits on it. I certainly would 
never suggest that Illinois or Indiana should get a limit of X 
percent on the wheat subsidy.
    In any event, I am submitting a longer statement, and I 
thank you for your indulgence.
    Mr. Regula. Without objection. The committee is adjourned 
until 1:30.
    [Recess.]
    [The statement of Mr. Nadler follows:]

[GRAPHIC(S) NOT AVAILABLE IN FORMAT]

                                           Tuesday, April 20, 1999.

              STEWART B. MCKINNEY NATIONAL WILDLIFE REFUGE


                                WITNESS

HON. CHRISTOPHER SHAYS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CONNECTICUT
    Mr. Regula [presiding]. The committee is underway.
    Mr. Shays. Thank you, Mr. Chairman and Mr. Dicks. It is a 
pleasure to be before your committee again. You have been 
extraordinarily helpful in allowing us to acquire the Stratford 
Great Meadows Salt Marsh, which is a 400 acre salt marsh on 
Long Island Sound. We are losing Long Island Sound or have been 
in the process, but we are gaining it back. These marshlands 
are able to filter the water and clean it through the natural 
process, in addition to providing habitat for all the 
incredible wildlife that we have in the Salt Marsh. There are 
14 million people just on Long Island Sound and 50 million 
people impact Long Island Sound.
    We are requesting the final 5 acres of this approximately 
400 acre site of land to complete requests for the Stratford 
Great Meadows Salt Marsh. It is next to my district and in Rosa 
DeLauro's district, but we share it and it is important for all 
the Members who value Long Island Sound.
    My first priority, and I want you to kind of hold your 
seat, Mr. Chairman, we have an extraordinary opportunity to 
purchase 28.8 acres of land off of Greenwich, Connecticut. This 
is land owned by the YMCA, and they are allowing it to be 
purchased for the public domain. It is called Calves Island. 
And I am here to request that we purchase this, the 28.8 acres. 
It has a value of $8 million. The Island has a diverse 
topography. It has tidal wetlands. The wood is upland and 
inner-tidal flats, a rocky inner-tidal shore and a sandy beach 
providing a perfect habitat for shorebirds. And recently a 
heron nest was discovered and with the protection of the 
island, a heron rookery will likely be established. The YMCA 
has agreed that 10 percent of the purchase will be set aside to 
help the Fish and Wildlife Service.
    And that concludes my testimony. Calves Island is my 
highest priority for the LWCF money, whatever sums you have. 
And I thank you very much and would request----
    Mr. Regula. Would there be public areas?
    Mr. Shays. Yes, there would be public access as well.
    Mr. Regula. How would they get out there?
    Mr. Shays. You would go out by ferry. There is a public 
boating dock just off Long Island Sound. The Town of Greenwich 
owns two islands that they ferry people to and so you can use 
that same space.
    Mr. Regula. Are the two islands for recreation or are 
they----
    Mr. Shays. The two islands are recreational nearby. But 
they would obviously be available to residents everywhere.
    Mr. Regula. Everybody. Mr. Dicks?
    Mr. Dicks. Well, I appreciate your advocacy. We have these 
budget caps.
    Mr. Shays. I understand.
    Mr. Dicks. We have got a tough problem, but it certainly 
sounds like a very worthy project.
    Mr. Shays. I just would emphasize that land is very dear, 
obviously, on the East Coast.
    Mr. Dicks. Especially.
    Mr. Shays. But what is astounding is if you are all 
familiar with Greenwich, Connecticut, a 2 acre plot of land can 
cost $2 million-plus. And so to be able to purchase 28 acres of 
precious land is a tremendous opportunity. And even if you 
can't appropriate the whole amount, we would hope there could 
be a process that would lock us into buying this
    Mr. Regula. The YMCA owns it?
    Mr. Shays. YMCA.
    Mr. Regula. What do they do with it now?
    Mr. Shays. They used to use it for recreational purposes. 
They would have camp-outs. They would take their kids there and 
they discontinued a few years ago. And so developers have been 
eyeing this property and trying to tempt the Y to maximize 
their return. But they have a civic sense and would like it to 
be in the public domain.
    Mr. Regula. What body of water is this in?
    Mr. Shays. In Long Island Sound. It is right off the coast 
of--in fact, I am sorry. I should really just leave you this 
map. This map shows you the Island. It is the purple straight 
ahead. And it is next to a yellow--right directly ahead of you, 
Mr. Chairman, right there. That is 28 acres.
    Mr. Regula. The purple area?
    Mr. Shays. I am sorry. Yes, the purple. And the green is 
public, the two islands owned by Greenwich.
    Mr. Regula. Oh, yes.
    Mr. Shays. They also own a lovely point on your right-hand. 
Right next to it, you will notice it is a yellow island, 
meaning privately owned. And our concern is that that purple 
not become yellow.
    Mr. Regula. Okay.
    Mr. Shays. And looking at the Salt Marsh map this just 
shows you the last bit of land in the blue. You have enabled 
us, Mr. Chairman, you have enabled us to purchase the entire 
amount of the green there.
    [The statement of Mr. Shays follows:]

[GRAPHIC(S) NOT AVAILABLE IN FORMAT]

                                           Tuesday, April 20, 1999.

              STEWART B. MCKINNEY NATIONAL WILDLIFE REFUGE


                                WITNESS

HON. ROSA L. DeLAURO, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CONNECTICUT
    Mr. Regula. We are very pleased to welcome you, Ms. 
DeLauro. If you want to add anything, it obviously is the same 
topic that Chris has been talking about?
    Ms. DeLauro. Well, I thank you for allowing us to come 
before you. I just will say that the committee has been so 
wonderfully supportive in helping Fish and Wildlife acquire the 
Great Meadows Salt Marsh. We added quite a bit of money over 
the last several years, about $11 million and it purchased 
about 400 acres of prime habitat. And I am sure Chris talked to 
you about the importance of it, et cetera. I would just say 
that it is almost finished. We are almost there on this one 
here. And the $500,000 would wrap up the final 5 acres. So we 
are hoping that you will look favorably upon this effort.
    Let me just say that the public/private partnership, I 
think has really been pretty astounding in this effort with the 
Nature Conservancy, which is raising money to establish an 
endowment fund to help with the Fish and Wildlife research, 
wetlands restoration. There is the Stratford Development 
Corporation, which was an original landowner and now an 
adjacent landowner. They are helping with development of retail 
office space, technology, facilities and activity that is 
compatible with the refuge so that all the pieces that need to 
work together have come together around what is a very, very 
good effort.
    Chris said he mentioned talking about Calves Island and so 
that is the 28.8 acre effort. And we hope you will give us some 
consideration on that effort.
    Mr. Regula. These requests all depend on how much we have 
authorized.
    Ms. DeLauro. I understand. And, as I say, you have been 
very, very forthcoming with the wildlife refuge. And this piece 
is a rare occurrence when you have an opportunity to preserve 
an island in this way, particularly in our part of the country.
    Mr. Regula. Does the YMCA own the whole thing?
    Mr. Shays. Yes, sir.
    Ms. DeLauro. I will just mention one other thing, and this 
has to do with something that you all are looking at in terms 
of the President's budget. I am just going to put in a plug for 
something that is not in my district, but it is a very good 
project, in Richfield. It is the Weir Farm site that is 
requested in the President's budget and hopefully you will look 
favorably upon that effort. Thanks very much.
    Mr. Regula. If we purchase Calves Island, then the Fish and 
Wildlife Service would become the manager?
    Ms. DeLauro. Yes.
    Mr. Shays. I should have mentioned this. It will all part 
of the Stewart McKinney Wildlife Refuge.
    Mr. Regula. Right.
    Mr. Shays. It comes all the way down the coast now from 
practically New London down, correct?
    Ms. DeLauro. Yes.
    Mr. Shays. And so we have started to amass a significant 
part of precious land in the area. And I would just say that as 
precious as Long Island Sound, Puget Sound is right up there.
    Mr. Dicks. Well, we have got to protect them both.
    Mr. Shays. But I don't believe you have mountains because I 
never saw them when I was there. [Laughter.]
    Mr. Dicks. They are there. You should have been out there 
this weekend. They were there. It was beautiful.
    Ms. DeLauro. In this area, the water portions really 
support some of the most productive oyster beds in Connecticut. 
And we are second to Louisiana in terms of production of 
oysters in the United States.
    Mr. Regula. Okay, thank you very much.
    Mr. Shays. Thank you for your hospitality.
    Ms. DeLauro. Thank you very much.
    [The statement of Ms. DeLauro follows:]


[GRAPHIC(S) NOT AVAILABLE IN FORMAT]

                                           Tuesday, April 20, 1999.

                                BIA/IHS


                                WITNESS

HON. DALE E. KILDEE, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MICHIGAN
    Mr. Regula. Mr. Kildee.
    Mr. Kildee. Ralph, I really appreciate your doing this. Not 
every Member does it as chairman. I appreciate it. I just want 
to first of all ask unanimous consent for two days to extend.
    Mr. Regula. Without objection.
    Mr. Kildee. Okay. Mr. Chairman, the President's Fiscal Year 
2000 budget request for the Bureau of Indian Affairs is $1.9 
billion, an increase of $155.6 million over the Fiscal Year 
1999 level. This amount would provide $1.7 billion for the 
operation of Indian programs, an increase of $110 million over 
Fiscal Year 1999. The remaining amount would provide funding 
for construction, Indian land, and water claim settlements, and 
other payments to Indians.
    Mr. Chairman, on April 1st, Mr. Robert Guenthardt, tribal 
chairman of the Little River Band of Ottawa Indians of 
Michigan, submitted testimony to your subcommittee about an era 
in the TPA account that needs to be corrected; and I would ask 
that your committee look into his testimony and try to make 
that correction. They are not receiving what comparable tribes 
are receiving.
    Last year, Congress imposed a moratorium, Mr. Chairman, on 
any new or expanded contracts or compacts which kept the BIA 
and the Indian Health Service from fulfilling its trust 
responsibility to Indian tribes. I oppose the moratorium and 
urge your support to lift the moratorium in the Fiscal 2000 
budget.
    The President's budget request would provide $108.4 million 
for BIA school construction, an increase of $48 million for 
Fiscal Year 1999. Mr. Chairman, I urge your subcommittee to 
support a plan for which Congress would fund BIA's school 
construction at $200 million each year for six years. I support 
budget requests to fund the replacement school construction 
program at $39.8 million for Fiscal Year 2000.
    The budget request for BIA education programs if $503.6 
million, an increase of 6 percent over Fiscal Year 1999. I 
support the budget request of $38.4 million for Titles 1 and 2 
of the Tribally Controlled College or University Assistance 
Act. This funding would provide an increase of $7.1 million 
over last year. The budget request for the Institute of 
American Indian Art is $4.25 million, a $50,000 decrease from 
last year's funding of $4.3 million. I urge your subcommittee 
to fund IAIA at the same level of funding as Fiscal Year 1999.
    Mr. Chairman, I support the budget request of $2.5million 
for tribal courts in Fiscal Year 2000. However, this amount is far 
below what is necessary for tribes to operate their judicial systems 
and urge you to increase funding for tribal courts.
    I strongly urge you to fund the Chippewa/Ottawa Treaty 
Fisher Management Authority located in the great State of 
Michigan at $3.3 million, an increase of $1.5 million over 
Fiscal Year 1999. This funding would accommodate COFTMA's 
increased responsibilities required by a Federal court order.
    Mr. Chairman, I urge you to support the Jicarilla Apache 
Tribe's request to fund its water system. This is a very high 
priority. The water treatment delivery system waste water 
facilities that serve the Jicarilla Apache reservation are not 
in compliance with Federal environmental standards. Although 
these systems are owned by the Federal Government and operated 
and managed by the BIA for the benefit of the Tribe, the Tribe 
has expended its own tribal funds to restore water to the 
community. The Tribe estimates that bringing the water system 
in compliance would cost $22 million. I am requesting that your 
subcommittee work with the Tribe to develop a funding plan to 
bring the water system in compliance with the applicable 
Federal standards.
    The President's Fiscal Year 2000 budget request for Indian 
Health Service is $2.4 billion, an increase of $170 million 
over the Fiscal Year 1999. Mr. Chairman, I respectfully request 
that this subcommittee increase this amount to $2.6 billion, 
which is $209 million above the President's request. Diabetes 
and other health problems among the Indians is increasing, and 
they do sorely need this money.
    While I support the budget request for a $35 million 
increase for contract support costs associated with tribes 
contracting and compacting Federal services, I urge this 
subcommittee to increase the amount currently proposed in the 
Fiscal Year 2000 budget request.
    Mr. Chairman, as Federal trustees over Indian affairs, it 
is necessary that Congress provide Indian tribes the adequate 
funding they need to provide and carry out important services 
and programs to their members.
    And this concludes my remarks on the BIA budget, and I 
thank you for what you were able to do last year. I know you 
have limitations over the distribution of funds, but the 
Indians whom you were able to help last year are deeply 
grateful to you, and your name is well-recognized in Indian 
country, Mr. Chairman.
    Mr. Regula. Thank you. We have especially tried to support 
Indian Health with limited resources, obviously. And hope that 
we can enhance that number this year. There are great needs out 
there all across the country.
    Mr. Dicks?
    Mr. Dicks. Well, we welcome you here, Dale, and we 
appreciate your leadership and concern about these issues. And 
we certainly understand and appreciate the problems in Indian 
country. I have 26 tribes in Washington State and about 10 of 
them are in my district, so I understand the conditions and the 
problems. And, of course, the Indian Health Service is vastly 
under-funded. But we are stuck with these budget caps. And if 
they are not lifted, we are going to have to cut $1.4 billion 
from the President's budget request.
    Mr. Kildee. And I would be first in line----
    Mr. Dicks. So we have a dire problem and we have got to 
work on, as the chairman said, we have got to figure out some 
way to get a bipartisan consensus amongst the leaders of this 
institution and with the White House and the Senate. Let's do 
something sensible here. I don't see how we are going to get 
these bills passed.
    Mr. Kildee. I agree. Having served on the Budget Committee 
for six years, all you do is get a good education in that 
committee. You don't really do much more than that. Because you 
people really do, but those caps.
    Mr. Dicks. Well, this year, this is for real.
    Mr. Kildee. These caps are real and these caps are things 
that I----
    Mr. Dicks. They are in the law.
    Mr. Kildee [continuing]. Would join you. I know. They are 
more part of the get well card we passed. This is really part 
of the law, but I would stand with you to lift those budget 
caps.
    Mr. Dicks. Well, we appreciate that and we will work with 
the gentleman.
    Mr. Kildee. And, if I may, two things, the Indian Health 
Service, of course, is extremely important; and I work with the 
Jicarilla Apache Indians. They are not in my district, not in 
my State even. They really have a real serious problem. They 
are expending some of their own money. If you could work with 
them, I would appreciate it very, very much.
    Mr. Regula. Well, we will do the best we can for all these 
issues.
    Mr. Kildee. I know the limitations you have, and I 
appreciate what you were able to do last year under those 
limitations, Mr. Chairman.
    Mr. Regula. I wish we could get them more involved in the 
economy. One of the problems is that the culture makes it 
difficult to be involved in the economy.
    Mr. Kildee. Several tribes in Michigan are getting 
involved. I can recall, just maybe one minute, when I was a 
child, my dad had been raised among the tribes around Trevor 
City, Michigan, Grand Trevor Ottawa and Chippewa. I used to 
visit them as a child and as a college student, and they were 
the poorest of the poor. They were like Third World countries. 
And now they are into economic development. They are just doing 
wonders and they are providing a health service for their 
people.
    Mr. Regula. It wasn't a casino?
    Mr. Kildee. They are providing education. It is the casino, 
but what they have done with their casino funds is invest it in 
other things because they are not sure how long the casinos may 
last. So they have broadened themselves out in investing in 
other things.
    Mr. Regula. Yes, that is smart.
    Mr. Kildee. Really good leadership. When I was a kid, no 
member of that tribe, they all had to walk into Trevor City 
because no one would pick them up. Now the Chamber of Commerce 
and Rotary Club is inviting them to join because they see they 
are part of the economy of that area and not just in the 
casino, but where they are investing their money elsewhere too.
    Mr. Regula. Okay, well, thank you very much.
    Mr. Kildee. Thank you very much.
    Mr. Dicks. Thank you, Dale.
    [The statement of Mr. Kildee follows:]


[GRAPHIC(S) NOT AVAILABLE IN FORMAT]

                                           Tuesday, April 20, 1999.

            FWS: UPPER MISSISSIPPI RIVER PROGRAMS, REGION 3


                                WITNESS

HON. RON KIND, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF WISCONSIN
    Mr. Regula. Mr. Kind.
    Mr. Kind. Thank you, Mr. Chairman. I appreciate the 
opportunity of testifying before the committee here today. I am 
here, Mr. Chairman, as one of the four founding co-chair people 
of the Mississippi River Bipartisan Congressional Task Force. 
We formed this a couple of years ago, Representative Kenny 
Hulshof, and Leonard Boswell, and Gil Gutknecht, and myself, in 
order to draw a little more focus, a little more attention on 
issues affecting the Mississippi from north and south. And, in 
fact, I am here in particular representing the Upper 
Mississippi Task Force, which is a sub-caucus of that larger 
working bipartisan group of which we have roughly 32, 33 
Members today; and we meet on a periodic basis.
    And as you consider the Fiscal Year 2000 appropriations 
process for the Fish and Wildlife Service, our Task Force is 
recommending a $6 million increase for Region 3 ecological 
services, fisheries, and national wildlife program activities. 
Funding for the Fish and Wildlife Service Fisheries Program has 
not kept pace with increasing demands to assist partners in 
addressing inter-jurisdictional fisheries and aquatic resource 
issues in the Upper Mississippi area. Severe shortfalls have 
limited replacement and hiring of adequate technical staff or 
repair of equipment and facilities and the acquisition of 
critical state-of-the-art equipment that they need to implement 
their programs. And, in particular fishery resources offices in 
Columbia, Missouri, across Wisconsin, Marion, Illinois, along 
with the Mississippi River coordinator's position in Rock 
Island, Illinois face acute staffing and equipment shortages.
    The Fish and Wildlife Service Fisheries Program has the 
unique expertise and capability necessary to assist the basin 
States, tribes, and other agencies that they work with to 
address resource problems directly and reverse decades long 
declines in some of the most valuable fish and aquatic species 
that the Mississippi has to offer. Specifically, the Upper 
Mississippi area, the Fisheries Program there conduct pollution 
assessments, developments, implements, and evaluates habitat 
restoration projects and fishery management plans. It also 
prevents and controls aquatic nuisance species and restores 
these critical habitats. The Fisheries Program also coordinates 
basin groups, like the Mississippi Interstate Cooperative 
Resource Association, and seeks multi-jurisdictional solutions 
to watershed and fisheries related problems.
    Now in recent years, the Upper Mississippi and the Mark 
Twain Refuges have received added responsibility while funding 
for maintenance and habitat restoration and outreach has fallen 
below what they need to adequately perform these additional 
services. Both refuges maintain habitat restoration projects 
completed by the U.S. Army Corps of Engineers, but have not 
received additional funds. The Mark Twain Refuge acquired 
12,000 additional acres since the flood of 1993, but the number 
of employees has fallen from 20 down to 17. And the refuge has 
been unable to restore habitat in the new lands or conduct 
outreach activities or construct interpretive signs or kiosks 
that they feel are necessary for the area.
    The Upper Mississippi Refuge currently lacks a full-time 
refuge manager, and although the master plan for the refuge 
calls for 60 staff members, only 28 staff are currently 
employed. Now to put this in perspective, Yellowstone National 
Park with roughly the same annual visitation per year has a 
staff during the summer of 730 National Park Service employees, 
3,200 people working for the concessionaires, yet the Nation's 
busiest refuge in the Upper Mississippi does not have a 
visitor's center and there is only one handicapped boat landing 
within the 284 mile refuge. Increased funds we feel for the 
Upper Mississippi Refuge would allow the refuge to fulfill 
these additional functions, an important responsibility.
    Mr. Regula. You don't think of refuges as visitor intensive 
normally, but you are saying this one is?
    Mr. Kind. It is. In fact, exceeds the scale of what is 
visited at Yellowstone National Park. It has an economic impact 
in the area of over $1.2 billion given the multiple use of the 
area, and that's why we are bringing this to the committee's 
recommendation and would respectfully request to go along with 
our recommendation in the appropriations process.
    Mr. Regula. Well, I am pleased that they are doing 
outreach. That is why they are there. They should get the 
public involved.
    Mr. Kind. Right.
    Mr. Regula. Mr. Dicks?
    Mr. Dicks. No questions, but we are very supportive. Thank 
you.
    Mr. Kind. Well, I appreciate it.
    Mr. Regula. Okay.
    Mr. Dicks. Do you have any questions?
    Mr. Hinchey. I do not.
    Mr. Regula. Thank you.
    Mr. Kind. Well, I have a more detailed written statement 
that I will submit.
    Mr. Regula. That will be part of the record.
    Mr. Kind. Thank you again.
    [The statement of Mr. Kind follows:]

[GRAPHIC(S) NOT AVAILABLE IN FORMAT]

                                           Tuesday, April 20, 1999.

                     SWEETWATER/OTAY-SAN DIEGO NWR


                                WITNESS

HON. BRIAN P. BILBRAY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Regula. Mr. Bilbray.
    Mr. Bilbray. Thank you, Mr. Chairman. Mr. Chairman, I would 
like to thank you for allowing me to testify today, and I would 
ask for permission that my prepared statement be included.
    Mr. Regula. Without objection.
    Mr. Bilbray. First of all, I think we know how tough the 
fiscal restraints are going to be this year and as much as 
humanly possible, I would strongly urge full funding for the 
Land and Water Conservation Fund. But more specifically, I want 
to talk about an issue that you have long been aware of and 
helped us with and that is this very innovative cooperative 
effort of the Multi-Species Conservation Program that San Diego 
County has initiated with the cities and the Federal agencies 
in the area. There are parts of that that I am going to address 
specifically right now. One of these is the Sweetwater Otay 
segment of the San Diego National Wildlife Refuge.
    A lot of discussion has taken place about the lowland 
coastal area of this proposed refuge, without really looking at 
the critical component of the upland areas. This area is being 
planned for not only habitat preservation, but is showing the 
integrated abilities to have a preserve that is biologically 
productive next to an urban area, and also be accessible to the 
public who are paying the bills for hiking, riding, bird 
watching, whatever you like.
    And the other segment of that really ties on to our Otay 
wilderness bill, H.R. 15, that we passed last week, and I want 
to thank you for all the help there, and that is the Otay 
Mountain/Tecate Peak project, which is the linkage between the 
wilderness area and some of the critical habitats just to the 
east. And I would like to see us move forward with that because 
it not only is identified as critical habitat, that we can 
preserve, but it is also part of the plan of showing that 
species and habitat preservation and border control are not 
exclusive, but are essentially tied together. And if we are 
going to protect the habitat, we need to address the unique 
border problems we have. But also the unique border problems 
really gives an added weight to the fact that in this area the 
Federal Government needs to have more of a presence from the 
environmental point of view, because God knows they have got a 
heck of a lot of presence when it comes to law enforcement and 
military activities. That is about 690 acres that we are 
talking about preserving. It is an area that is not just 
environmentally very sensitive, but it is culturally very 
sensitive to the local Kumeyaa Indians.
    And, finally, I ask for your support for the State Energy 
Program Project, which specifically is tied to the alternative 
fuels and the air pollution. And you know my background as a 
member of the State Air Resources Board in California and the 
issues I have been involved with air pollution. With San 
Diego's Regional Transportation System, we talk about the fact 
that people should use alternative fuel, should drive cleaner 
cars, and so forth. We have actually got a project put together 
with the private sector to start marketing this concept, not 
just to those who are looking to buy a car today, but actually 
using it as an educational system for kids coming up through 
junior high school and high school to where we start educating 
them and indoctrinating them into the alternative fuels that 
they could use and the new technologies to be environmentally 
sensitive. So it is a great public/private cooperative. But 
also a way to grow the market for these alternative fuel 
capabilities that we always say, why doesn't anybody buy it? 
Well, because nobody knows about it.
    Mr. Regula. Right.
    Mr. Bilbray. You teach them young now. It is like 
recycling. We teach our children to recycle and the kids teach 
the parents. We are doing the same thing with alternative fuel, 
and I think you will see it is very successful.
    I really appreciate the chance to be able to testify here 
today, and I hope I didn't take too much time.
    Mr. Regula. No, that is fine. I think San Diego has set a 
benchmark on HCPs with a very successful program.
    Mr. Bilbray. Well, I am very encouraged as somebody who 
comes from the local background that it is not punitive. It is 
not reactionary. It is multi-species. It is cooperative. The 
local people are actually the lead agency and the Feds are 
there to support it. And I think it really gets us back to the 
old 1960's environmental speech we had when we used to run 
around with our green arm bands: ``Think globally but act 
locally.'' Now the Federal Government needs to think globally, 
but help locally and allow the locals to lead the charge.
    Mr. Regula. Good slogan. Mr. Hinchey, any questions?
    Mr. Hinchey. Thank you, Mr. Chairman.
    Mr. Regula. Thank you.
    [The statement of Mr. Bilbray follows:]

[GRAPHIC(S) NOT AVAILABLE IN FORMAT]

                                           Tuesday, April 20, 1999.

                                PRESIDIO


                                WITNESS

HON. NANCY PELOSI, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Regula. Ms. Pelosi.
    Ms. Pelosi. Good afternoon, Mr. Chairman, Mr. Hinchey, 
Loretta. How are you all? Thank you, Mr. Chairman, once again 
for the opportunity to testify today. As you have protected so 
many wonderful environmental resources in our country, so, too, 
have you preserved this annual rite of spring where we come hat 
in hand, singing the praises of our distinguished chairman and 
his wonderful committee.
    Mr. Regula. Well, we will wait until the votes come in. 
[Laughter.]
    That is the rite of mid-summer or fall.
    Ms. Pelosi. Well, that is another wonderful occasion, I 
hope.
    Mr. Regula. Well, we hope too.
    Ms. Pelosi. In any event, I wanted to once again thank you 
and the members of the committee for your visit to California, 
to our parks, and for your ongoing leadership in making the 
Presidio Trust possible.
    Mr. Regula. Is it working?
    Ms. Pelosi. It is working and it will work, of course, 
better if we get our Fiscal 2000 $24.4 million for operations 
and also I want to thank you for your past leadership on this 
and also mention the $20 million in Treasury borrowing, both of 
which are included in the President's budget.
    Mr. Regula. Is the Trust getting these residences ready?
    Ms. Pelosi. The exciting thing right now that is on the 
front-burner for the Trust, Mr. Chairman, is the Letterman 
Complex. We are all waiting with bated breath to see what the 
decision will be about Letterman in May. The proposals are in. 
The period of public comment----
    Mr. Regula. The decision by whom now?
    Ms. Pelosi. By the Trust.
    Mr. Regula. As to how to utilize it?
    Ms. Pelosi. As to who gets it, for future use. I think 
there were four leading candidates. I have kept my distance 
from it.
    Mr. Regula. To use the building?
    Ms. Pelosi. To use the area.
    Mr. Regula. Yes.
    Ms. Pelosi. The building will come down because 
seismically, it is just too costly.
    Mr. Regula. Okay.
    Ms. Pelosi. But when you come out again, we will have news 
of the decision. This will be the biggest money-maker for the 
Presidio and will put us on course towards self-sufficiency.
    Mr. Regula. So you would anticipate a new building?
    Ms. Pelosi. Well, a new configuration of the use of the 
developed space. It may be a series of buildings, small 
structures.
    Mr. Regula. How is the program utilizing the airfield? 
Didn't the Haas Fund give $10 million for the Crissey Field?
    Ms. Pelosi. Crissey Field, yes.
    Mr. Regula. Is that moving along?
    Ms. Pelosi. Judy, how is the Crissey Field coming?
    Ms. Lemons. It is on schedule.
    Ms. Pelosi. It is on schedule, yes. And the clean-up is a 
big important part of what I am asking for too because that is 
the one thing that can jeopardize our----
    Mr. Regula. Is the Army going to help with pollution 
problems there?
    Ms. Pelosi. The remediation----
    Mr. Regula. The remediation?
    Ms. Pelosi [continuing]. Military responsibility, yes.
    Mr. Regula. Good.
    Ms. Pelosi. And so we always appreciate your good offices 
in helping them understand how self-sufficiency is predicated 
on the remediation.
    Mr. Regula. How is the program to re-locate the access to 
the Golden Gate coming?
    Ms. Pelosi. We don't have any news on that.
    Mr. Regula. That is in the future?
    Ms. Pelosi. That is long-term, but certainly one that we 
are all interested in working on since it has a big impact on 
the Presidio. But, as I say, right now, the focal point is this 
decision on what to do with Letterman Hospital. Thank you for 
your interest and your very specific knowledge of this 
magnificent resource. Without your support, obviously, we 
wouldn't even exist.
    Mr. Regula. Well, I think the combination of the community 
and the Park Service and the military all teamed up with a 
little leadership from you, has made something worthwhile 
there.
    Ms. Pelosi. Without your cooperation, leadership----
    Mr. Regula. And the public is going to benefit.
    Ms. Pelosi. Thank you, Mr. Chairman. Well, we are all very 
grateful to you in our community.
    Mr. Regula. What are they going to do with the old 
buildings, the dormitory type?
    Ms. Pelosi. Well, they are right now, some students are in 
them. In other words, they are in different categories 
depending on their condition.
    Mr. Regula. Yes.
    Ms. Pelosi. But shall we say with the minimal investment of 
money, they are being used----
    Mr. Regula. Utilized.
    Ms. Pelosi [continuing]. And then there will be some phase 
out.
    Mr. Regula. Mr. Hinchey, have you been to the Presidio?
    Mr. Hinchey. Well, Mr. Chairman, yes. As a matter of fact, 
many years ago, I was stationed at Treasure Island. And I 
became familiar with the Presidio during that period of time, 
as I became familiar with most of San Francisco. [Laughter.]
    Ms. Pelosi. And we of you. [Laughter.]
    Mr. Hinchey. I had a chance to go back a number of times, 
and I am really, really very excited with what you are doing at 
the Presidio, Nancy, the leadership that you have exercised 
there. I think it is a terrific thing, and I know that the 
chairman has supported it. And I am happy to be a small part of 
it.
    Ms. Pelosi. Well, you are very nice. To my colleagues in 
the House of Representatives, I have said over and over, you 
may all consider it part of your legacy because it took many, 
many votes. But our chairman has really been critical to its 
success. Lots of Members have responded to me to say, not so 
fast in talking about our legacies. But we are looking down the 
road at that.
    Mr. Regula. Fort Baker--is anything happening there?
    Ms. Pelosi. Well, that may be a next year decision, Judy? I 
mean that seems to be the recommendation from Mr. Murtha that 
we may--is there something new on Fort Baker?
    Ms. Lemons. I think he is working on it.
    Ms. Pelosi. Oh, it may be this year. But that is going to 
come out of somebody else's pocket.
    Mr. Regula. We hope.
    Ms. Pelosi. We look for as many pockets as possible.
    Mr. Regula. That needs a deep pocket. [Laughter.]
    Ms. Pelosi. And I tried to keep only the very special ones 
for you, Mr. Chairman.
    Mr. Regula. Thank you.
    Ms. Pelosi. But along that line, you recall on your recent 
trip a visit to the Maritime National Historical Park. We have 
a request for $2 million in funding for the CA Thayer, an 
historic ship. And last year, you graciously put $100,000 into 
a feasibility study for a West Coast Immigration Museum. We 
hope there would be continued support for that.
    And I just wanted to put in a word for the hazardous fuel 
reduction funding and the Land and Water Conservation Fund, 
which are very important to California, as well as the 
California Desert.
    And, in closing, the National Endowment for the Arts, I 
support the President's request for $150 million for the NEA. 
Again, with greatest appreciation to you for your support for 
the Presidio and all of our projects and however it turns out, 
I know we will have our due consideration. I can't askfor more 
than that except hope.
    Mr. Regula. Thank you very much.
    Ms. Pelosi. Thank you, Mr. Chairman. Loretta, thank you. 
And, Mr. Hinchey, it is so nice to see you.
    [The statement of Ms. Pelosi follows:]

[GRAPHIC(S) NOT AVAILABLE IN FORMAT]

                                           Tuesday, April 20, 1999.

               NPS: GATEWAY NRA [CHARLES PARK/RIIS PARK]


                                WITNESS

HON. ANTHONY D. WEINER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEW YORK
    Mr. Regula. Mr. Weiner.
    Mr. Weiner. Good afternoon, Mr. Chairman, Mr. Hinchey.
    Mr. Regula. Okay, we are going to change shifts here while 
I go give a one minute speech on the floor of the House.
    Mr. Peterson. [presiding] Please proceed.
    Mr. Weiner. Good afternoon. Thank you, Mr. Chairman, Mr. 
Hinchey, for your time and consideration. I won't take much 
time. Gateway National Recreation Area, the largest and first 
urban national park in the country, has the great benefit to me 
and my constituents of being in my district. Gateway includes 
many well-known sites, including Ellis Island, but it also 
includes some less known sites in Riis Park and in Charles 
Park, which are two corners of the district that are very 
heavily used by New Yorkers of all stripes, and they have also 
frankly been badly neglected.
    We finally began to reverse that neglect under the 
leadership of this subcommittee when Riis Park received 
allocations to begin rehabilitation. Congress has appropriated 
over $17 million towards that end in years ending in Fiscal 
Year 1998. Last year and in this year's budget, there is no 
presidential allocation for the Riis Park complex, which 
includes an auditorium, includes a bathhouse and other safety 
improvements around Riis Park.
    I am here today to ask that re-start, we jump-start that 
process with a $5 million allocation which would allow the 
construction to begin on the next phase of the Riis Park 
development which is a natatorium.
    In addition, there is a small area of Gateway National Park 
that is unfamiliar to most people, but is very important to the 
community that it sits in called Charles Park. Charles Park is 
an area with ball fields, a play area, a walking path, an area 
where folks go fishing. It has received no Federal allocations 
for improvements I believe in its entire history and, frankly, 
it shows. The courts are in terrible disrepair. The ball fields 
are in many cases unusable. And this is a true urban park in 
that people from all around Queens and all around New York City 
come to make use of Charles Park.
    While it needs a great deal of work, it is estimated by the 
administrators of Gateway that a $2 million allocation will 
allow us to bring that playing area up to a position where it 
is safe and relatively clean. And I would urge the subcommittee 
to give that every consideration.
    I know very well the restraints and constraints that you 
are operating under, and I fully understand them. But I would 
urge you to give this your consideration if you could.
    Mr. Peterson. We thank you.
    Mr. Weiner. Thank you very much.
    Mr. Peterson. Any questions?
    Mr. Hinchey. Mr. Chairman, yes. I just wanted to--
    Mr. Peterson. Mr. Hinchey?
    Mr. Hinchey [continuing]. Encourage Mr. Weiner in his 
advocacy for this program. I think it is an excellent program, 
and a testimony to that is the number of people who visit. I 
think there are something like two million people a year who 
come to Riis Park.
    Mr. Weiner. You bet. It is extraordinarily heavily used and 
for those of us who live in New York City, this is our national 
park. It perhaps is not as well-known as some of the others 
that you consider here, but it is very heavily visited and it 
is one of those true cross-section gathering places. And, 
unfortunately, we have not done a good job of maintaining it. 
And I am hopeful that this will be a beginning of a process to 
reverse that.
    Mr. Hinchey. We appreciate what you are trying to do there, 
and we sent our recommendation to the chairman to support your 
efforts at Riis.
    Mr. Weiner. Thank you very much.
    Mr. Peterson. We thank you for coming today.
    Mr. Weiner. Thank you for your time, Mr. Chairman.
    Mr. Peterson. Yes, sir.
    [The statement of Mr. Weiner follows:]

[GRAPHIC(S) NOT AVAILABLE IN FORMAT]


                                           Tuesday, April 20, 1999.

                     HISTORIC PRESERVATION PROGRAMS


                                WITNESS

HON. JAMES E. CLYBURN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    SOUTH CAROLINA
    Mr. Peterson. The gentleman, the Honorable James Clyburn 
from South Carolina.
    Mr. Clyburn. Thank you very much, Mr. Chairman and members 
of the subcommittee. Thank you so much for allowing me to be 
here today. I have submitted testimony for the record, and I 
would like to just highlight what is in that submission, if I 
may.
    Let me begin by thanking this subcommittee for all the work 
it has done with us in past years on the Historically Black 
Colleges Historic Preservation Program. As you know, we started 
out some years ago to try and rehabilitate historic buildings 
on the campus of Historically Black Colleges and Universities. 
In past years, we have had $11.2 million appropriated for this 
program. The President's submission this year has $15 million 
in it. Of course, to fully fund the program, $17.8 million 
would get us to what the full authorization is, and I am asking 
the subcommittee to consider giving the rest of the funds for 
this program so that those schools that have been waiting for a 
long and still, as you know, having buildings to continue in 
disrepair, it increases the cost of rehabilitating those 
buildings the longer we wait. So we would like to have full 
funding for that, which would be $17.8 million.
    Also, I am asking this committee for support of the 
Historic Preservation Fund in South Carolina. And though wehave 
not asked for any set amount of increase, we would appreciate your 
giving some favorable consideration to increasing that program as well.
    Also, Mr. Chairman and members of the subcommittee, the 
third thing that you will find in my report has to do with the 
National Service to Conduct Special Resource Studies. We are 
asking for $500,000 for that. Now this program is not in my 
district. I am working with Congressman Spence, who is working 
with--it is Penn Community Center is what it is, which was the 
first school for blacks in South Carolina. It is in what we 
call the Gullah part of the State, the Gullah culture is 
something that is indigenous to the Sea Islands of South 
Carolina, Georgia, and Florida. And we would like very much to 
have this program appropriated as well.
    Mr. Chairman, I think that the fourth item that I am 
interested in is the South Carolina Heritage Corridor. I 
believe, if my memory serves, there is a Heritage Corridor in 
Pennsylvania and you may be familiar with it. This program, 
there is a 240-mile stretch in South Carolina that follows the 
old Hamburg Railroad that comes into the State, up part of the 
State, comes down through the Third Congressional District and 
ends in my district, though most of it is in the Third 
Congressional District, Lindsay Graham's district. I am very, 
very interested in this project because I think it helps to 
tell the story of South Carolina and its people in a way that 
nothing else could. And I am asking for $1 million 
appropriations for that program.
    And, last, Mr. Chairman, I am asking for a land acquisition 
project, $3 million for the Waccamaw National Wildlife Refuge; 
$1 million for the Chattooga acquisition in the Sumter National 
Forest; $4 million for the North Tibwin acquisition in the 
Francis Marion National Forest; and $2.5 million for the ACE 
Basin Refuge.
    We are asking for favorable consideration of all of these 
items and hope that the subcommittee will look with favor upon 
them.
    Mr. Peterson. We thank the gentleman for his fine 
presentation. Mr. Hinchey, any questions?
    Mr. Hinchey. Well, they are certainly all worthy projects, 
Jim.
    Mr. Cramer. I just want to congratulate my colleague for 
the HBCU issue that you are bringing before the committee 
today. I have Alabama A & M University in my district and we 
have not yet been able to share in these funds, but historic 
preservation on that campus has deteriorated to the point that 
we have got buildings falling in.
    Mr. Clyburn. Absolutely.
    Mr. Cramer. And buildings that should be preserved to 
preserve the history of that fine institution. I think it is 
deserving of full funding for the program.
    Mr. Clyburn. Well, thank you so much. And I think if we get 
down to this Alabama, if my memory serves, will be included in 
this round. And thank you so much.
    Mr. Cramer. Thank you.
    Mr. Peterson. Thank you for your very fine presentation.
    [The statement of Mr. Clyburn follows:]

[GRAPHIC(S) NOT AVAILABLE IN FORMAT]

                                           Tuesday, April 20, 1999.

                         DOE: FOSSIL ENERGY R&D


                                WITNESS

HON. MIKE DOYLE, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    PENNSYLVANIA
    Mr. Peterson. Next, we hear from the gentleman from 
Pennsylvania, the Honorable Mike Doyle.
    Mr. Doyle. Thank you, Mr. Chairman. It is a pleasure to be 
here in front my fellow colleague from Pennsylvania and the 
members of this subcommittee and I appreciate the opportunity 
to outline my funding priorities for my district in the subject 
areas that fall under the jurisdiction of this subcommittee.
    Please know that I recognize the challenges you face, and I 
appreciate your efforts to prioritize this important funding in 
a manner that meets the needs of the American people.
    My testimony will center on the subject of fossil energy 
research and will also touch on the Steel Industry Heritage 
Area and some other research important to my constituents.
    I would first like to thank the committee for the hard work 
and dedication its members have shown to advance research and 
efficient use of coal oil and natural gas. These programs and 
their benefits are not very well-known, and I would like to 
commend Chairman Regula and the committee for their efforts in 
the face of what often seems like overwhelming public ignorance 
about the benefits of these programs. I would particularly like 
to thank the committee for their important work during last 
year's floor debate on the Interior appropriations bill when 
fossil energy research programs were saved from what would have 
been devastating cuts in funding. I am eager to work with the 
members of the committee again during this year's floor debate, 
which I am sure will be a contentious one.
    I would like to highlight some of the important work being 
conducted at the FETC, which is located in Pittsburgh, 
Pennsylvania in my district and in Morgantown, West Virginia. 
Along with my colleagues Alan Mollohan, Ron Klink, and Frank 
Mascara, I am forwarding to the committee a formal written 
request for funding for the FETC. Perhaps the most fascinating 
program at FETC I would like to highlight is the area of 
computer simulation of combustion and other energy processes. 
Combustion simulation is one of the areas that has been 
highlighted by Energy Under Secretary Ernie Moniz as offering 
the highest potential at this time despite it having been given 
little attention in DOE's research portfolio so far.
    Another area highlighted by Under Secretary Moniz in his 
ongoing analysis of DOE's research portfolio is carbon 
sequestration. Additional funding for sequestration and 
combustion simulation are urgently needed now to build on these 
promising areas of work and to attract the best researchers.
    Fuel cells, meanwhile, with their amazing near zero 
emissions potential, are a lot nearer to commercial production; 
and I urge the committee to reverse the administration's 
proposed funding reduction for fuel cells.
    I would also like to express strong support for the 
administration's funding for methane hydrates and Vision 21. 
Methane hydrates is a tremendous energy sources. DOE's work on 
methane hydrates will also address the important practical 
consideration of how to safely conduct oil drilling in the 
presence of hydrates.
    And finally, in the area of fossil energy research, I would 
like to thank the committee for the consideration they have 
given to the program direction line item at FETC. FETC and its 
prime contractor do not tax the programs that run through it in 
the same way that other DOE labs do, but to make up for that 
lost revenue stream, they do need a healthy program direction 
line item.
    I respectfully request that the committee continue its 
support for increasing FETC's program direction line item.
    Before I finish, I would just like to say a few words about 
some important non-fossil energy projects that are under 
consideration by this committee. The Steel Industry Heritage 
Project and its related entities are a very dynamic group that 
is already working and planning for interpretive centers, a 
mill restoration, and tours of the old heavy industry that 
occupied Pittsburgh for a century. I would like to express my 
strong support for continued maximum authorized funding for the 
Steel Industry Heritage Project.
    And finally, I would like to speak to DOE's collaboration 
with the Integrated Building and Construction Systems 
Consortium. They are working hard to build affordable, but more 
energy efficient housing around the country, including in 
Pittsburgh at the Somerset at Frick Park Project. I would like 
to express my support for this innovative project.
    At the same time, I want you to know I understand the bind 
that this may place on members of the Committee, and I 
appreciate your hard work in making these important 
determinations. I look forward to working with you when your 
bill comes to the floor.
    Mr. Chairman, that concludes my remarks. Again, I 
appreciate the opportunity to testify before the subcommittee, 
and I am happy to answer any questions you might have. Thank 
you.
    Mr. Peterson. I thank the gentleman from Pennsylvania for a 
fine presentation. Does anyone have any questions.
    Mr. Doyle. Thanks, Bud.
    Mr. Peterson. Thank you.
    [The statement of Mr. Doyle follows:]

[GRAPHIC(S) NOT AVAILABLE IN FORMAT]

                                           Tuesday, April 20, 1999.

            LOWER RIO GRANDE VALLEY NATIONAL WILDLIFE REFUGE


                                WITNESS

HON. RUBEN HINOJOSA, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    TEXAS
    Mr. Peterson. Next, the Honorable Ruben Hinojosa from 
Texas. Did I do that right.
    Mr. Hinojosa. Hinojosa is right.
    Mr. Peterson. Hinojosa.
    Mr. Hinojosa. It is getting easier all the time, is it not?
    Thank you, Mr. Chairman. It is a pleasure to be here before 
you and members of your committee. I presented my presentation 
in writing, and I just have a summary of it. I would like to 
talk regarding the request--and I want to go on record--in 
support of a $5 million appropriation for the Rio Grande Valley 
National Wildlife Corridor, an area that extends from El Paso, 
in the western tip of Texas, all the way to Brownsville, in the 
most southern tip. It is an area that is represented by five 
Congressmen, starting with Reyes in El Paso, then Henry 
Bonilla, then Ciro Rodriguez, and then I am the next one, 
Hinojosa, and the fifth one is Congressman Ortiz in 
Brownsville. So it is a big area. It is an area that for over 
10 years has ranked as one of the Interior Department's top 
priorities. This year, 1999, it was ranked as the third most 
important one.
    The refuge protects incomparable biological values. The 
lower Rio Grande Valley, where I come from, is an area as big 
as Delaware. It is home to the greatest biodiversity for any 
similar sized area of the country. The 465 bird species that 
reside in or migrate through the Rio Grande Valley constitute 
half of all bird species found in the United States. Sixty of 
the bird species live in no other part of the country. More 
than 200 species of mammals, reptiles, amphibians, and fish 
also live in that region. And so do 300 species of butterflies 
and over 1,200 species of plants.
    Because less than five percent of the Valley now is in 
natural vegetation, this biological treasure is--rather, this 
biological treasure house is in danger. Twenty-one species are 
federally listed as endangered or threatened. An additional 35 
are considered to be imperilled in Texas.
    The Lower Rio Grande Valley National Wildlife Refuge is the 
key to ensuring survival of the region's biodiversity. Since 
1979, we are at two-thirds of our goal. We are well on our way 
to completing the corridor, having acquired 90,000 acres out of 
our 130,000 acre goal that we set out back 20 years ago. So we 
have done a good job, and we are almost there. We actually have 
land in El Paso and we have land in Brownsville. There are 
pieces that we need to get in order to connect it from El Paso 
to Brownsville.
    The cost of land will never be less than it is now. And, as 
a former businessman, I can assure you I recognize the 
importance of getting the most out of every dollar 
appropriated. That is why it is so urgent we continue to 
receive appropriate funding.
    This is an investment that is not just local, not just 
regional--it is an investment that is national. As such, it is 
one of the wisest and most discerning outlays we can make in 
our heritage as a nation.
    In conclusion, I want to say that the past support of your 
committee has been invaluable, and we hope we can count on your 
continuing to protect this unparalleled diversity. There is a 
large group of organizations who support this project that I am 
testifying before you about--Lone Star Chapter of the Sierra 
Club, Texas Nature Conservancy, the American Butterfly 
Association, the Lower Laguna Madre Foundation, the Native 
Plant Project, the Frontera Audubon Society, the Valley Chamber 
of Commerce, the Chambers of Brownsville and Harlingen, and 
McAllen--widespread support throughout the region.
    And so, I urge you to give strong consideration to this. 
Help us get it finished. Thank you.
    Mr. Peterson. The Chair thanks the gentleman.
    Mr. Hinchey. I just want to say, Ruben, it is a great 
project and very worthwhile. And I, frankly, was not aware of 
the extraordinary biodiversity that exists there in the valley, 
and that alone is reason to be doing the kind of effort that 
you are putting forth. So I congratulate you on it. We will do 
everything we can to be helpful.
    Mr. Hinojosa. Thank you. Thank you very much. It is a 
pleasure to be here.
    Mr. Peterson. Thank you.
    [The statement of Mr. Hinojosa follows:]

[GRAPHIC(S) NOT AVAILABLE IN FORMAT]

                                           Tuesday, April 20, 1999.

                   MIDEWIN NATIONAL TALLGRASS PRAIRIE


                                WITNESS

HON. JERRY WELLER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    ILLINOIS
    Mr. Peterson. Next, we will hear from the gentleman from 
Illinois, the Honorable Jerry Weller. Welcome.
    Mr. Weller. Thank you, Mr. Chairman. Good to see you and 
thank you for the opportunity to appear before your 
subcommittee again. And it is an annual opportunity for me, and 
I very much appreciate the attention that you have given.
    Mr. Chairman, with your consent, I would like to submit a 
statement for the record, and then summarize my statement. My 
staff, I believe, has submitted the proper number of copies 
that is requested.
    But let me summarize why I am here today. I am here again 
to ask this subcommittee's continued support for the continued 
development of the Midewin National Tallgrass Prairie, which is 
a unit of the United States Forest Service.
    And, today, I am asking for an earmark of $1,610,000 in 
funds for the continued development of the Midewin National 
Tallgrass Prairie, which was the first tallgrass prairie 
created at the Federal level, and is also the largest. We now 
have two.
    For those--you may recall in 1995, we introduced the 
legislation, which received bipartisan support for 
redevelopment of the Joliet Arsenal, which was, at the time, 
the largest single piece of property in northern Illinois, 
24,000 acres of land. The entire Illinois delegation, both 
Democrats and Republicans, embraced this initiative, and itwas 
signed into law by the President in 1996.
    Out of this legislation came the Midewin National Tallgrass 
Prairie, 19,000 acres, which will be available for generations 
to come. Also, might note with increased priority given to 
setting aside of open space, particularly in suburbanizing and 
developing areas, that we doubled the amount of open space in 
the south suburbs with the enactment of this legislation by 
this Congress in 1996.
    Midewin, of course, is home to a number of endangered 
species, such as the Upland Sand Piper, and clearly was 
designed to set aside, to recreate, the native prairie that 
existed prior to the development of the area--prior to its 
settlement--but also to set aside valuable space for recreation 
and wildlife habitat.
    This subcommittee, under the leadership of, of course, 
subcommittee chairman Ralph Regula, and the previous ranking 
member, Sid Yates, who took a special interest in this 
particular project, has provided $7 million in funding for this 
prairie's development over the last several years. And it is 
well on its way to becoming what has been nicknamed by many 
conservation and environmental groups the Yellowstone of the 
Midwest, something we are all very proud of.
    Our request is a small request of $1.61 million. 
Specifically, we wish to use these funds, $1,460,000 for 
operations; $100,000 for trail construction; and $50,000 for 
fire protection and prevention.
    It is important to note that this funding is necessary to 
keep the Midewin on track, to make it open for the public as 
soon as possible. It continues to have strong support. What was 
exciting most about the development of the Midewin National 
Tallgrass Prairie was that it was a real partnership between 
business and labor, conservation, environmental groups--through 
all, it was a bipartisan effort locally.
    I also want to note that the Midewin National Tallgrass 
Prairie has been an example of a strong partnership, not only 
between the Federal Government and the State government--with 
the Illinois Department of Natural Resources--but also with a 
lot of volunteer groups and the private sector. In fact, the 
private sector has stepped forward because of the local 
business community's strong support, as well as a lot of 
volunteers, and they have contributed over $2.3 million private 
sector support in the last two years for the development of the 
Midewin Prairie. So clearly, this is a success.
    We believe in the Illinois delegation that this, of course, 
request will help move forward and continue to develop what 
clearly is what we know as the Yellowstone of the Midwest. So I 
would ask your continued support. I ask your continuing 
investment in what clearly is an important project in the 
Chicago region.
    Mr. Peterson. The Chair thanks the gentleman from Illinois. 
Any comments?
    Mr. Hinchey. That is a very important project, Jerry, and I 
think you just stepped in just in time. It is a very timely 
initiative back in 1995 that started this going. So, I am very 
proud of that.
    Mr. Weller. And I was very appreciative of the support I 
received from my colleagues, including yourself. Thank you very 
much. I thank you for the chance to be with you today.
    Mr. Peterson. Thank you. Thanks, Jerry.
    Mr. Weller. Thank you.
    [The statement of Mr. Weller follows:]

[GRAPHIC(S) NOT AVAILABLE IN FORMAT]

                                           Tuesday, April 20, 1999.

                   VARIOUS INTERIOR-RELATED PROGRAMS


                                WITNESS

HON. GEORGE MILLER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Peterson. Next, the Chair will welcome the gentleman 
from California, the Honorable George Miller.
    Mr. Hinchey. How are those hips, George?
    Mr. George Miller of California. The bad hip is doing 
great. It is getting better all the time. Thank you.
    Thank you, Mr. Chairman, for making this time available, 
and I will be brief. I have a longer statement that I would 
like to put in the record on behalf of a number of the programs 
that we share on the Authorizing Committee, along with the 
Appropriations Committee.
    But I am really here to talk about an effort--I just came 
from a large bipartisan rally on behalf of the bills that 
Congressman Young introduced, H.R. 701, and the legislation I 
introduced, H.R. 798, the Resources 2000 bill, that have been 
introduced to provide funding for many of the programs that are 
before this committee--many of the programs that this committee 
has struggled with over the years to try and provide adequate 
funding for, but obviously have never been given adequate 
funding in the--from the Land and Water Conservation Fund.
    The Resources 2000 bill and Congressman Young's bill are 
much larger legislation. But one of the key efforts that is 
before this committee in that legislation is the Urban Parks 
and Renewal program, where we have over 200 communities across 
the country who have put up matching money who are waiting for 
this to be funded. The President put it in his--in his budget, 
and we would certainly hope that this committee could see its 
way to putting money in theirs for urban parks. It is, as you 
know, police organizations all across the country, all of the 
various sports organizations--Major League Baseball, the NFL--
we just had Terrell Davis from the Denver Broncos over. He 
testified in the Senate on behalf of it, and then came to the 
rally. Little League, Pop Warner, the soccer leagues--all of 
them support this--to try to reclaim and to improve on a 
matching basis with the cities' recreational facilities for 
young people. The sporting good manufacturers have been very, 
very helpful in this effort, bringing that kind of bipartisan 
support and the support of local governments, who use this 
money I think in a very wise fashion. But unfortunately, the 
Congress has yet to appropriate any money for this over the 
last several years.
    I would also, then, call your attention to another matter 
quite far a field. But I would continue to favor eliminating 
the $11 million in funding for the Northern Mariana Islands 
since they have no ability to provide local funding. They have 
a $80 million backlog of Federal monies that they cannot spend 
because they do not have the local match. And I think clearly, 
in this year when resources are so desperate, that that money 
could be better utilized within your jurisdiction.And the other 
one, obviously, that sometimes is more a problem in the Senate than 
here, but obviously environmental riders have hampered this legislation 
in one form or another, and we would hope that we would not have those 
efforts--some of them are dealing with mining regulations, with crude 
oil royalty payments, and efforts to undermine the National 
Environmental Policy Act and the Endangered Species Act. And we all 
know the kind of problems that creates for us at the end of the 
session.
    So, those are a couple of the highlights, but in my longer 
statement I go into much more depth on matters that are of 
concern to members and the Resources Committee in its 
authorization responsibilities.
    I thank for your time.
    Mr. Peterson. The Chair thanks the gentleman from 
California. Does the gentleman from New York have any 
questions?
    Mr. Hinchey. Mr. Miller, thank you for your leadership on 
these issues. And it is a pleasure to work with you.
    Mr. George Miller of California. Thank you and we look for 
a great budget out of you--I mean, a great bill out of you 
guys. [Laughter.]
    Mr. Peterson. The best.
    [The statement of Mr. George Miller of California follows:]

[GRAPHIC(S) NOT AVAILABLE IN FORMAT]

                                           Tuesday, April 20, 1999.

    COLUMBIA RIVER GORGE NATIONAL SCENIC AREA ACT, LEWIS AND CLARK 
              BICENTENNIAL, AND METRO GREENSPACES PROGRAM


                                WITNESS

HON. EARL BLUMENAUER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    OREGON
    Mr. Peterson. Next, we welcome the gentleman from Oregon, 
The Honorable Earl Blumenauer. Okay.
    Mr. Blumenauer. Thank you very much. I appreciate an 
opportunity to visit with you for a couple of minutes. In 
particular, I wanted to focus, if I could, on one of the 
treasures of the United States that ranks with the Grand Canyon 
and with Yellowstone, Yosemite, and Mr. Weller's project I 
missed what the Yellowstone of the Midwest was, but I wanted to 
talk for a moment about the Columbia River Gorge, really a 
spectacular natural wonder, stretching 85 miles along the 
Columbia River, which is a unique partnership between the 
Federal Government and the local government. It contains 
Multnomah Falls, one of the highest waterfalls in the United 
States, and the single most visited attraction in the National 
Forest Service.
    Thirteen years ago, the Congressional delegations of Oregon 
and Washington and the Reagan Administration put together 
legislation establishing a nationally designated scenic area. 
And, in conjunction with the local jurisdictions and the 
Federal Government developed a long-term management plan for 
all activities affecting the Gorge. The main components are an 
ongoing partnership in land acquisition, recreational 
facilities, and economic development. I would like to thank the 
subcommittee for its ongoing leadership in providing money for 
land acquisition from willing sellers to add to the inventory 
in this magnificent area. Four million dollars in the last 
appropriations cycle allowed the Forest Service to make some 
substantial progress in securing some of the Gorge's most 
treasured visual resources.
    However, there is a lot more to be done under the 
comprehensive land acquisitions strategy in the Gorge. There 
are critical parcels. And sadly, the President's budget 
requests only a million dollars for land acquisition in the 
next Fiscal Year.
    I urge that this subcommittee consider an appropriation of 
$5.5 million for land acquisition. It will save millions and 
millions in the future, and preserve property of incomparable 
value.
    There is also recreation facilities in the scenic area. 
There was $10 million for recreational development. Although it 
has existed for 10 years, much of the funding has not yet been 
appropriated. Improved recreational facilities and river access 
in the national scenic area is a boost for this area on both 
sides of the river. There is a comprehensive recreation 
development plan to improve recreational access to sites in 
both Oregon and Washington. I am sure Mr. Nethercutt can give 
you further detail. I am here requesting the $4.5 million for 
the six projects on both sides of the river--the Dalles 
Riverfront Trail, West Mayer State Park, Mosier Waterfront 
Park, Phases One and Two, Viento State Park, Phase One and Two, 
Drano Lake, and Steigerwald National Wildlife Refuge, Phase 
Two.
    Finally, in areas of economic development--the National 
Scenic Act, when it was passed in 1986, mandated the Federal 
Government to not only protect and enhance the natural, 
cultural, and scenic resources, but the vitality of the 
region's economy as well. This is important not just to these 
people, but also to send a signal to people around the country 
that we are trying to work with in preserving these areas that 
we can do both. We can preserve the recreational, environmental 
standards, and we can, in fact, do so in a way that does not 
decimate local economies, but in fact can enhance them. We have 
made some progress, but of the original $10 million 
authorization, we have approximately a third that has remained 
unappropriated; and we would hope that you would consider 
following through with the designation of those for the 
economic development in the Gorge Scenic Area, and have them 
divided between the two States.
    Finally, I could not appear before the committee without 
making some mention of the Lewis and Clark National Historic 
Trail. The President's Fiscal Year 2000 budget contains a 
little over $2 million for the Lewis and Clark National 
Historic Trail. This was a phenomenal occurrence two centuries. 
We are coming up on the bicentennial. It stands as a testimony to one 
of the most remarkable and productive scientific and military 
explorations in all of American history. It is truly a national 
history. It touches on a wide expanse of our nation's States, including 
a number of people who I think will probably be appearing before the 
committee. I have been working with Mr. Bereuter to try and make sure 
that we do this properly. I think what is attended Undaunted Courage, 
the book that I think has captivated a number of people in Congress 
recalling that amazing achievement that a small amount of money would 
pay huge dividends to states along the trail and help us focus on this 
important part of Americans' heritage.
    I will stop at this point, Mr. Chairman. I would call your 
attention to a slightly more elaborate statement that I have 
attached for your record, and deeply appreciate your courtesy.
    Mr. Peterson. The Chair thanks the gentleman for his 
presentation.
    Thank you.
    [The statement of Mr. Blumenauer follows:]

[GRAPHIC(S) NOT AVAILABLE IN FORMAT]


                                           Tuesday, April 20, 1999.

       PAOLI BATTLEFIELD AND JOHN HEINZ NATIONAL WILDLIFE REFUGE


                                WITNESS

HON. CURT WELDON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    PENNSYLVANIA
    Mr. Peterson. Next, we will hear from the gentleman from 
Pennsylvania, the Honorable Curt Weldon, who is going to give 
us an update on Kosovo.
    Mr. Weldon of Pennsylvania. Thanks for having me here, Mr. 
Chairman. And to my good friend, Dobry den (Russian for ``Good 
day'').
    Mr. Peterson. W.D. Dobry den.
    Mr. Weldon of Pennsylvania. It is great to be here, and I 
really want to just testify on two projects, both of which I 
think exemplify the kind of approach that we should take at the 
Federal level to preserve and protect national assets. And let 
me say, I fully understand the difficult problem you have with 
your bill. And I understand the difficult task of trying to 
prioritize everything. We are having the same problem with our 
defense bill, but I have Members' requests of $4.5 billion more 
than the President's request, and no money to fund them. I 
understand the situation that you all are facing as you go 
through this year. But I think these requests are unique in 
several regards, and I will just touch upon them briefly.
    The Paoli Battlefield site in Chester County is one of the 
last remaining unprotected sites of a Revolutionary War battle 
in the history of our country. Fifty-three Americans were 
killed there in a surprise sneak attack by the British, where 
they used bayonets and basically massacred the soldiers. In 
fact, it was such a gruesome fight that they just buried the 53 
patriots right there, and it became the battle cry for the rest 
of the Revolutionary War as they then approached Valley Forge 
and went over--and Washington crossed up at the Delaware River 
crossing to surprise the British and turn the tide of the 
battle and win the Revolutionary War. The cry of ``Remember 
Paoli!'' became a key cry in Revolutionary War history.
    The 40-acre site where the 53 patriots are buried is 
adjacent to this property--it is under tremendous pressure to 
be developed. In fact, the institution that owns it right now--
the Malvern Preparatory School has told the local community--
Mr. Chairman, how are you--that if action is not taken by the 
community by September of this year, they will sell the site 
for development, either for housing development or for economic 
development activities. And the site of the battle will be lost 
forever. So the local community, as is I think unusual, did not 
decide to come and beg the Federal Government for the money. 
They went out, at my suggestion, two years ago and started a 
massive fund raising effort to raise the $2.5 million that is 
going to be required to protect the Paoli battlefield site. 
They have raised $500,000 to date. And they have a $500,000 
commitment from Governor Ridge in the Commonwealth of 
Pennsylvania. So the local folks have already raised a million 
dollars. What they are asking for is a dollar for dollar match 
so that the $2.5 million can be committed to let the sellers of 
this property know that the money will be available, and that 
they should not proceed with selling the property--the Paoli 
site, Mr. Chairman, which is the last remaining unprotected 
site of a battle of the Revolutionary War, where 53 American 
patriots are buried, and which is now under tremendous pressure 
for development. It is in the heart of the mainline of Chester 
County, a very affluent area, and if we do not take steps to 
protect this site, it will, in fact, be developed.
    Mr. Regula [presiding]. Who owns it now?
    Mr. Weldon of Pennsylvania. It is owned by the Malvern 
Preparatory School, and they want to sell it for the 
preservation of the site. And it is still in its original 
condition as it was in the battle two hundred and some--221 
years ago. But if they do not get a positive signal by 
September of this year, they are going to sell the property. We 
estimate the value at $2.5 million. The local folks have raised 
a million dollars, half from the State, half from their own 
fund raising efforts, which I have helped them with. What they 
are asking us to do is to provide a dollar for dollar match. So 
our max for the Federal Government would be $1.25 million.
    Mr. Regula. Does this fit in with an existing Federal 
property?
    Mr. Weldon of Pennsylvania. Yes, it is close to Valley 
Forge National Park. It is a part of that campaign. The 
National Park Service has now come out in favor. They are 
working with us, and, in fact, we expect the authorizing bill 
to be passed and become law by June of this year.
    Mr. Regula. Oh, that is my next question. You do have an 
authorizing bill moving?
    Mr. Weldon of Pennsylvania. Yes. And that is moving very 
quickly. Jim Hansen has already passed it out of subcommittee. 
The full committee has passed it out. Senator Specter passed 
the same bill in the last session. We do not anticipate any 
problem on the Senate side. So this would simply be a request 
to match on a dollar for dollar basis the money to protect this 
site.
    The second project is not even in my congressional 
district. It is in the City of Philadelphia. It is the largest 
urban national wildlife refuge. I have an interest in refuges. 
I am the only Republican on the Migratory Bird Commission, 
where I sit with John Dingell. Our goal was to protect wildlife 
refuges. This one was neglected for years. It is currently in 
Bob Brady's district. It used to be in my district until they 
moved me out of the city. And here, while this wildlife refuge 
has never been properly brought up to what the Federal 
Government originally thought it should be----
    Mr. Regula. Is it a Federal refuge now?
    Mr. Weldon of Pennsylvania. It is a Federal property now. 
It is called the John Heinz National Wildlife Refuge at 
Tinicum.
    Mr. Regula. Okay.
    Mr. Weldon of Pennsylvania. Since 1980, we have passed $19 
million of authorization for this site, but we have not spent 
any of the money. It has just been dormant there. Again, as an 
example, I convinced the local refuge manager, Dick Nugent and 
the Friends of Tinicum to raise money. They have raised $4.5 
million of private funding, $4.5 million. The National 
Environmental Education Center is being constructed starting 
this summer. That is a go. We have raised the money for that. 
We are not asking the Federal Government to fund this, but to 
go along with that they need administrative offices. 
Foundations and private donations will not pay for the 
headquarters operations of the refuge. And they are asking us 
to commit $2.9 million to pay for the administrative portion of 
the complex. That would, then, supplement the $4.5 million 
project that is already going forward. So it is again--in this 
case, it is almost a two for one, of private and foundation for 
every one dollar that we put in. And you will have, in what is 
the largest urban national wildlife refuge in the country, you 
will have a model national environmental education center.
    Mr. Regula. Is it staffed now?
    Mr. Weldon of Pennsylvania. Oh, yes, it is staffed. Dick 
Nugent is the refuge manager. He has a staff of environmental 
education specialists. I have really tweaked the Fish and 
Wildlife Service over the past five years to put more staff 
focus, and they are doing it. In fact, they are operating--they 
were operating out of trailers. And we got some temporary funds 
to build a garage, which is now being used for classroom 
activity.
    Mr. Regula. Is it inside the city?
    Mr. Weldon of Pennsylvania. I am sorry.
    Mr. Regula. It is inside the city.
    Mr. Weldon of Pennsylvania. Inside the city boundaries.
    Mr. Regula. Unique
    Mr. Weldon of Pennsylvania. It is right next to the 
Philadelphia airport, a very large complex. So I would ask for 
your consideration on each--it would be $1.25 million for 
Paoli, and $2.9 million for John Heinz. And I know you--and as 
I said before you came in, Mr. Chairman, I know the difficult 
problem you are in. I am facing a similar problem on the 
defense bill. As the Chairman of the R&D Subcommittee, I have 
got $4.5 billion of requests, and no money to meet those 
requests. I know what you are going through. But in this case, 
they are unique, because we are not asking the Federal 
Government to put money up blindly----
    Mr. Regula. We like those projects where they have a match.
    Mr. Weldon of Pennsylvania. They have matched it--in one 
case two for one. The other will be dollar for dollar.
    Mr. Regula. Mr. Hinchey?
    Mr. Hinchey. Just to say thanks, Curt.
    Mr. Weldon of Pennsylvania. Thank you.
    Mr. Hinchey. Thanks a lot.
    Mr. Weldon of Pennsylvania. Good to be with you, and I 
appreciate the good work that you all do very quietly. Believe 
me, we appreciate it. And your reputation around the country is 
unblemished because of the great job you do as chairman.
    Mr. Regula. We try to do what is responsible----
    Mr. Weldon of Pennsylvania. Everyone knows that.
    Mr. Regula. And there are so many good things out there 
that need attention.
    Mr. Weldon of Pennsylvania. Understand.
    Mr. Regula. It is tough to choose priority wise.
    Mr. Weldon of Pennsylvania. And I will be there on the 
Floor to make sure your bill does not get cut by those members 
who, at the 11th hour, want to prove that they are some sort of 
budgetary heroes. And I will be there to help you in that fight 
and keep your funding intact. Okay?
    Mr. Regula. Well, Mr. Hinchey is going to be there with us 
this year to help us.
    Mr. Hinchey. Absolutely, Mr. Chairman.
    Mr. Weldon of Pennsylvania. We traveled to Russia in 
December, and he and I now are Ruskie buddies.
    [Off the record.]
    [The statement of Mr. Weldon of Pennsylvania follows:]

[GRAPHIC(S) NOT AVAILABLE IN FORMAT]

                                           Tuesday, April 20, 1999.

  SHENANDOAH VALLEY BATTLEFIELDS NATIONAL HISTORIC DISTRICT COMMISSION


                                WITNESS

HON. FRANK WOLF, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    VIRGINIA
    Mr. Regula. Back on the record. Mr. Wolf.
    Mr. Wolf. I am for the Heinz. As a kid, I used to swim and 
dive off of that bridge.
    Mr. Weldon of Pennsylvania. Southwest Philadelphia is 
where----
    [Laughter.]
    Mr. Wolf. It was polluted then. They have done a nice job 
of cleaning it up.
    Mr. Weldon of Pennsylvania. Thank you for your little plug 
there.
    Mr. Wolf. How are you?
    Mr. Regula. You get all the money in the transportation 
bill.
    Mr. Wolf. Oh, boy. Whatever we have, we always give you, 
Ralph. [Laughter.]
    Mr. Regula. That is a good way to do it. [Laughter.]
    Mr. Wolf. We have got to give it to somebody, it is a good 
thing----
    Mr. Regula. I cannot think of a better spot than this 
committee.
    Mr. Wolf. I will be very brief. Thank you for the 
opportunity. As you know, I would like to discuss the 
Shenandoah Valley Battlefield as a National Historic District 
Commission.
    The Shenandoah Valley Battlefield National Historic 
District Commission was authorized in the 104th Congress as 
part of the omnibus parks bill. The Act encompasses ten Civil 
War battlefields--Stonewall Jackson's 1862 campaign and 
Sheridan's 1862 campaign. These sites are diamonds in the 
historic treasure chest of the Shenandoah Valley. The historic 
district stretches from Frederick County, where my district and 
from Winchester down to Highland County, which is Bob 
Goodlatte's district. It includes the following battlefields: 
Opequon, Second Winchester, Second Kernstown, Cedar Creek, 
Fisher's Hill, Tom's Brook, New Market, Cross Keys, Port 
Republic and McDowell.
    In the Fiscal Year 1998 and 1999 Interior appropriation 
bill, this committee made available $250,000 from the National 
Park Service Heritage Partnership grants account for the 
Shenandoah Battlefields Commission. The committee also made 
available technical assistance funds for Department of 
Interior's personnel support of approximately $150,000 of 
additional assistance. Because of the committee's support, work 
has begun to protect these battlefields. To continue the work, 
we would ask that the committee make available again through 
Fiscal Year 2000 appropriations $250,000 for operational 
expense, and $150,000 in technical assistance support.
    The Commission is in its second year of developing a plan 
and is making good progress. It has worked hard to inform and 
involve the process State, local, and the general public.
    This past February, the Commission voted unanimously to 
submit an early action land acquisition request for Kernstown 
Battlefield in Winchester, Virginia, a property that is in 
danger of development. With your permission, I would submit, 
along with my testimony, a letter from the Commission to 
Secretary of the Interior, Bruce Babbitt, concerning the early 
action request. The Commission is seeking approximately 
$500,000 from Title V of the Land and Water Conservation Fund 
for the early action purchase. It is my understanding that 
Fiscal Year 2000 funding assistance would be too late, and, by 
that time, the battlefield would be lost. They are building 
homes and expanding, and the people have kind of held off as 
long as they possibly could. So, I would appreciate it, Mr. 
Chairman, if you could take a look at facilitating the 
appropriate action from the Department of Interior before the 
property is lost. That is pretty much the testimony. As you 
know, we fought hard to get this thing passed a number of years 
ago. The battlefields are eroding and now that the Commission 
is there, it is the local people are zoning, rezoning to 
cooperate to and do everything they can.
    Mr. Regula. Did we get any State help?
    Mr. Wolf. Yes, there has been a good bit of local and 
State.
    Mr. Santaniello. There will be some grants--and yes.
    Mr. Wolf. But if you were to contingent something, we could 
go back and talk to them.
    Mr. Regula. Well, that was what I was thinking about.
    Mr. Wolf. Yes.
    Mr. Regula. Query: Stonewall Jackson was killed, was he 
not?
    Mr. Wolf. Yes, but not there.
    Mr. Regula. No, I know. But in a battle.
    Mr. Wolf. Yes, Chancellorsville, down there in the 
wilderness, yes.
    Mr. Regula. We were discussing Gettysburg not long ago, and 
somebody said that Stonewall Jackson was apparently Lee's right 
hand person.
    Mr. Wolf. Yes.
    Mr. Regula. And they--their take was that had he lived, and 
had he been at Gettysburg, the result could have been 
different.
    Mr. Wolf. Well, I do not know----
    Mr. Regula. I just wondered what your observation would be?
    Mr. Wolf. Well, I do not know about that.
    Mr. Regula. We are off the record here.
    [Off the record.]
    Mr. Regula. Any questions, Mr. Hinchey?
    Mr. Hinchey. Other than to say that, Frank, you get the 
award for the most interesting testimony.
    Mr. Regula. Yes.
    Mr. Wolf. Oh, thank you. [Laughter.]
    Mr. Regula. Okay. Thank you, Frank.
    Mr. Wolf. Thanks to you.
    [The statement of Mr. Wolf follows:]

[GRAPHIC(S) NOT AVAILABLE IN FORMAT]

                                           Tuesday, April 20, 1999.

              NATIONAL UNDERGROUND RAILROAD FREEDOM CENTER


                                WITNESS

HON. ROB PORTMAN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF OHIO
    Mr. Regula. My colleague from Ohio.
    Mr. Portman. Thank you, Mr. Chairman. It is hard enough to 
follow a Cardinal, much less one that makes it interesting.
    Mr. Regula. But we like you. You raise the money for us.
    Mr. Portman. I really have not sought funding from your 
subcommittee before, but you were very helpful, as was Mr. 
Hinchey and were others with the legislation that Lou Stokes 
and I put together over the last several years, which we 
finally passed last year, which is the National Underground 
Railroad Network to Freedom Act. It pulls all the sites around 
the country together and forces the Park Service to prioritize 
the Underground Railroad as a project. The Network was provided 
with some funding last year, and this year the Administration 
is seeking funding to be sure that the adequate funding is 
there, so the program is not just one more activity for which 
the Park Service is underfunded.
    But today, I am here to talk about the National Underground 
Railroad Freedom Center, which is a national museum that is 
being started to--in Cincinnati, Ohio.
    I am here to testify in support of funding for the National 
Underground Railroad Freedom Center. As you know, the Freedom 
Center is a major national museum and educational institution 
that is scheduled to open along the banks of the Ohio River in 
the Year 2003. And, through interactive exhibits, public 
education programs, along with state-of-the-art interactive 
technology, it will the stories of the Underground Railroad and 
explore the historical themes of cooperation and courage to 
inspire in today's society racial understanding and 
reconciliation. I think it is a very noble and very important 
mission, and there is a lot of excitement about it.
    To enable the Freedom Center to achieve this mission, and 
after a great deal of thought and consultation on Capitol Hill, 
including with the Chairman and others, our goal is that the 
subcommittee appropriate over the next five years a sum total 
of $20 million. The request today is for the first 
appropriation of $4 million for Fiscal Year 2000. Because the Freedom 
Center has worked hard to create this public-private partnership, the 
funding for this initiative actually involves the lowest percentage of 
Federal matching funds of any of the national museums. Most of the 
museums, such as the Constitution Center, or the National Museum of the 
American Indian or others, have raised only one-quarter, one-third, 
one-half of the construction funds from non-Federal sources. The non-
Federal role in the Freedom Center would be 80 percent. So it would be 
20 percent Federal, 80 percent non-Federal. The public funds being 
sought, though limited, are extremely important, because as we are 
learning around the country in the fund raising effort, you really need 
the Federal funds to, then, leverage additional funds from the private 
sector, and from State and local government.
    The Freedom Center is governed by a board of trustees, 
which established a national advisory board made of national 
and international leaders in business, academia, religion, 
politics, human relations--many of them you know or have heard 
of. With the committee's permission, I would ask that that list 
of the board be a part of the hearing record.
    Mr. Regula. Without objection.
    Mr. Portman. Thank you, it is an impressive list. It 
includes Dick Cheney, Rosa Parks, Jim Symington, Vern Jordan 
and Bill Gray, a former Member. The Freedom Center has done a 
good job, I think, of assembling a diversified and highly 
distinguished board assist them. Ultimately, the Freedom 
Center, of course, will be operated and managed by a 
professional staff, and it will be primarily privately funded.
    Last year, we passed the National Underground Railroad 
Network to Freedom Act, which Mr. Stokes and I co-sponsored. It 
requires that the Underground Railroad sites and activities 
around the country be coordinated within the National Park 
Service. The Freedom Center in Cincinnati is already gaining 
recognition as the hub of that network. The National Park 
Service, as you know, Mr. Chairman, chose the Freedom Center as 
its first partner under the public-private partnership 
provisions of the Act. As a distributive educational center, 
the Freedom Center also plans to help establish regional 
centers around the country. It won't just be in the Ohio Valley 
area. There will be freedom stations, as they will be known, 
outside of Cincinnati and in other areas that were significant 
to the Underground Railroad, both in the North and in the 
South. These regional centers will then partner with the local 
Underground Railroad sites. I know you heard about one of the 
sites this morning, but there are thousands of them around the 
country that either are already acknowledged or are being 
uncovered as people look into the Underground Railroad history 
further.
    The Freedom Center has already raised $20 million toward 
its goal of $80 million. Of the amount, approximately $11.2 
million is from private sources, and the remainder is from non-
Federal sources, the City of Cincinnati, a $6 million pledge. 
The City has already donated development rights for the 
riverfront land I talked about and a lease. Hemlin County, Ohio 
has already made a commitment in excess of $6 million to build 
the parking facilities, building platform and so on. The State 
of Ohio has pledged to the Freedom Center $700,000 this year 
toward its request of $15 million over the next five years. To 
date, the Center has received no Federal funding. Nor have we 
requested any--waiting until we were ready to go to this stage 
of the campaign.
    The private sector funding will be the focus for a 
significant portion of the remaining $50 million. And in 
addition to funding for construction, technology, exhibit 
design and installation, this goal of $80 million total does 
include, in answer to your question, Mr. Chairman, the 
operating endowment of $10 million.
    Andy Young, the chairman of Good Works International and, 
of course, former Ambassador to the United Nations, and John 
Pepper, who is Chairman of Procter and Gamble, have just 
recently agreed to co-chair the national fund raising effort. 
With those two at the helm, I think they will be quite 
successful. They will lead a prestigious group of other 
national leaders who are going to be announced soon.
    But, again, the Federal commitment is viewed as key by all 
the people who we are consulting with nationally. The Federal 
commitment is key to then leveraging the private sector money 
and the other State and local public money.
    Again, thanks for letting me share some information about 
it. I know you have a packet in front of you about the Freedom 
Center and I appreciate the opportunity to testify today before 
the subcommittee.
    Mr. Regula. I saw the director, I believe, on the history 
channel.
    Mr. Portman. Was it John Fleming, the Centers Chief 
Operating Officer, or was it Ed Rigaud who is the CEO?
    Mr. Regula. I don't know. I recognized him, but I don't 
remember the name.
    Mr. Portman. Yes. You met both of them previously.
    Mr. Regula. Yes.
    Mr. Portman. Thank you, Mr. Chairman.
    Mr. Regula. Thank you.
    Mr. Portman. And I know the Cardinals are here. I am wedged 
between Cardinals here. This is very intimidating, I can tell 
you, Mr. Chairman.
    Mr. Chairman, I would also like to thank Lori Rowley for 
her help in guiding us through this. We are seeking some help 
from the authorizing committee per Lori's suggestion and your 
suggestions. We are sending a letter to Chairman Young 
requesting that an authorization be part of a future vehicle. 
We do not have an authorization at this time.
    Mr. Regula. Right.
    Mr. Portman. Although we have worked with the authorizers 
closely on the Network to Freedom Act over the last several 
years.
    Mr. Regula. Okay, thank you.
    [The statement of Mr. Portman follows:]

[GRAPHIC(S) NOT AVAILABLE IN FORMAT]

                                           Tuesday, April 20, 1999.

        LAND ACQUISITION: CANDLEWOOD LAKE AND TROUT BROOK VALLEY


                                WITNESS

HON. JAMES H. MALONEY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CONNECTICUT
    Mr. Regula. Mr. Maloney.
    Mr. Maloney of Connecticut. Thank you, Mr. Chairman. 
Chairman, thank you very much. Congressman Hinchey, thank you. 
Members of the committee, I appreciate your consideration of 
this issue.
    I am here to discuss requests that I have made in regard to 
two properties in western Connecticut. One is known as 
Candlewood Lake and the other known as Trout Brook Valley. The 
issue of open space generally, as you are aware, has produced 
substantial public interest in recent years and these are two 
properties that are good examples of challenges that we face, 
particularly in a State like Connecticut, which is densely 
populated. Connecticut, in fact, has the lowest percentage of 
open space owned by the Federal Government of any State in the 
country. These are two properties that are extremely important.
    Candlewood Lake is the largest lake in the State of 
Connecticut and it was created as a pump storage hydroelectric 
facility regulated by, now, the Federal Energy Regulatory 
Commission. It is being sold, pursuant to State legislation 
which calls for the deregulation, basically, the separation of 
generating facilities from distribution companies. And the 
towns surrounding the lake are very interested in retaining an 
environmental restriction on the use of the lake. And they have 
been engaged in a negotiation to that effect, a successful one.
    The request here is actually for a relatively small amount 
of money, $100,000, which would provide technical assistance to 
them in that effort. They will also be seeking funding at a 
later date from the State and from their own taxpayers for 
whatever the market value is of that environmental restriction. 
And perhaps I will be back next year on that issue, but we will 
have to see. It depends on what the appraised cost is.
    This is an extremely important public lands issue. It is 
near to the New York border. There are people from the entire 
Northeast who regularly come up. It is some of the finest fish 
in inland waters in New England. And we are host to many 
people, not only from the State of Connecticut, but from around 
the Northeast. We want to very much make sure we preserve this 
tremendously valuable resource.
    The second property is known as Trout Brook Valley. It is 
located in the towns of Easton and Weston, but it is part of 
the largest--it is 640 acres--and part of the largest parcel of 
open space left in all of Fairfield County. And the towns have 
mobilized well; the State has come to the table to make a 
significant contribution. It was put on the market by 
Bridgeport Hydraulic, which is a water company in Connecticut. 
Under State law, the land trusts have a right of first auction 
to pick up a proposed divestiture by a utility company. And the 
Aspetuck Land Trust did that at a price of $12.4 million.
    The towns, private sources, the land trust, and the State 
have all made very significant contributions to this and they 
have raised or accounted for $10.4 million of the $12.4 million 
purchase price. And so the request of this committee is to 
provide Federal assistance to the extent of $2 million to 
complete the package of financing necessary for the acquisition 
of this land.
    Let me just close by reiterating that these are parcels of 
land that are invaluable and more and more rare given the high 
level of development in Connecticut and in the Northeast 
generally. If we do not successfully preserve these lands this 
year, they will not be there for preservation in the future.
    Mr. Regula. Who would manage these two facilities?
    Mr. Maloney of Connecticut. The Trout Brook property would 
be jointly owned by the towns of Weston and Easton and they 
would be managed by the two local towns. The Candlewood Lake 
would still be owned by a utility company, but the conservation 
restriction would run in favor of the five towns and they have 
a group effort called the Housatonic Valley Council of Elected 
Officials, which is the regional planning agency. And there is 
also a Candlewood Lake Authority. So all of the regulatory 
mechanism for Candlewood Lake is already in place.
    Mr. Regula. Mr. Hinchey.
    Mr. Hinchey. Mr. Chairman. Jim, thanks very much.
    Mr. Maloney of Connecticut. Thank you, sir. Thank you very 
much, Mr. Chairman.
    [The statement of Mr. Maloney of Connecticut follows:]

[GRAPHIC(S) NOT AVAILABLE IN FORMAT]

                                           Tuesday, April 20, 1999.

                       FRANKLIN D. ROOSEVELT NHP


                                WITNESS

HON. JOHN E. SWEENEY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEW YORK
    Mr. Regula. Mr. Sweeney.
    Mr. Sweeney. Thank you, Mr. Chairman and hello to my good 
neighbor, Congressman Maurice Hinchey, who has been a strong 
supporter of the facility that I am here to request funding for 
today. I thank you for the opportunity to appear here. I also 
want to mention Deborah Weatherly from your staff who has been 
a great help to this freshman as I move forward on this 
request, which is really the first of its kind for me.
    I am appearing today to request $9 million for the National 
Park Service budget for the Franklin D. Roosevelt National 
Historic Site located in Hyde Park, New York. Springwood is 
FDR's birthplace and where Roosevelt and his family lived in 
even as President. He often met with foreign dignitaries in his 
library and conducted important national business from his home 
in the Hudson Valley and it has become an important part of not 
just the Hudson Valley's history, but really the history of all 
of New York and the region.
    According to a 1994 Senate Appropriations Committee report, 
$24 million is needed to fully restore the FDR site and make it 
accessible to all. I recently visited the site and can tell you 
that it is disturbing to see the gem of this site and this 
piece of our history neglected in the way that it has been 
neglected and the deterioration that we have gone through. Over 
650,000 people per year visit the site of our32nd President. 
Therefore, I am requesting $6 million for the restoration of the 
critical core structures, including replacement of the 1897 heating 
boilers and water and electrical service upgrades. These are the 
original structures that need to be replaced and if they aren't done so 
soon, we are going to face even greater loss there.
    In addition, I am requesting $3 million for the new visitor 
orientation center. This new center, which will serve the 
three-area national historic sites is much needed and in 
demand. Approximately $12 million from private and public funds 
have already been allocated for the Center, however, we need to 
allocate an additional $3 million, which I am requesting here 
to complete the $15 million project. In total, I am requesting 
$9 million for the FDR site. And, before I conclude, I want to 
say thanks again to you, Mr. Chairman, for this opportunity, 
for Congressman Hinchey, who has been a neighbor, who has been 
very active in the community in helping us raise awareness and 
also bring to light the needs for repairs at the site.
    Mr. Regula. Any questions?
    Mr. Hinchey. Mr. Chairman, I just want to express my 
appreciation to Mr. Sweeney for the work that he is doing 
there. I think that it is, obviously, it is a tremendously 
important site, not just for the region or for the State, but 
for the entire country, John, and I really appreciate your 
efforts on its behalf.
    Mr. Sweeney. Thank you.
    Mr. Regula. Is this the district Gerry Solomon represented?
    Mr. Sweeney. Yes, it was.
    Mr. Regula. He used to come in on this, that is why I 
figured that it is.
    Mr. Sweeney. It is of great significance to the entirety of 
the district. You know, one of the things I didn't mention is 
that it has a real impact on the economy of the region as well 
as its historical significance.
    Mr. Regula. Have you seen the play ``Eleanor'' down at the 
Ford's theater?
    Mr. Sweeney. I have not. I have not, but I will have to do 
that.
    Mr. Regula. You should see it. It is very well done, and 
the person who impersonates Franklin D. does it extremely well. 
It is worth your time. And have you been down to the Franklin 
D. Roosevelt Memorial?
    Mr. Sweeney. Yes. I have my children with me this weekend. 
It is one of the stops they are going to make as well.
    Mr. Regula. Have you seen it, Mr. Hinchey?
    Mr. Hinchey. I have.
    Mr. Regula. It is really remarkable. It is massive--it is 
formidable.
    Mr. Hinchey. It is a great piece of work.
    Mr. Regula. Yes, it is. They had to put pilings 90 feet to 
support those brick or stone walls because of the enormous 
weight, and it was a swamp originally. So it was a major 
construction challenge, but it is well done. For someone who 
only wanted a simple block as a memorial.
    Mr. Hinchey. He got a bit more than that. [Laughter.]
    Mr. Regula. It expanded. Well, thank you.
    Mr. Sweeney. I thank you again.
    Mr. Regula. Thanks.
    [The statement of Mr. Sweeney follows:]

[GRAPHIC(S) NOT AVAILABLE IN FORMAT]

                                           Tuesday, April 20, 1999.

 DAYTON AVIATION HERITAGE NATIONAL HISTORICAL PARK AND DAYTON AVIATION 
                          HERITAGE COMMISSION


                               WITNESSES

HON. TONY P. HALL, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF OHIO
HON. DAVID L. HOBSON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    OHIO
    Mr. Regula. Mr. Hall and Mr. Hobson.
    Mr. Hobson. I want to have him sit on the right.
    Mr. Regula. Both of your statements will be made a part of 
the record.
    Mr. Hall of Ohio. Thank you, Mr. Chairman. Can I go first?
    Mr. Regula. You are the senior member.
    Mr. Hall of Ohio. The senior member, all right. Thank you, 
Mr. Chairman, and I do have a long written statement. I will 
just highlight some of it.
    Mr. Regula. Yes, if you would, please.
    Mr. Hall of Ohio. I want to thank you for your assistance 
in the past. Dayton Aviation Heritage National Historical Park 
is progressing well, thanks to your help. You have played a 
major part in it and I want to thank you.
    Mr. Regula. What is the big year? 2003?
    Mr. Hall of Ohio. 2003.
    Mr. Regula. It will be 100 years.
    Mr. Hall of Ohio. Yes.
    Mr. Regula. I was on a 757 recently and I thought what 
enormous progress we have made in 100 years. You know, it is 
remarkable.
    Mr. Hall of Ohio. Yes, we have. You can fly from Chicago to 
Hong Kong and you don't even refuel and it is amazing. It is 
just incredible what goes on today, just from flight.
    Mr. Regula. I know.
    Mr. Hall of Ohio. I have only four requests today, Mr. 
Chairman.
    Mr. Hobson. All modest requests.
    Mr. Hall of Ohio. They are all modest requests. First, I am 
asking for $428,000 in construction and construction planning 
for various projects in Dayton, which is in my district and in 
Mr. Hobson's district, the seventh congressional district. The 
most important project is planning for exhibits at an 
interpretive center at Huffman Prairie where the Wright 
brothers conducted many of their important flying experiments.
    The building itself will be constructed using $1 million 
already raised from the State of Ohio. The building is in the 
seventh district. It is represented by Mr. Hobson, who has been 
most supportive of these projects.
    Second, I am asking for an increase of $300,000 for the 
Dayton Aviation Heritage Commission. This will permit full 
funding of the commission. Under the law creating this 
commission, appropriated money will have to be matched with 
non-Federal funds.
    And the next two requests don't involve money. They might 
some day, but I just want to get them in. My third request does 
not ask the subcommittee for funds thisyear. As you know, 
Dayton and Ohio are planning for the celebration of the Wright 
Brothers' first flight in the year 2003. I am concerned that our park 
will not be fully staffed in time and I would like to see the National 
Park Service, in budgeting for Fiscal Year 2001, take into 
consideration this deadline.
    My last request is to direct the National Park Service to 
conduct a theme study of nationally important sites related to 
veterans. The Department of Veterans Affairs has more historic 
structures than all Departments except Interior and Defense. 
Many of these buildings are threatened with demolition and 
neglect. A theme study would be a valuable contribution to our 
national heritage and an honor to veterans. I am interested in 
the subject because Dayton was the site of the headquarters of 
the National Home for Disabled Volunteer Soldiers. Chillicothe, 
within the Seventh Congressional District, was the first 
hospital operated by the Veterans Bureau in 1921.
    I just want to thank you for listening to me.
    Mr. Regula. Thank you. Do you think either of those first 
two projects would fit in the Military Construction bill?
    Mr. Hall of Ohio. I'll take it from any place.
    Mr. Regula. I think they sound like they would.
    Mr. Hall of Ohio. I'll take it from any place, but I feel 
that I have to come to you.
    Mr. Hobson. Probably if the President hadn't advance-funded 
our bill, we might have been able to look at them a little 
stronger, Mr. Chairman.
    Mr. Regula. Another chairman having financial problems. 
[Laughter.]
    Would you like to comment on this subject?
    Mr. Hobson. I would, Mr. Chairman. First of all, let me 
tell you what a pleasure it is to testify before you, again. We 
never would have had this park in the beginning without your 
help. I hate to think how much it really did cost, overall. I 
remember our days on the Floor when we, with your help, Mr. 
Hall and I did this park many years ago.
    Mr. Regula. This was a bill on suspension, as I recall.
    Mr. Hobson. This was all guts at the time, I think, on a 
suspension. I hate to think where we would be if we tried it 
today.
    Mr. Regula. Yes.
    Mr. Hobson. But the park is located in both our districts. 
As Tony has mentioned--and we try to work our districts 
together. We have a lot of synergy between the communities and 
we work together. Requesting new funding which would plan and 
produce interpretive media and exhibits, locating those in 
Huffman Prairie which Interurban used to come out to.
    Mr. Regula. Is that a community or a city?
    Mr. Hobson. No, it is actually part of Wright-Patterson Air 
Force Base.
    Mr. Regula. Oh.
    Mr. Hobson. And the Interurban used to come out there and 
people on afternoons would come out on the Interurban and watch 
at Huffman Prairie as they would actually attempt to learn how 
to fly the airplane, make it turn. And people would get off and 
watch. The Interurban's gone, but we are going to have a bike 
trail, we think, down through there now.
    Mr. Regula. The interpretive center would be there?
    Mr. Hobson. It is going to be right at Huffman Prairie.
    Mr. Regula. Yes, and that is the State's responsibility?
    Mr. Hobson. For $500,000, they are going to build it.
    Mr. Regula. They are going to build it.
    Mr. Hobson. Yes.
    Mr. Regula. They are going to build it.
    Mr. Hall of Ohio. Yes. They are going to provide $1 
million.
    Mr. Regula. Good.
    Mr. Hobson. But we need money for the documentary and on 
the print shop. You know, this is a public-private partnership 
and you can see that we are continuing that and we believe that 
it is the best way to go with these projects and I think you 
have supported that. And I think we are really concerned about 
this 2003 commitment that the communities made and the States 
made and I think the Federal Government has made. So we hope 
that the Park Service will help us in the budgeting next year 
and we won't have to come back every year and do the kinds of 
things that we are doing now. We very much appreciate your 
support in the past and hope that you can help us out in the 
community in the future.
    Mr. Regula. Well, all of these things are going to depend a 
lot on what develops in the budget caps, et cetera.
    Questions, Mr. Hinchey?
    Mr. Hinchey. Thank you, gentlemen.
    Mr. Regula. Thank you very much.
    Mr. Hobson. Thank you.
    [The statements of Mr. Hall of Ohio and Mr. Hobson of Ohio 
follow:]

[GRAPHIC(S) NOT AVAILABLE IN FORMAT]

                                           Tuesday, April 20, 1999.

           BLACKSTONE RIVER VALLEY NATIONAL HERITAGE CORRIDOR


                                WITNESS

HON. RICHARD NEAL, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MASSACHUSETTS
    Mr. Regula. Mr. Neal. I might tell you, we have had three 
members so far testify on the Blackstone River.
    Mr. Neal. Mr. Chairman, can I tell you, Mr. Chairman, I was 
just delighted. I came in and all these good words were being 
said about Franklin Roosevelt. I said this is the time to catch 
the chairman in the right mood. [Laughter.]
    Mr. Regula. Well, I have got a better appreciation for him 
than I had back some years ago.
    Mr. Neal. Well, just remember that great line that William 
Buckley has. He says that Republicans hate the New Deal but 
just don't want to give it up. [Laughter.]
    Mr. Regula. I believe my father would have been glad to 
give it up. [Laughter.]
    Okay. Blackstone, good project.
    Mr. Neal. Thanks. And let me say a word, if I can, to you 
and members of the committee. You have been terrific, above and 
beyond the call, in the past. You have been great on this 
initiative. I just jotted down--if you have heard from three 
other members of the delegation from Massachusetts, Rhode 
Island, and, I believe, Connecticut----
    Mr. Regula. Right.
    Mr. Neal. They have sponsored testimony as well. I 
wasthinking as I sat over there of some of the names of the people that 
have been involved in this initiative: Joe Early, John Chafee, Pat 
Kennedy, Jimmy McGovern, Peter Blute, Ron Nakely, Sam Gejdenson, 
Barbara Kennelly, Senator Kennedy. And we have all been in front of you 
at one time or another.
    Mr. Regula. That transcends--what?--about four different 
congressional districts, at least.
    Mr. Neal. Oh, yes, yes. And it has been extraordinarily 
successful.
    Mr. Hinchey. It doesn't go to mine, though.
    Mr. Regula. You have a corridor, though.
    Mr. Hinchey. Yes, I do, Mr. Chairman.
    Mr. Regula. Yes.
    Mr. Neal. If it will help our proposal there, we can extend 
it to your district. [Laughter.]
    You know that whole notion of how suspension has become 
law? [Laughter.]
    Well, we are not upset by that in Massachusetts. But I am 
asking for $3.75 million for development; $650,000 for 
statutory aid; and $245,000 for the operations of the National 
Park Service. In the corridor, it has been so worthwhile--I 
have to mention that--particularly on Sunday mornings in the 
fall, to see what has been done to restore Sam Slater's 
original mill and to look at much of the old churches and all 
the other buildings that have long been abandoned and how they 
have been brought back to life.
    Mr. Regula. The great thing about these corridors is the 
volunteerism that is connected with them. It really brings out 
lots of people and the best in people.
    Mr. Neal. No question.
    Mr. Regula. They just get so involved, at least that is our 
experience and I am sure you both have had the same experience 
that you get a proprietary interest.
    Mr. Neal. I suspect they all look the same, too. They all 
have sneakers and little hats on. They show up at these events 
faithfully and they are willing to do anything from sun up 
until sunset.
    Mr. Regula. That is very true.
    Mr. Neal. You know, the other thing that is nice about it. 
They are great custodians of our memory, collectively and 
individually. You know, Anthony Lewis wrote, I think, a few 
years ago, that the nation was quickly becoming a place where 
we have no memory. Now you can see, because of the good work, 
the practical application of what you have done with this 
subcommittee in terms of----
    Mr. Regula. Well, what I like about them is it is something 
you can do every day. You can't go to Yellowstone everyday, but 
you can go out in the corridor and have some great benefits. It 
sure beats hiking in a mall.
    Mr. Neal. You can't ask our children to love something they 
don't know anything about.
    Mr. Regula. Yes, exactly.
    Mr. Neal. I mean, you talk about the cornerstone of our 
democracy, the First Amendment. You talk to young people about 
it, and you are really struggling to get them to pay attention 
to it and its practical application. I must tell you, as a 
former mayor of Springfield, I am not for preservation for the 
sake of preservation, because there are certain times it just 
doesn't work. But, in terms of practical application and 
restoration and making a contribution to the future by paying 
attention to the past, it is all pretty neat stuff.
    Mr. Regula. It really is.
    Mr. Neal. I am a believer.
    Mr. Regula. Mr. Hinchey and I both are, too.
    Mr. Hinchey. Well, we certainly agree, Mr. Chairman. It is 
something all three of us have in common, at least this 
corridor is. The Blackstone is one where I think they have done 
a very good job. I think they have used the money that you have 
helped provide for them, Mr. Chairman, very wisely.
    Mr. Regula. It has been a pioneer, really.
    Mr. Hinchey. Yes.
    Mr. Regula. I think maybe it was one of the first.
    Mr. Neal. Oh, yes, it is. I was in an event not too long 
ago and--oh, I know what we were doing. I have two heritage 
rivers. If you pay attention to the President's State of the 
Union Address, you are guaranteed two projects, never mind one. 
[Laughter.]
    And so I have two heritage rivers in my district. I have 
two rivers in my congressional district, but one of the nicest 
things, there is a State senator from the City of Worcester and 
he stood up at the event and talked about Joe Early and John 
Chafee. And I thought to myself, that is really the way this 
place is supposed to function. I mean, that is that camaraderie 
and that regard for each other. And I just thought in that 
occasion it would have been so easy to say, oh, that one is 
leaving and the other left a long time ago. And the truth is 
that it was their wisdom and vision that allow us to come back 
and ask for just a bit more today.
    Mr. Regula. Well, thank you very much.
    Mr. Neal. Thank you, Mr. Chairman. Thank you, Maurice.
    Mr. Hinchey. Thank you.
    Mr. Regula. Thank you.
    Mr. Neal. Will my remarks be inserted in the record?
    Mr. Regula. Oh, yes. The entire statement.
    Mr. Neal. Thank you.
    [The statement of Mr. Neal follows:]

[GRAPHIC(S) NOT AVAILABLE IN FORMAT]

                                           Tuesday, April 20, 1999.

                           COMPACT IMPACT AID


                                WITNESS

HON. ROBERT A UNDERWOOD, A DELEGATE IN CONGRESS FROM GUAM
    Mr. Regula. Mr. Underwood.
    Mr. Underwood. Good afternoon, Mr. Chairman. I want to 
build a corridor to Guam. [Laughter.]
    Mr. Regula. You need a corridor out there. As you can tell, 
they are pretty popular here.
    Mr. Underwood. Well, I thank you again for the opportunity 
to appear before this subcommittee and to offer my view on an 
issue of particular importance. I know I discussed this with 
you and I would just like the opportunity to speak to it 
briefly again on the record.
    Currently, the government of Guam gets about $4.5 million a 
year for Compact Impact Aid. This goes back to the creation of 
three new nations out of the old trust territory of the Pacific 
Islands. And, as part of the creation of these three nations, 
these compacts of free association, they were guaranteed free 
access into the United States and so they are the only three 
foreign countries where the citizens of those countries can 
migrate without any restrictions at all, into the United 
States.
    Of course, their location of choice is Guam because it is 
nearby. And, in order to forestall any problems with that, 
Congress in its wisdom in creating the compacts said that the 
territories in particular and the State of Hawaii should not 
see any adverse effects as a result of this migration and 
authorized Congress to appropriate sums for the reimbursement 
to the governments for social and educational costs.
    Guam has, by far over the other islands, over Hawaii, 
incurred the most costs and I have outlined some of these very 
tragic circumstances where the surrounding islands have no 
health resources to speak of. They get on the plane, they come 
to Guam just to do basic medical service and they leave us with 
a bill and there are all kinds of instances like this. And they 
now number approximately 8 percent of our population.
    Congress, after about 10 years of these compacts, Congress 
finally, in 1996, authorized $4.5 million. The President came 
to Guam last year and proposed to up that to $10 million and 
that is in his proposed budget submitted to the Congress. This 
is very good news for it and the unfortunate part of it, I 
guess, is that he has offered to take money away from a capital 
improvement project process for our neighbors to the north, the 
Commonwealth of the Northern Mariana Islands. But, in point of 
fact, that money that they have has not been used adequately.
    Mr. Regula. I don't believe that he can do that, either. 
Probably that is a contractual obligation that we have to those 
islands.
    Mr. Underwood. Well----
    Mr. Regula. Staff advises me he is trying to change the 
legislation.
    Mr. Underwood. That is right, sir.
    Mr. Regula. Yes, but I can understand if you do that, out 
of hand, you can't make that general change.
    Mr. Underwood. And, as a point of fact, we have been trying 
to work with our neighbors to the north in order to make sure 
that they are held harmless and that the money continues to 
come to them, but over, obviously, a longer period of time. 
They have not been able to make their matching requirements, so 
there is a lot of money in the pipeline and so this is an 
appropriate opportunity to find a way to more adequately 
compensate the people of Guam for these costs. They still 
amount to about, annually, anywhere between $15 million and $20 
million, so this amount will bring to about half that.
    Mr. Regula. Do you provide education? Do you get young 
people or is it more adults that migrate?
    Mr. Underwood. it is across the board. It is across the 
board. It is a very unusual circumstance, because they form a 
new category of people called habitual residents. And it is a 
term of art with the INS which the legislation that I worked 
with Lamar Smith and others to force INS to come up with some 
regulations about them, about what are the rights and 
responsibilities of an habitual resident. They don't become 
permanent residents. They don't become citizens. They just have 
the right to, basically, migrate into the United States and 
they have a----
    Mr. Regula. But they have a right to all the services, same 
as a regular citizen of Guam.
    Mr. Underwood. They have a right to all the services, that 
is correct. So we are concerned about that and we are hopeful 
that Congress meets its obligation in that sense. And, as I 
mentioned to you, there is an additional element of the brown 
tree snake, which is a sore point for me. John Berry--and I 
appreciate the work of the Department of Interior--but any 
additional increases for the brown tree snake program should 
come from Fish and Wildlife and any, you know, $500,000 is not 
much, should go to General Territorial Technical Assistance.
    Mr. Regula. Mr. Hinchey.
    Mr. Hinchey. How is that problem? Is it getting worse or is 
it getting under control?
    Mr. Underwood. Well, right now it is hard to figure out 
because they are still on the research. But they estimate that 
there are about anywhere between 500,000 to 700,000 snakes on 
the island. But, you know, realistically, if you are there, you 
never see them. And so it is a problem more for birds.
    Mr. Hinchey. It is the bird population.
    Mr. Underwood. The bird population.
    Mr. Hinchey. It is wiping out the bird population.
    Mr. Regula. Right.
    Mr. Underwood. It is a good thing we don't have wings. 
[Laughter.]
    Mr. Regula. Okay, thank you.
    Mr. Underwood. Thank you very much, Mr. Chairman.
    [The statement of Mr. Underwood follows:]

[GRAPHIC(S) NOT AVAILABLE IN FORMAT]

                                           Tuesday, April 20, 1999.

                           GOOSE DEPREDATION


                                WITNESS

HON. DARLENE HOOLEY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    OREGON
    Mr. Regula. Darlene Hooley. You are speaking about goose 
depredation today.
    Ms. Hooley. Yes.
    Mr. Regula. I know all about it.
    Ms. Hooley. My favorite subject. Thank you very much for 
sitting here so patiently and listening to all of our testimony 
and our wants and needs for our district, our area.
    Goose depredation. I am asking for $2 million for the 
Northwest and I am sort of asking for Mr. Dicks and Mr. 
Nethercutt, as well. They don't know that yet, but, you know, 
just in case. [Laughter.]
    Mr. Regula. It is the only one Mr. Dicks has missed.
    Ms. Hooley. It probably is.
    Mr. Regula. Well, anyway, tell me how it would be used. I 
have a five-acre lake on my farm and we have had a problem with 
them, too. And in my communities, golf courses, you name it, 
are also problems. It is a real serious problem in our areas, 
overabundance of Canada geese.
    Ms. Hooley. It is.
    Mr. Regula. And what do you propose to do with the $2 
million?
    Ms. Hooley. We have been working with the State of Oregon 
and with the Federal Government and with the farmers and 
everybody else in the area trying to figure out what to do 
about it.
    Mr. Hinchey. Open season, some folks would think is the 
answer.
    Mr. Regula. I think there is some merit to that one.
    Ms. Hooley. One of the things that we are looking at is how 
to reduce that population. One of the things they want to use 
it for is increasing goose forage on public lands, and 
particularly with an emphasis on the refuge lands.
    Mr. Regula. Do you have problems with them in the urban 
areas?
    Ms. Hooley. There is a problem everywhere with them. I have 
gone out and visited a couple of farms where the geese just 
come in and swoosh and they take crops that are, three, four, 
five inches tall, and they are gone.
    Mr. Regula. They graze. I know exactly what you mean.
    Ms. Hooley. Although it is certainly a nuisance at public 
golf course or sitting around at lakes where it is not very 
pleasant to walk after a while, I am really looking at the 
economic issues of how to deal with this. And it has to do with 
the Dusky Goose, an endangered species. We also have a permit 
system that allows more people to kill geese as long as they 
don't kill the endangered species.
    Mr. Regula. Do you have a lengthy hunting season in your 
State?
    Ms. Hooley. Yes. I mean, they have opened up the hunting 
season. What they have done is started classes on how to 
recognize the Dusky Goose so they don't kill that if so many 
Dusky Geese are killed in a season, then they close it down. 
But trying to do a better job of allowing a much greater kill 
and, yet, protecting that endangered species. And, also, it is 
open to a lot of debate whether, in fact, that is an endangered 
species. But it is looking at how we can work together.
    We have put together a plan. We did get some money, last 
time, that was spread across the United States. And, this year, 
I am very disappointed in the Clinton administration. They 
zeroed this out. We thought most of that money was coming to 
Northwest. I would be happy to share it with your region. It is 
just that we don't have enough money to get the job done. And 
it really is an economic problem out there.
    Mr. Regula. No, I understand very well what you are talking 
about. I was just curious. It is difficult to solve this 
problem.
    Ms. Hooley. I mean, part of it is going to be monitoring, 
too, and looking at what the population increase is every year. 
What the distribution is, in fact. What is the survival rate? 
Trying to work in a cooperative way to reduce the problem.
    Mr. Regula. Do you get the Canadians that migrate? It seems 
to me there are two species: one that migrates----
    Ms. Hooley. And one that just stays there.
    Mr. Regula. One that just stays there, exactly.
    Ms. Hooley. Our goose population has gone up. You know it 
used to be, 10 years ago, you would go isn't that nice? Look at 
those nice geese. And pretty soon you go, I don't think so. So 
we get both. We have both problems.
    Ms. Hooley. Well, I am willing to share this with anybody 
that wants to share it, but it is a problem that we have got to 
solve.
    Mr. Regula. I understand. Well, thank you.
    Ms. Hooley. Let me just mention one other thing real 
quickly. I am asking for $800,000 for the Oregon Island's 
National Wildlife Refuge. The State of Oregon has 300 miles of 
coastland and we have 1,400 islands and there are a couple of 
major problems. We are seeking $800,000 in Land and Water 
Conservation funds to deal with a couple of refuge areas that 
are very unique. One is, the largest bull rush stand on the 
Oregon coast. It also has a sedge fan.
    It will provide long-term protection for some very unique 
freshwater habitats that live there--
    Mr. Regula. You are proposing we buy these.
    Ms. Hooley. Yes.
    Mr. Regula. Okay, we will take a look. We are going to be 
on tight rations this year.
    Ms. Hooley. I understand that. I mean, I know what is 
happening with the caps and everything.
    Mr. Regula. Well, we will do the best we can.
    Ms. Hooley. Anything you can do, I would appreciate. Thank 
you very much for your time.
    Mr. Regula. Thank you for coming.
    Ms. Hooley. Thank you.
    [The statement of Ms. Hooley follows:]

[GRAPHIC(S) NOT AVAILABLE IN FORMAT]

                                           Tuesday, April 20, 1999.

                        PINHOTI TRAIL EXPANSION


                                WITNESS

HON. NATHAN DEAL, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    GEORGIA
    Mr. Regula. Mr. Deal.
    Mr. Deal. Thank you, Mr. Chairman. Thank you for allowing 
me to come before the committee. I realize I have something in 
common with the goose problem, too. I found out the other day 
that I have a two-goose pond. I built a pond about the size of 
this room and the other day, all of sudden, there by my barn, 
here come two geese and land on it. We have the same real 
problem----
    Mr. Regula. And there will be more. [Laughter.]
    Mr. Deal. That is right, there will be.
    Mr. Regula. They are cute.
    Mr. Deal. They were so small, and they were putting on 
brakes so hard just to stop before they got to the end of the 
water.
    Mr. Hinchey. That is just the advance guard.
    Mr. Deal. Okay.
    Mr. Hinchey. They were scouting it out.
    Mr. Deal. Yes. I have a two-goose pond, anyway. Thank you, 
Mr. Chairman. I want to talk to you about a request that I have 
for an extension of the Pinhoti Trail into the Cohutta region 
of the Chattahoochee National Forest in Georgia. Back in 1995, 
former Congressman Buddy Darden and I were able to get $300,000 
to begin the process of extending the Pinhoti Trail at that 
time. That project has been completed.
    The Pinhoti Trail is a part of what was originally 
envisioned back in 1925 by Benten MacKaye as part of the 
Appalachian Trail----
    Mr. Regula. It is the hiking trail.
    Mr. Deal. It is a hiking trail and day camping type trail. 
The part that the request relates to is in the northwestern 
part of Georgia, which is within easy driving distance of 
Atlanta. The part that has already been opened up is getting 
extensive use, and this would allow it to extend a little 
further into Chattahoochee National Forest. I would request 
that $300,000 in the U.S. Forest Service Trail Construction 
component of their budget. It is certainly one of the better 
ways for us to utilize that significant portion of north 
Georgia that is in the national parks.
    Mr. Regula. Does this tie into the Appalachian Trail?
    Mr. Deal. It does. It ties to the segment of it that is 
known and named for the Benten MacKaye trail, which then links 
back into the main Appalachian trail. This is just an extension 
of that and a modification of some of the old trail that has 
never really been adequately updated.
    Mr. Regula. What do they have to do? Some cutting and--
    Mr. Deal. Well, any time you do that, you first have to 
start out with your environmental studies, your archeological 
surveys, and all the things that go along with it. I have a 
breakdown of some of those costs. But it attracts a lot of 
volunteer assistance. We have a tremendous volunteer group that 
comes and helps the Forest Service so we really get a lot for 
our money through the use of volunteers.
    Mr. Regula. Great.
    Mr. Deal. And I have personally been there, seen what has 
been done, and it is very, very good.
    Mr. Regula. Thank you. Mr. Hinchey.
    Mr. Hinchey. I think it extends the trail down to Alabama, 
doesn't it?
    Mr. Deal. It originates in Alabama, right around I-20 and 
Alabama. It then comes up through their national forest and 
into northwest Georgia, and this is the part that would extend 
it a little further into northwest Georgia and link to the part 
of the Appalachian Trail that is in my district. Where it 
begins in my district is Springer Mountain in north Georgia. 
Some people say it ends there. I say it begins there. But, you 
know, it depends on which way you are headed.
    Mr. Regula. Right.
    Mr. Deal. Right.
    Mr. Regula. Thank you.
    Mr. Deal. Thank you.
    [The statement of Mr. Deal follows:]
[GRAPHIC(S) NOT AVAILABLE IN FORMAT]



                                           Tuesday, April 20, 1999.

                     AFRICAN-AMERICAN HALL OF FAME


                                WITNESS

HON. GREGORY MEEKS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW 
    YORK
    Mr. Regula. Mr. Meeks.
    Mr. Meeks Thank you, Mr. Chairman. I thank you for this 
opportunity to testify before the committee today on behalf of 
an extremely significant project proposed for southeastern 
Queens for which I am seeking, of course, some Federal support. 
As a member of New York, I represent a district that is 
predominately urban in profile. Vehicular and airline traffic 
noise, elevated and underground subways, public housing, mixed-
use commercial strips and industrial parks are commonplace in 
the district in which I live.
    However, in the center of the district is an urban setting 
of southeastern Queens Park, once of the largest and most 
frequently used parks in the district. Southern Queens Parks, 
also known as Roy Wilkins Park, boasts a variety of indoor and 
outdoor facilities which include fields for baseball, soccer, 
and football, tennis and basketball courts and an indoor gym, a 
swimming pool, community meeting rooms, kitchens, and a 200-
seat theater. They provide a host of educational programs, 
primarily for youth development and leadership. And, without 
the park or the Southern Queens Park Association, my district 
would certainly be experiencing a higher level of 
disenfranchised youth.
    I am requesting in the amount of $5 million for the 
National Park Service to be granted to the Southern Queens Park 
Association Incorporated to develop a national African-American 
hall of fame at Roy Wilkins Park in Jamaica.
    The African-American Hall of Fame has been copyrighted and 
it is the only one of its kind in this nation. It shall be 
dedicated to providing a place and an environment in which the 
lives and accomplishments of illustrious African-Americans are 
appropriately displayed, honored, and studied.
    The contributions of the inductees shall be set off against 
the context of their lives, the history of their race, and the 
circumstances which they have had to overcome to rise to their 
distinction. The hall of fame shall provide the public with 
opportunities for witnessing achievements of African-Americans. 
For the young, it will provide a glimpse in their lives of role 
models in a wide ranging of career paths and avenues of 
endeavor.
    Last year, the President signed into law the National 
Underground Network to Freedom Act, which allows the Park 
Service to enter into cooperative agreements with private 
entitles towards the goal of facilitating the commemoration of 
the Underground Railroad and those that made it successful. The 
African-American Hall of Fame shall pay tribute to some of 
those individuals and provide education on the history of the 
railroad, including the significance of sites on Long Island. 
The Association regularly gives performances of the life of 
Harriet Truman.
    Roy Wilkins Park is located on former Federal land that has 
been deeded to the City of New York's Parks Department. The 
total cost of the project is $13 million. The borough president 
of Queens has already committed $3 million to this project from 
the City of New York. I also understand that the State has also 
committed at least $500,000 to this project. And there are also 
many private donations that will be made to try to make up the 
balance to the $13 million.
    Southern Queens Park is a former military base that was 
taken out of service many years ago. The Department of Interior 
has acknowledged an obligation to restore the economic vitality 
to the area that once existed when the military base was in 
residence. Here lies a perfect opportunity to take a step 
toward achieving that goal.
    I thank you, Mr. Chair. It is something that is vital to 
the overall interests of the individuals within a normal urban 
setting.
    Mr. Regula. I was asking the staff about when we had the 
Rock and Roll Hall of Fame in Cleveland. It didn't go through 
our committee. I am not sure which committee had jurisdiction 
and provided the funding for that. It might have been the VA, 
HUD Subcommittee. You might check with that subcommittee as to 
whether or not they funded the Rock and Roll Hall of Fame, 
because it is a project that would be very comparable to yours. 
I think it is operated by a non-profit foundation in 
conjunction with the City of Cleveland. Jim Walsh is chairman 
of that committee, and he is from New York.
    So I would check with him. Normally we don't get into 
things like this that are not located on Federal property that 
would be operated by the Federal government.
    Mr. Meeks. I guess initially we came because we knew that 
is was formerly Federal property.
    Mr. Regula. Yes, that is fine, because it is possible we 
could. It just occurred to me and I was just in Cleveland where 
they had a great program honoring Louis Stokes. They named a 
veterans hospital for him, and it is adjacent to the Rock and 
Roll Hall of Fame. That is why it occurred to me. The staff 
suggested it might have been in the VA HUD bill. So it is 
another option to look at.
    Mr. Meeks. I will take every option you have. [Laughter.]
    Mr. Regula. I understand. That is why I am suggesting it, 
you know, you just go wherever--as Willie Sutton says, you go 
where the money is. [Laughter.]
    Mr. Hinchey.
    Mr. Hinchey. I think this is an historical museum, isn't 
it?
    Mr. Meeks. Yes, it is.
    Mr. Hinchey. It traces the contribution of African-
Americans from the very beginning of the country.
    Mr. Meeks. That is correct.
    Mr. Hinchey. Right up to----
    Mr. Meeks. Right up to the present.
    Mr. Hinchey. There is a library and----
    Mr. Meeks. There is a library. We have already--there have 
been a few more contemporary that have been initially--will be 
initially inducted into the hall of fame with headstones very 
similar to what is done with the Cooperstown in the Baseball 
Hall of Fame. But, along with it, is a library and a history of 
those individuals who have been and will be inducted so that 
the school kids, et cetera, can come and----
    Mr. Regula. Now these are projections? You don't have 
anything at the moment?
    Mr. Meeks. No.
    Mr. Regula. You are talking about what it could be, is that 
right?
    Mr. Meeks. Yes.
    Mr. Regula. Okay.
    Mr. Meeks. What has happened is that 13 individuals have 
been inducted, but there is no facility in which to actually 
place them in so that you can continue to expand to put the 
kind of educational context so as to have a----
    Mr. Regula. Where do you have the evidence of the inductees 
to date?
    Mr. Meeks. To date, where they have it is basically in a 
courtyard, sitting outside in the park.
    Mr. Regula. Oh, okay.
    Mr. Hinchey. Okay. Interesting. But this is--it is formerly 
Federal land.
    Mr. Meeks. It is formerly Federal land.
    Mr. Hinchey. And it is now owned by Queens, the borough?
    Mr. Meeks. It is now owned by the City of New York.
    Mr. Hinchey. The City of New York.
    Mr. Meeks. Right. It is right adjacent to the VA hospital. 
In fact, it is on the same property. That property is what was 
divided, but part of it was deeded to the City of New York so 
that they could do a park.
    Mr. Hinchey. Thank you, Mr. Chairman.
    Mr. Regula. We have the Football Hall of Fame in my 
district. And it is a very attractive enterprise.
    Mr. Meeks. I need to visit your district, then.
    Mr. Regula. You should. It is open 364 days a year. They 
get lots and lots of visitors. It is extremely well-done, and 
each year they induct four or five players.
    Mr. Hinchey. Mostly Cleveland Browns, aren't they?
    Mr. Regula. Well, interestingly enough, there is always a 
game associated with the ceremony. It is, the first week of 
August. So the game this year will be the Cleveland Browns for 
their first game now that they are back. Versus who? I think it 
is the Steelers.
    Mr. Meeks. Now I am New York Giant fan, but I am an old 
Cleveland Brown fan. And I still attest to the greatest play of 
all time with Jim Brown.
    Mr. Hinchey. Jim Brown.
    Mr. Meeks. He was good.
    Mr. Regula. He was good. Thank you.
    Mr. Meeks. Thank you.
    Mr. Regula. This hearing is now adjourned.
    [The statement of Mr. Meek follows:]

[GRAPHIC(S) NOT AVAILABLE IN FORMAT]



                           W I T N E S S E S

                              ----------                              
                                                                   Page
Allen, Hon. T. H.................................................   431
Bass, Hon. C. F..................................................   389
Becerra, Hon. Xavier.............................................   348
Bereuter, Hon. Doug..............................................   358
Bilbray, Hon. B. P...............................................   483
Blumenauer, Hon. Earl............................................   523
Brown, Hon. Sherrod..............................................   367
Canady, Hon. C. T................................................   594
Clyburn, Hon. J. E...............................................   499
Condit, Hon. G. A................................................   591
Davis, Hon. Jim..................................................   594
Deal, Hon. Nathan................................................   581
DeLauro, Hon. R. L...............................................   464
Deutsch, Hon. Peter..............................................   435
Doyle, Hon. Mike.................................................   503
Ferris, W. R.....................................................   169
Frank, Hon. Barney...............................................   401
Gilchrest, Hon. W. T.............................................   395
Gilman, Hon. B. A................................................   597
Gordon, Hon. Bart................................................   362
Goss, Hon. P. J..................................................   601
Graham, Hon. Lindsey.............................................   603
Gutknecht, Hon. Gil..............................................   479
Hall, Hon. T. P..................................................   559
Heyman, I. M.....................................................     1
Hinojosa, Hon. Ruben.............................................   508
Hobson, Hon. D. L................................................   559
Hooley, Hon. Darlene.............................................   577
Horn, Hon. Stephen...............................................   372
Ivey, Bill.......................................................    97
Kanjorski, Hon. P. E.............................................   419
Kennedy, Hon. P. J...............................................   339
Kildee, Hon. D. E................................................   470
Kind, Hon. Ron...................................................   477
Leach, Hon. James................................................   479
Maloney, Hon. J. H...............................................   549
McGovern, Hon. J. P..............................................   343
Meeks, Hon. Gregory..............................................   584
Mica, Hon. J. L..................................................   425
Miller, Hon. George..............................................   517
Morella, Hon. Constance..........................................   448
Nadler, Hon. Jerrold.............................................   454
Neal, Hon. Richard...............................................   567
Newman, C. B.....................................................     1
O'Connor, J. D...................................................     1
Oberstar, Hon. J. L..............................................   378
Oberstar, Hon. James.............................................   479
Ortiz, Hon. S. P.................................................   605
Pallone, Hon. Frank..............................................   331
Pelosi, Hon. Nancy...............................................   487
Portman, Hon. Rob................................................   542
Radanovich, Hon. George..........................................   607
Rice, R. H., Jr..................................................     1
Robinson, M. H...................................................     1
Saxton, Hon. Jim.................................................   609
Shays, Hon. Christopher..........................................   460
Sherman, Hon. Brad...............................................   406
Slaughter, Hon. L. M.............................................   413
Stupak, Hon. Bart................................................   441
Sweeney, Hon. J. E., Jr..........................................   555
Underwood, Hon. R. A.............................................   572
Visclosky, Hon. P. J.............................................   385
Weiner, Hon. A. D................................................   493
Weldon, Hon. Curt................................................   529
Weller, Hon. Jerry...............................................   513
Weygand, Hon. Bob................................................   354
Wharton, L. C....................................................     1
Wolf, Hon. Frank.................................................   536


                               I N D E X

                              ----------                              

                        Smithsonian Institution

                                                                   Page
Additional Committee Questions...................................    38
Affiliations Program............................................. 2, 32
Arts and Industries Building.....................................     4
Bethlehem Pennsylvania, National Museum of Industrial History....     2
Biographies of Principal Witnesses:
    Heyman, I. Michael...........................................    16
    Newman, Constance B..........................................    17
    O'Connor, J. Dennis..........................................    18
    Rice, Richard H., Jr.........................................    21
    Robinson, Michael H..........................................    20
    Wharton, L. Carole...........................................    19
Budget Request................................................... 6, 14
    Mandatory Costs.............................................. 6, 38
    Program Increases............................................ 6, 38
Business Ventures................................................36, 61
Capital Campaign/Campaign for America's Smithsonian.............. 8, 59
Collections Information Access................................... 6, 39
Cooper Hewitt, National Design Museum............................    12
Department of Agriculture Division of Forestry...................    24
Digital Library..................................................    49
Dulles Center--Private Funding...................................    23
Education.................................................3, 11, 13, 24
Exhibitions......................................................     4
Farm Program at the Zoo..........................................    22
General Services Administration..................................    41
IMAX Theaters....................................................     4
Impact of Smithsonian Research on the Public.....................    23
Intermodal Surface Transportation Efficiency Act (ISTEA).........23, 43
Internet Access.................................................. 3, 33
Leased Space.....................................................    41
Low-Field Magnetic Resonance Imaging (MRI).......................25, 62
Maintenance......................................................    33
Millennium Funds.................................................    59
National Air and Space Museum--Dulles Center.................22, 39, 42
    Air Transportation Hall......................................23, 43
    Capital Campaign.............................................44, 61
    Collections Preparation......................................    43
    Commonwealth of Virginia.....................................    43
    Move of Collections..........................................    43
    Planning and Design..........................................    42
National Museum of American History..............................    12
National Museum of the American Indian........................6, 34, 44
    Cultural Resources Center....................................    44
    Design Contract..............................................28, 30
    Funding......................................................    31
    Mall Museum..................................................15, 58
    Priorities...................................................    48
National Museum of Natural History...............................    11
    Renovation...................................................    54
National Zoological Park.........................................31, 55
    Aquatics Exhibit.............................................    57
    Front Royal Research Facility................................    52
    Maintenance Backlog..........................................    52
    Rock Creek Park..............................................    52
    Security Systems.............................................32, 52
Opening Remarks..................................................     1
Operational and Program Increases................................    38
Panama Canal Treaty..............................................    42
Partnerships.....................................................11, 35
Patent Office Building........................................... 7, 26
Repair and Restoration Account...................................    52
Repair and Restoration Backlog...................................26, 23
Repair and Restoration at the National Zoological Park...........    31
R&R Funds by Major Project and Category, FY 96-98................    56
Research.........................................................     5
    National Museum of Natural History...........................    63
    Smithsonian Astrophysical Observatory........................    62
    Smithsonian Environmental Research Center.................... 5, 62
    Smithsonian Tropical Research Institute......................    64
Science and Research Efforts.....................................    62
Secretary Heyman's Departure.....................................     2
Secretary Heyman's Legacy........................................22, 37
Secretary Heyman's Priorities.................................... 7, 15
Secretary Heyman's Statement--Written Testimony..................    10
Security System...............................................6, 40, 51
Smithsonian Astrophysical Observatory--Basic Research............    25
Smithsonian Astrophysical Observatory--Educational Programs......24, 68
Smithsonian Environmental Research Center........................     5
    Construction.................................................57, 62
Smithsonian Institution Traveling Exhibition Service......2, 32, 35, 50
Smithsonian Magazine.............................................    36
Smithsonian Museums in New York..................................    34
Spokane Scholars.................................................    29
Star-Spangled Banner..........................................5, 12, 59
Submillimeter Telescopic Array...................................    41
Value Engineering................................................    69
Visitorship...................................................... 4, 12
    National Museum of American Art..............................     4
    National Portrait Gallery....................................     4
Water and Sewer Costs, District of Columbia......................    40
Woodward and Lothrop Building.................................... 8, 59
Y2K..............................................................    40

                        National Gallery of Art

Committee Questions for the Record...............................    75
    Budget Increase..............................................    75
    Donated Funds................................................    77
    Sculpture Garden.............................................    76
    Security.....................................................    75
    Staffing.....................................................    76
    Van Gogh Exhibition..........................................    77
Statement by Director Earl A. Powell III.........................    72

                         John F. Kennedy Center

FY 2000 Capital Repair Program...................................    83
FY 2000 Operations and Maintenance Program.......................    82
GAO Audit Requirement............................................    83
Kennedy Center Artistic Programming..............................    83
Performing Arts for Everyone.....................................    84
Sources of Income................................................    81
Statement by President Lawrence J. Wilker........................    80
Use of Appropriated Funds........................................    81

                         Woodrow Wilson Center

Committee Questions for the Record...............................    93
Statement by Director Lee H. Hamilton............................    88

                    National Endowment for the Arts

Arts Education Grants............................................   115
Biography of Bill Ivey...........................................   106
Challenge America................................................    98
Committee Questions for the Record...............................   122
Recent NEA Accomplishments.......................................    99
Response to Rep. Hoekstra's ``Dear Colleague'' Letter............   109
Testimony of Bill Ivey...........................................   101
Youth at Risk....................................................    98

                 National Endowment for the Humanities

American Legacy Editions Initiative..............................   186
Committee Questions..............................................   190
Cost of Moving from the Old Post Office Building.................   188
Ferris, William R., Statement of...............................169, 173
``First Ladies,'' History of.....................................   187
Grant Rejection Rates............................................   181
Humanities Education, NEH Support for............................   180
Impact of Cuts in Public Programs' Funding.......................   187
Native American Projects, NEH Support for........................   184
Nonfederal Support for the Humanities............................   185
    Stimulating Private Support for the Humanities...............   179
Opening Remarks..................................................   169
Oral History:
    Importance of................................................   185
    NEH Support for..............................................   182
Outreach Plans and Initiatives...................................   181
Regional Humanities Centers......................................   180
State Humanities Councils:
    NEH and the State Humanities Councils........................   179
    State Funding of Humanities Councils.........................   179

                    IMLS--Office of Museum Services

Committee Questions for the Record...............................   247
Statement by Acting Director Beverly Sheppard....................   240

                        Commission of Fine Arts

Committee Questions for the Record...............................   268
Statement for the Record.........................................   262

               Advisory Council on Historic Preservation

Committee Questions for the Record...............................   282
    Major Changes from Current Regulations.......................   296
Statement by Chairman Cathryn B. Slater..........................   278

                  National Capital Planning Commission

Committee Questions for the Record...............................   308
Statement by Chairman Harvey B. Gantt............................   302
    A GIS Consortium for the Nation's Capital....................   304
    Implementing the Legacy Plan.................................   302
    New Museums and Memorials....................................   303
    Project Review...............................................   305
    Serving Customers and Improving Operations...................   306

                       Holocaust Memorial Council

Committee Questions for the Record...............................   318

                             Presidio Trust

Committee Questions for the Record...............................   326

                                <greek-d>

</pre></body></html>
